<html>
<title> - PUTTING THE TEACHING OF AMERICAN HISTORY AND CIVICS BACK IN THE CLASSROOM</title>
<body><pre>[Senate Hearing 108-92]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-92

    PUTTING THE TEACHING OF AMERICAN HISTORY AND CIVICS BACK IN THE 
                               CLASSROOM

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING S. 504, TO ESTABLISH ACADEMIES FOR TEACHERS AND STUDENTS OF 
  AMERICAN HISTORY AND CIVICS AND A NATIONAL ALLIANCE OF TEACHERS OF 
                      AMERICAN HISTORY AND CIVICS

                               __________

                             APRIL 10, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



86-582              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel






                            C O N T E N T S

                               __________

                               STATEMENTS

                            April  10, 2003

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     1
McCullough, David, Historian and Writer, West Tisbury, MA........     8
Byrd, Hon. Robert, a U.S. Senator from the State of West Virginia    16
Cole, Bruce, Chairman, National Endowment for the Humanities; 
  Eugene W. Hickok, Under Secretary for Education, U.S. 
  Department of Education; and James H. Billington, The Librarian 
  of Congress, Library of Congress...............................    21
Ravitch, Diane, Research Professor of Education, New York 
  University, Brooklyn, New York, and Senior Fellow, The 
  Brookings Institution..........................................    35
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    40
Berg, Russell, student, Trumbull High School, Trumbull, CT; 
  accompanied by Peter Sullivan, History Teacher, Trumbull High 
  School, Trumbull, CT; and Blanche Deaderick, History Teacher, 
  Memphis, TN....................................................    44

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Byrd.................................................    67
    Senator Cornyn...............................................    68
    Senator Cochran..............................................    68
    Bruce Cole...................................................    70
    Eugene W. Hickok.............................................    71
    James H. Billington..........................................    74
    Blanche Deaderick............................................    75
    Diane Ravitch................................................    76
    Russell Berg.................................................    78
    Philip D. Duncan.............................................    79
    Lawrence M. Small............................................    80
    Robin Butterfield............................................    82

                                 (iii)

  

 
    PUTTING THE TEACHING OF AMERICAN HISTORY AND CIVICS BACK IN THE 
                               CLASSROOM

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Alexander, 
presiding.
    Present: Senators Alexander and Dodd.

                 Opening Statement of Senator Alexander

    Senator Alexander. We will call the hearing to order. I 
want to note the presence of Dr. Billington, Bruce Cole, Diane 
Ravitch, and others who will testify. I want to especially 
acknowledge the presence of Senator Robert Byrd of West 
Virginia, who has been a leader in the Senate in encouraging 
the focus on the study of traditional American history and who 
in previous Congresses put into the appropriations bill a 
significant appropriation which is now being administered by 
the Department of Education for grants for the teaching of 
American history across the country. I am delighted that 
Senator Byrd has come today.
    Senator, we hope you will have something to say before you 
leave. When would you prefer to do that?
    Senator Byrd. At some point when it is convenient after Mr. 
McCullough speaks.
    Senator Alexander. All right.
    Senator Byrd. I came here this morning especially to hear 
him.
    Senator Alexander. We are glad you are here, and after Mr. 
McCullough finishes, I will invite you to come up and make a 
statement.
    Senator Byrd. Thank you.
    Senator Alexander. We appreciate your coming.
    I want to thank Senator Gregg for inviting me to Chair this 
hearing this morning. We had a good visit with Senator Kennedy 
prior to the hearing. The hearing today will address the 
intersection of two concerns which are extremely important to 
the future of our country: the education of our children and 
the principles that unite us as Americans. It is time to put 
the teaching of American history and civics back in its 
rightful place in our schools so our children can grow up 
learning what it means to be an American.
    We are especially sensitive to this right now at a time 
when we are asking our young men and women to fight to defend 
our country's values. We are not doing a very good job of 
teaching just what those values are. Too many of our children 
do not know exactly what it means to be an American. National 
exams show that 4th, 8th, and 12th graders are not proficient 
in civics knowledge, and, further, the students do not have 
basic knowledge. Children usually do not learn because they are 
not being taught, and so the focus today is to put an increased 
focus on the teaching of American history and civics.
    As I mentioned earlier, this is not the first effort of the 
United States Congress to encourage this. In addition to 
Senator Byrd's initiative on the teaching of American history, 
there are 11 programs that the Federal Government funds, and as 
Mr. McCullough will undoubtedly talk about, there are huge 
institutions that we have that make the teaching of American 
history easier and more exciting. Dr. Hickok from the 
Department of Education will be here to talk about those as 
well.
    This hearing is specifically on the subject of legislation 
which I introduced with 19 cosponsors--including Senator Reid, 
the Democratic Whip; Senators Gregg and Kennedy from this 
committee; Senator Frist, our Majority Leader--which would 
create summer residential academies for teachers and students 
of American history and civics, 2 weeks for teachers, 4 weeks 
for students. And at these academies, they would learn more 
about and be inspired about the key events, ideas, and 
institutions that created our democracy.
    We have in our State of Tennessee a number of Governor's 
Schools for teachers and for students which were enormously 
successful in a variety of subjects. And there have been such 
Governor's Schools in 28 States. It is a way for teachers to 
come together in the summer for a couple of weeks and find 
different ways to teach their subjects and to improve their 
learning of the content.
    In addition, the legislation that we are reviewing would 
create a National Alliance of Teachers of American History and 
Civics to make it easier for them to use the Internet and other 
materials and exhibits that exist in the content of their 
teaching.
    President Bush has taken a major interest in the teaching 
of American history and civics. With Mr. McCullough at his 
side, last fall he launched a new initiative, which we will 
hear more about today from Bruce Cole of the National Endowment 
for the Humanities.
    So we have an interesting set of witnesses, a fascinating 
subject, and our lead-off witness is a fascinating individual.
    David McCullough has several distinctions. One is that none 
of his books have ever been out of print. Very few authors can 
say that. He has won two Pulitzer Prices. He was won the 
National Book Award twice. He is one of America's best-known 
authors. Mr. McCullough, I think virtually every day of the 
letter you recount in the John Adams book that Adams wrote to 
Jefferson when our country was beginning. He said to Jefferson, 
``Aren't we privileged to serve our country in such serious 
times?'' I think about that every day in these serious times, 
and I am sure most of our colleagues do as well.
    We welcome Mrs. McCullough here. Thank you both for coming, 
and we look forward to your comments.
    Before we begin I have a statement from Senator Murray.
    [The prepared statements of Senators Alexander and Murray 
follow:]

                Prepared Statement of Senator Alexander

    The hearing today will address the intersection of two 
urgent concerns that will determine our country's future. These 
are also the two topics I care about the most: the education of 
our children and the principles that unite us as Americans.
    It is time that we put the teaching of American history and 
civics back in its rightful place in our schools so our 
children can grow up learning what it means to be an American.
    Especially when we are asking our young men and women to 
tight to defend our values. We need to do a better job of 
teaching just what those values are.
    Yet, too many of our children do not know what makes 
America exceptional. National exams show that three-quarters of 
the nation's 4th, 8th and 12th graders are not proficient in 
civics knowledge and a third of students do not even have basic 
knowledge, making, them ``civic illiterates.''
    Christopher Hitchens, in a 1998 article in Harper's, 
reported:
    59 percent of 4th graders do not know why Pilgrims and 
Puritans first voyaged to America.
    68 percent of 4th graders can't name the first 13 colonies.
    90 percent of 8th graders can't recount anything about the 
debates of the constitutional convention.
    Children are not learning about American history and civics 
because they are not being taught it. American history has been 
watered down, and civics is too often dropped from the 
curriculum entirely. Today, more than half the states don't 
have a requirement for students to take a course--even for one 
semester--in American government.
    Until the 1960s, civics education, which teaches the duties 
of citizenship, was a regular part of the high school 
curriculum, but today's college graduates probably have less 
civics knowledge than high school graduates of 50 dears ago. 
Reforms, so-called, in the 60s and 70s resulted in the 
widespread elimination of required classes and curriculum in 
civics education.
    To help put the teaching of American history and civics in 
its rightful place, I introduced legislation last month when I 
made my maiden speech. This legislation has nineteen co-
sponsors including: Senators Reid, Gregg, Kennedy, Frist, Dodd, 
DeWine, Stevens, Santorum, Inhofe, Nickles, Cochran, Cornyn, 
Coleman, Enzi, Sessions, Warner, Murkowski, Miller, and 
Chambliss. We call it the ``American History and Civics Act.'' 
This act creates Presidential Academies for Teachers of 
American History and Civics and Congressional Academies for 
Students of American History and Civics. These residential 
academies would operate for two weeks (in the case of teachers) 
and four weeks (for students) during the summer.
    Their purpose would be to inspire better teaching and more 
learning of the key events, persons and ideas that shape the 
institutions and democratic heritage of the United States.
    I have had some experience with such residential summer 
academies, when I was Governor of Tennessee. In 1984, we began 
creating Governor's schools for students and teachers. For 
example, there was the Governor's School for the Arts at Middle 
Tennessee State University and the Governor's School of 
International Studies at the University of Memphis as well as 
the Governor's School for Teachers of Writing at the University 
of Tennessee at Knoxville, which was especially successful. 
Eventually there were eight Governor's Schools helping 
thousands of Tennessee teachers improve their skills and 
inspiring outstanding students to learn more about core 
curriculum subjects. When these teachers and students returned 
to their schools for the next school year, they brought with 
them a new enthusiasm for teaching and learning that infected 
their peers. Dollar for dollar, the Governor's Schools were one 
of the most effective and popular educational initiatives in 
our state's history.
    States other than Tennessee have had similar success with 
summer residential academies. The first Governor's school was 
started in North Carolina in 1963 when Governor Terry Sanford 
established it at Salem College in Winston-Salem. Upon the 
establishment of the first school, several states, including 
Georgia, South Carolina, Arkansas, Kentucky, and Tennessee 
established similar schools.
    For example, in 1973 Pennsylvania established Governor's 
Schools of Excellence, which has 14 different programs of 
study. As in Tennessee, students participating in the 
Pennsylvania Governor's School program attend academies at 8 
different colleges to study everything from international 
studies, to health care and teaching. Also established in 1973, 
Virginia's Governor's School is a summer residential program 
for 7500 of the Cormmonwealth's most gifted students. 
Mississippi established its Governors School in 1981. The 
Mississippi University for Women hosts the program, which is 
designed to give students academic, creative, and leadership 
experiences. Every year West Virginia brings 80 of its most 
talented high school performing and visual arts students to 
West Liberty State College for a three-week residential 
program.
    These are just a few of the more than 100 Governors' 
schools in 28 states--clearly the model is a good one. The 
legislation I propose today applies that successful model to 
American history and civics education at the national level by 
establishing Presidential and Congressional academies for 
students and teachers of those subjects.
    Additionally, this proposed legislation authorizes the 
creation of a national alliance of American history and civics 
teachers who would be connected by the interest. The alliance 
would facilitate sharing of best practices in the teaching of 
American history and civics. It is modeled after an alliance I 
helped the National Geographic Society begin during the 1980's 
to put geography back into the American school curriculum. 
Tennessee and the University of Tennessee were among the first 
sponsors of the alliance.
    This legislation creates a pilot program. Up to 12 
Presidential academies for teachers and 12 Congressional 
Academies for students would be sponsored by educational 
institutions. The National Endowment for the Humanities would 
award 2-year renewable grants to those institutions after a 
peer review process. Each grant would be subject to rigorous 
review after three years to determine whether the overall 
program should continue, expand or end. The legislation 
authorizes $25 million annually for the four-year pilot 
program.
    There is a broad basis of renewed support for and interest 
in American history and civics in our country.
    David Gordon noted in a recent issue of the Harvard 
Education Letter: ``A 1998 survey by the nonpartisan research 
organization Public Agenda shoved that 84 percent of parents 
with school-aged children said they believe that the United 
States is a special country and they want schools to convey 
that belief to their children by teaching about its heroes and 
traditions. Similar numbers identified the American ideal as 
including equal opportunity, individual freedom, and tolerance 
and respect for others. Those findings were consistent across 
racial and ethnic groups.''
    Our national leadership has responded to this renewed 
interest. In 2000, at the initiative of Senator Byrd. Congress 
created grants for schools that teach American history as a 
separate subject within school curricula. We appropriated $100 
million for those grants in the recent Omnibus appropriations 
bill, and rightfully so. They encourage schools and teachers to 
focus on the teaching of traditional American history, and 
provide important financial support.
    Last September, with historian David McCullough at his 
side. President Bush announced a new initiative to encourage 
the teaching of American history and civics. He established the 
``We the People'' program at the NEH, which will develop 
curricula and sponsor lectures on American history and civics. 
He announced the ``Our Documents'' project, run by the National 
Archives. This would take one hundred of America's most 
important documents from the National Archives to classrooms 
and communities across the country.
    This year, he will convene a White House forum on American 
history, civics, and service. There, we will discuss new 
policies to improve the teaching of history and civics in 
elementary and secondary schools.
    This proposed legislation takes the next step by training 
teachers and encouraging outstanding students. We need to 
foster a love of this subject and arm teachers with the skills 
to impart that love to their students.
    Mr. President, in 1988, at a meeting of educators in 
Rochester, the President of Notre Dame University, Monk Malloy, 
asked this question: ``What is the rationale for the public 
school?'' There was an unexpected silence around the room until 
Al Shanker, the president of the American Federation of 
Teachers, answered in this way: ``The public school was created 
to teach immigrant children the three R's and what it means to 
be an American with the hope that they would then go home and 
teach their parents.''
    From the founding of America, we have always understood how 
important it is for citizens to understand the principles that 
unite us as a country. Other countries are united by their 
ethnicity. If you move to Japan for example, you can't become 
Japanese. A few things in which we believe, on the other hand, 
unite Americans. To become an American citizen, you subscribe 
to those principles. If there were no agreement on those 
principles, as Samuel Huntington has noted, we would be the 
United Nations instead of the United States of America.
    There has therefore been a continuous education process to 
remind Americans just what those principles are. Thomas 
Jefferson, in his retirement at Monticello, would spend 
evenings explaining to overnight guests what he had in mind 
when we helped create what we call America. By the mid-19th 
century it was just assumed that everybody knew what it meant 
to be an American. In his letter from the Alamo, Col. William 
Barrett Travis pleaded for help simply ``in the name of 
liberty, patriotism and everything dear to the American 
character.''
    But the most important Americanizing institution, as Mr. 
Shanker reminded us in Rochester in 1988, was the new common 
school. McGuffey's Reader, which was used in many classrooms, 
sold more than 120 million copies introducing a common culture 
of literature, patriotic speeches and historical references.
    In the 20th century it was war that made Americans stop and 
think about what we were defending. President Roosevelt made 
certain that those who charged the beaches of Normandy knew 
they were defending for freedoms.
    But after World War II, the emphasis on teaching and 
defining the principles that unite us has waned. Unpleasant 
experiences with McCarthyism in the 1950's, discouragement 
after the Vietnam War, and history books that left out or 
distorted the history of African-Americans made sonic skittish 
about discussing ``Americanism.'' The end of the Cold War 
removed a preoccupation with who we were not, making it less 
important to consider who we are. The Immigration law changes 
in 1965 brought to our shores many new Americans and many 
cultural changes. As a result, the American Way became much 
more often praised than defined.
    Changes in community attitudes, as they always are, were 
reflected in our schools. According to historian Diane Ravitch, 
the public school virtually abandoned its role as the chief 
Americanizing Institution. We have gone, she explains, from one 
extreme (simplistic patriotism and incomplete history) to the 
other--``public schools with an adversary culture that 
emphasize the nation's warts and diminish its genuine 
accomplislments. There is no literary canon. There are no 
common readings, no agreed upon lists of books, poems and 
stories from which students and parents plight be taught a 
common culture and be reminded of what it means to be an 
American.''
    During this time many of our national leaders contributed 
to this drift toward agnostic Americanism. These leaders 
celebrated multiculturalism and bilingualism and diversity at a 
time when there should have been more emphasis on a common 
culture and learning English and unity.
    America's variety and diversity is a great strength, but it 
is not our greatest strength, Jerusalem is diverse. The Balkans 
are diverse. America's greatest accomplishment is not its 
variety and diversity but that we have found a way to take all 
that variety and diversity and unite us as one country. E 
pluribus Unum: out of many, one. These three Latin words that 
were the first motto of our nation, E Pluribus Unum, are still 
in the right order--Out of Many, One--even though some are 
trying mightily to turn them around to say that we are ``Many, 
Out of One.'' In other words, in the United States of America, 
I believe unity still trumps diversity. That is what makes 
America truly exceptional.
    Since 9/11 the national conversation about what it means to 
be an American has been different. The terrorists focused their 
cross-hairs on the creed that unites Americans as one country--
forcing us to remind ourselves of those principles, to examine 
and define them, and to celebrate them. The President himself 
has been the lead teacher. President Bush has literally taken 
us back to school on what it means to be an American. The 
President called on us to make those magnificent images of 
courage and charity and leadership and selflessness more 
permanent in our every day lives through Freedom Corps. And 
with his optimism, lie warded off doomsayers who tried to 
diminish the real gift of Americans to civilization, our 
cockeyed optimism that anything, is possible.
    Just after 9/11, I proposed an idea I called ``Pledge Plus 
Three.'' Why not start each school day with the Pledge of 
Allegiance--as we do here in the Senate--followed by a faculty 
member or student sharing for three minutes ``what it means to 
be an American.'' The Pledge embodies many of the ideals of our 
National Creed: ``one nation, under God, indivisible, with 
liberty and justice for all.'' It speaks to our unity, to our 
faith, to our value of freedom, and to our belief in the fair 
treatment of all Americans.
    In Dr. Ravitch's words, instead of incomplete history and 
simplistic patriotism, we went to the other extreme--``Public 
schools with an adversary culture that emphasized the nations 
warts and diminished its genuine accomplishments.''
    So imagine the plight of teachers. Assaulted by simplistic 
patriotism on one side and multiculturalism on the other, 
teachers dove for cover, textbooks became sanitized and boring, 
and we've seen the embarrassing results.
    Samuel Huntington has written that most of American 
politics and government is about balancing conflicts between 
the principles that unite us and dealing with the 
disappointments of not being able to live up to our greatest 
dreams.
    Mr. President, if most of our politics and government is 
about applying to our most urgent problems the principles and 
characteristics that make us the exceptional United States of 
America, then we had better get about the teaching and learning 
of those principles and characteristics.
    At a time when there are record numbers of new Americans, 
and at a time when our values are under attack, at a time when 
we are at war to defend those values, there can be no more 
urgent task than putting the teaching of American history and 
civics back in its rightful place in our schools so our 
children can grow tip learning what it means to be an American.
    A man from Nashville who was quoted in the Public Agendas 
recent report, ``Knowing it By Heart'' put it this way: ``We 
have to teach and remind our children about the people that 
sacrificed for those freedoms, from the Revolutionary War to 
the different wars we have. These freedoms didn't come because 
we're just a nice bunch of people. A lot of people put their 
lives and careers on the line several times through our history 
to get these freedoms, and we do take them for granted.''
    I again want to thank Senator Gregg and Senator Kennedy, 
for agreeing to have the committee hold this hearing today on 
this legislation so that we can determine how it might 
supplement and work with already existing programs and the 
Presidents future initiatives.
    I look forward to hearing from the witnesses.

                  Prepared Statement of Senator Murray

    Mr. Chairman, I want to thank you for holding this hearing 
and I also thank all of today's witnesses for taking some time 
to share their insights and experiences with us. I particularly 
want to thank Russell Berg for his thoughtful comments on the 
importance of civic education in our schools, and Peter 
Sullivan for the important work he does in educating young 
people about how our government works.
    That's exactly what citizenship education is all about--
teaching young people how our unique democracy was created, 
affects our lives and relies on the involvement of its 
citizens. Citizenship education also provides an opportunity 
for schools to help students understand the commonly-held 
values that have shaped our country. The truth is that our 
democracy cannot function without an informed, engaged 
citizenry. It requires that all of us fulfill certain civic 
responsibilities, whether that means volunteering time in our 
communities, staying informed on important issues, holding 
elected officials accountable or even running for office. 
Citizenship education passes on to the next generation respect 
and commitment to this fundamental basis of our democracy. 
While not everyone needs to be a constitutional law scholar, 
every American should possess a basic understanding of our 
history and government if they are to be active participants in 
self-governance. Unfortunately, citizenship education in 
America today is not as pervasive or as strong as it should be.
    For this reason I am pleased to support the Alexander bill. 
Russell Berg offered us a glimpse into what strong civic 
education looks like. The program in which he participates and 
described, ``We the People,'' is one I am familiar with. I have 
met with some of the educators who are involved in ``We the 
People,'' and it is impressive in its breadth, depth, 
creativity and effectiveness. I think it would be a tremendous 
step forward if this kind of education were available to all 
America's students, and I think Senator Alexander's bill moves 
us in that direction.
    Thank you.

   STATEMENT OF DAVID McCULLOUGH, HISTORIAN AND WRITER, WEST 
                          TISBURY, MA

    Mr. McCullough. Mr. Chairman, thank you for the honor of 
appearing today. I look upon this as a great step forward for 
American history and for our children and children to come. I 
am extremely grateful to you, to Senator Byrd, to President 
Bush, Senator Kennedy, and others who have participated so far 
in taking what seems to me a very important step in improving 
the situation in our schools.
    History has served many purposes, and I think it is 
wonderful that history now is providing you here in the 
Congress with something you can be bipartisan about. It should 
be that way. This is a need that calls for all of our efforts. 
In my view, the key is the teacher, but we cannot leave the 
entire responsibility to just the teachers. It is something we 
all have to address as parents, grandparents, and citizens.
    I have been fortunate to be invited to universities and 
colleges to speak and lecture for years now, and I have been 
virtually in every State, on campuses large and small. And a 
few years ago, one morning I lectured at a major university in 
the Midwest. And a young woman, a student, came up to me after 
my talk and said she was very glad that she had come to hear me 
speak that morning because until she heard my talk, she had 
never understood that the original 13 colonies were all on the 
East Coast. And I was so stunned by that. I felt so sad about 
it. I felt so angry about it. How could she have gotten that 
far in our system of education to be a student on one of the 
campuses of one of our really important universities and not 
have any idea of where we began and how we began.
    Very soon after that, I was taking part in a seminar, 
teaching a seminar at one of our Ivy League colleges. And it 
was a beautiful winter day and the snow was coming down 
outside, and I thought, This is really--this is the best. I had 
25 students who were all history majors and all seniors and all 
honor students. And I decided that I would open the 
conversation by asking if anyone there knew who George Marshall 
was. Not one knew who he was. Finally, one student ventured to 
say, Did he have maybe something to do with the Marshall Plan? 
And we then could begin talking about George Marshall.
    Once, in his advanced years, George Marshall said that he 
thought that his education at Virginia Military Institute had 
been quite inadequate. He felt he had been badly educated, and 
he was asked why. He said, ``Because we were taught no 
history.''
    So I felt something had come sort of full circle there. We 
are doing a dreadful job of teaching history to our children. 
We are raising a generation of young Americans who, to a very 
large degree, are historically illiterate. The Council of 
American Alumni just did a survey a year or so ago and found 
that the students on our top 50 campuses on a general knowledge 
of history test or survey scored about what they did in high 
school 20 years ago.
    I will give you one example. Question 19: Who was the 
commanding officer at the surrender of Cornwallis at Yorktown? 
More than half the students guessed that it was Ulysses S. 
Grant, more answered George Washington, and 6 percent said it 
was Douglas MacArthur. They were guessing. They had no idea.
    Now, what difference does it make if you do not know who 
the commanding American general at Yorktown was? It means that 
you do not have any idea that that was the last battle of the 
Revolutionary War. The Revolutionary War was the longest war in 
our history except for Vietnam; that George Washington was the 
commanding general all through the war--you probably have no 
idea of that--and that he had served 8 and a half years without 
ever taking any time off and without pay; and that if it had 
not been for George Washington, we would not have won the 
Revolutionary War, certainly not when we did, or as we did. And 
if it were not for George Washington, we probably would not 
have a Constitution such as we have nor a Presidency such as we 
have.
    Now, I was raised in the day when George Washington's 
portrait hung in every classroom along with Abraham Lincoln, 
when our geography courses began with the study of the Tigris 
and Euphrates and the beginnings of history and civilization in 
present-day Iraq, and we graduated from grade school, I am 
convinced, knowing more basic American history and geography 
than many students on university campuses know today.
    I have been involved with something called the National 
Council for History Education, and our program has been to 
bring teachers to a campus once a year in the summertime, some 
200 teachers, and a number of people volunteer their time to go 
and work with the teachers, try to get them involved with the 
processes of history, to catch the excitement of history so 
that they will carry that back to the classroom.
    It has been a very effective program in what it does to 
help those teachers, but it has been less than a drop in the 
bucket. And when I think of the potential, when I think of what 
can be done, that is what is so exciting. This can really make 
a huge difference.
    There was a marvelous child psychologist, teacher, 
professor of child psychology at the University of Pittsburgh 
years ago named Margaret McFarland, and Margaret McFarland's 
disciples are all over the country, and thank goodness. And her 
most famous disciple was Fred Rogers, Mister Rogers, who 
reached more children, taught more children, than anybody who 
has ever lived. And Fred Rogers would say to anyone who was 
interested that all he was doing was to carry on the principles 
and the ideals of Margaret McFarland.
    And Margaret McFarland's thesis was very simple: that what 
matters to a student and what matters in education is attitude; 
and that attitudes are not taught, they are caught; and if the 
teacher is enthusiastic about her material, if the teacher 
knows her subject, if the teacher gets up in front of the class 
or calls you over to the table and says, ``Look in this 
microscope, this is really great, you are going to like to see 
this,'' that teacher is conveying an attitude that the students 
get right away.
    Conversely, if the teacher is bored with the subject, if 
the teacher does not know anything about the subject, and if 
the teacher has no affection, love, enthusiasm for the subject, 
the student gets that.
    My feeling, sir, is that the real effort, the real 
concentration ought to be placed on grade school teachers. We 
have to reteach our teachers. We have to revise how we are 
teaching our teachers. We have great teachers in this country, 
many of them. But we have too many teachers who are coming out 
of schools of education, majoring in education, with degrees in 
education, who are then told that they are going to teach 
botany or history or physics, and they do not know botany, 
history, or physics. They have not majored in that subject. And 
it is not just that they do not have the knowledge; they do not 
have the affection, the love for the material to want to share 
this world that they know.
    Now, we cannot function as a society if we do not know who 
we are and do not know where we came from and how we got to 
where we are. Jefferson said it perfectly in one sentence. He 
said, ``Any Nation that expects to be ignorant and free expects 
what never was and never will be.''
    The importance of history has been repeated again and again 
and again, and often by some of our most prominent leaders. 
Harry Truman said, ``The only new thing in the world is the 
history you do not know.'' Daniel Boorstin, Dr. Billington's 
predecessor and one of our front-rank historians, said, 
``Anybody who tries to plan for the future without a sense of 
the past, that is like trying to plant cut flowers.'' And we 
are raising cut flowers, and it is not their faults. It is our 
faults. And it should not just make us sad. It should make us a 
little angry and a little worried.
    If a child grows up not knowing what a demagogue is, if a 
child grows up thinking this is the darkest time we have ever 
been in, they are not going to be able to cope as they should 
as a citizen, as a participant in self-government.
    We heard that after September 11th, people saying, We 
should have known better, on television and in the press, this 
is the darkest, most dangerous time we have ever been through. 
Well, anybody who says that has no sense of history. We have 
been through much worse times. We have been through more 
dangerous times. We have been through times when the outcome 
was far less clear, far less certain.
    One of the most important things to convey in teaching 
history is that history is about human beings, it is about 
people who did not know everything and certainly did not know 
any more than we do how it is going to come out. And it is 
joining that human experience of the past and the understanding 
of human nature, the understanding of cause and effect, the 
understanding that one individual can truly make a difference 
that is the real value of history.
    Yes, it is very important that we understand, for example, 
why we have an independent judiciary, let us say, or a three-
part system of Government. That is extremely important. We 
ought to have required courses in the Constitution in all our 
universities in this country, in my view,and I wonder if you 
know how many universities or colleges require a course in the 
Constitution. Three. And you know what those three are? The Air 
Force Academy, West Point, and Annapolis.
    Now, if an officer in the military ought to know the 
Constitution, surely we as citizens ought to know the 
Constitution. And we do not.
    What we do not know is infinitely greater, what our 
oncoming generation does not know about the past is infinitely 
greater than even the worst of these studies reveal. You know, 
more than half of the college student seniors in our best 
universities could not say when Abraham Lincoln was President. 
When you have Ivy League students saying they thought that 
Germany and Japan were our allies in World War II, you know you 
have got a very serious problem. And it is curable. Teach the 
teachers. Involve the teachers in the intellectual and 
emotional and human excitement of history.
    If we can just convey that the people who created this 
country were not gods, they were not icons, they were human 
beings, and yet they could rise to the occasion and do what 
they did despite their imperfections, their flaws, their 
grievous mistakes on some occasions, we can, too. Again, 
Jefferson said it right in the very first line of the 
Declaration of Independence: ``When in the course of human 
events...'' The key word is ``human.'' And they were not 
perfect, and they knew that what they had done was not perfect, 
that this is an ongoing experiment, an ongoing creative process 
and we all have to take part in that spirit. And if a student 
comes out of a course in American history knowing only that, 
that course will be of infinite value.
    In the midst of the darkest days of World War II, after 
Pearl Harbor, when half of our fleet had been destroyed, when 
we had no Air Force to speak of, when our recruits were 
drilling with wooden rifles, and Hitler was almost at Moscow, 
and German submarines were sinking our ships off of the coast 
of Florida and New Jersey at will, our oil tankers, Winston 
Churchill came across the Atlantic and gave a very great speech 
in which he said, ``We haven't journeyed this far because we 
are made of sugar candy.'' And Winston Churchill, along with 
everything else, was a historian.
    Thank you, sir.
    Senator Alexander. Thank you, Mr. McCullough.
    Now, may I ask this question? We are talking about today 
about the possibility of creating, let's say, a 2-week summer 
residential program for teachers of American history and 
civics. And let's say it is in Massachusetts, which is your 
home State, where you live. And let's say a major university 
would like to be the host; we have dormitories that are not 
full in the summer, we have the facilities, we want to be a 
part of this. And Bruce Cole and the National Endowment for the 
Humanities liked the application of this Massachusetts 
university and gave them some Federal money. They select, 200 
Massachusetts teachers. And let's say they are not just 
teachers of Massachusetts history or American history; they are 
first grade and second and third and fourth, fifth, sixth, they 
are teachers all the way through K-12 on the theory that every 
teacher ought to teach some American history as a part of a 
curriculum.
    And let's say they met for 2 weeks in June, and you found 
yourself in charge of those teachers for 10 days. They came 
there and lived at that university. What would you do with 
them? How would you help them become more effective teachers 
and to learn more about the key events and persons and 
institutions that have created our Government?
    Mr. McCullough. Well, first of all, I think that would be 
marvelous, and I would try to take advantage as much as 
possible of two great--three great Federal institutions already 
in place, all ready to play a big part: the National Archives, 
the Library of Congress, and the National Park Service.
    I am not affiliated with a university. I have no access to 
a university library except as a guest. I have done most of my 
work, most of my career has been possible because of the 
National Archives, the Library of Congress, and the National 
Park Service, where there are infinite resources and, 
importantly, marvelous staff people.
    I would first of all try to set up some program with the 
Library of Congress and the National Archives whereby these 
teachers can understand how you do research through electronic 
means, getting original documents and the like through the 
Archives and the Library of Congress, not just so that they 
will have these items to use in their classrooms but because 
they will catch the bacillus, the bug of history in doing the 
research, the excitement of it, get them involved in the 
detective casework of history. And it never fails. Never fails.
    And if it is Massachusetts, it would be ideal. I would have 
them come to the Adams House as a guest of the Park Service for 
that day, set up a tent, whatever you wish, and I would ask 
somebody--maybe me--to come and talk to them about John Adams. 
I would. I would invite David McCullough to come and talk about 
John Adams. [Laughter.]
    And then we would tour the house, and we would use the 
house, in effect, as kind of a lab for the day.
    Senator Alexander. This is in Cambridge?
    Mr. McCullough. No. It is in Quincy, MA.
    Senator Alexander. Quincy.
    Mr. McCullough. And I think we have to bring the lab 
technique to the teaching of the humanities far more than we 
have done. I think that is the way people really learn, and 
instead of being in a science laboratory looking at a model of 
a trilobite or something, you are on the grounds of the Adams 
House, and you are going through the Adams House with all its 
real possessions, real items. The Adams House is like a 
geological cross-cut, not just of a family history but of 
American history, two Presidents' home right there.
    I would then take them to see--obviously I would go to the 
Minuteman National Park at Concord and Lexington. Then I would 
take them to the Longfellow House, which is also a national 
park site, which was Washington's headquarters during the 
Revolution, during the siege of Boston. And so in those three 
sites, they could get a big banquet of American history focused 
on the Revolutionary War era, such as you could not get 
anywhere else in the world--free. It is all there. The park 
historians are there to talk, and the park historians are 
superb. The site is there. And they are not only affected by 
this, influenced by it, but then when they in turn can bring 
their students to those sites, then their part in the school 
trip becomes infinitely more exciting and meaningful for the 
children. Everybody benefits.
    We have all had the experience--I hope we have all had the 
experience of being taken as a child either on a school trip or 
by parents or friends of parents or whatever to one of our 
national historic sites--a battlefield, Presidential home--and 
there they are. They are all there waiting to be used for just 
this kind of a purpose.
    So I think if we could set something up like that in 
Massachusetts it would be ideal. And you would not even have to 
have them stay in a university campus. I mean, the number of 
teachers in, let's say, a 40-mile radius of the Adams House or 
the Minuteman National Park at Concord and Lexington, it would 
be enormous.
    Senator Alexander. Now, someone might say, well, that is 
great for Massachusetts, but not every State has such a wealth 
of historical sites. What would you say to them?
    Mr. McCullough. I would say that almost every State in the 
country has such a site. Thirty-four Presidents, Presidential 
sites, almost every President, battlefields, and not just 
political or military sites. Edison's laboratory at Menlo Park 
is a national historic site. Up and down the line. And if you 
cannot do that, then there are other ways to do it, which is to 
take them to sites that are State parks, State historical 
society sites, or take them to a repository of some exciting 
documentary material, primary source material.
    One summer, for example, we ran a program in Ohio, and the 
teachers who were taking part in this National Council for 
History Education worked with original documents relating to 
the Underground Railroad. And they were so excited that when 
the 2 weeks were up, they did not want to leave; they did not 
want to go home. They had more work to do on their project.
    There, again, Margaret McFarland's thesis, they can bring 
that back to the classroom, that excitement. She said, ``Show 
them what you love.'' That is the way to teach: show them what 
you love.
    Senator Alexander. One of Tennessee's most interesting 
teachers is John Rice Irwin, who created the Museum of 
Appalachia, which celebrates the way mountain people lived many 
years ago. But his thesis is what you just said. He will remind 
students in an area who might think they have grown up in the 
mountains and not have as much as someone who grows up in 
Massachusetts that they, in fact, have a rich heritage. And he 
will take them to Roane County, which is just 30 miles away, 
and say, ``Sam Rayburn was born here.'' And he will drive 10 
more miles and say, ``Cordell Hull and Albert Gore, Sr., were 
born here, and Hull was Gore's teacher.'' And then over here 
was Howard Baker and over here Mark Twain's father lived. And 
by bringing all of that to life, he helps students and teachers 
in that area see that they do not have to go very far to have a 
rich and interesting course in American history.
    May I switch gears just a little bit. Here is a comment 
that a panel participant made at a recent meeting of the 
National Council of Social Studies. He said, ``We need to de-
exceptionalize the United States. We are just another country 
and another group of people.'' This came in response to a 
question from a teacher who wanted to learn more about American 
history after 9/11.
    We are talking about American history. Maybe we are jumping 
over something. Maybe we ought to step back and say, Why 
American history? I mean, is America really exceptional? And if 
so, in what way? Because there are some who answer that 
question, no, it is not.
    Mr. McCullough. I would love to answer that question at 
length but cannot this morning. Yes, we are exceptional. Yes, 
the American story is exceptional, has been from the beginning. 
And everyone, almost everyone who participated in it from the 
beginning sensed that or knew that or said that.
    The American Revolution was the first successful revolution 
of a colonial people breaking lose from the empire and 
establishing their own Government ever in history, the first 
Government to succeed as a self-governing people. Our hope and 
promise that we have given to the world, despite incongruities, 
inconsistencies, injustices, failures, disappointments, has 
continued from the beginning--as Lincoln said, the last best 
hope. And we have proven again and again that we mean what we 
say and that we have been willing to sacrifice in order to 
sustain the experiment, the dream.
    And to just say, well, we are not exceptional is really to 
denigrate so much that has been done for us by our 
predecessors. We are all the beneficiaries of those exceptional 
people who went before us, who had the ingenuity, who had the 
courage, who had the selfless response to the possibilities of 
self-government. And we must never take it for granted. We must 
never fail to not just honor and respect but learn from them, 
because so much of what they did was for our benefit. They 
wanted us--we have always been a country that was trying to 
improve itself, to become better. And we have been inclusive 
from the beginning.
    You could go to France, Senator, tomorrow and live there 
for the rest of your life, and you would never be a Frenchman. 
You could have gone there when you were 15, and you would never 
be a Frenchman, ever. If you were in France and you came here 
and settled here and became a citizen, you are an American, 
because it is open to all and it is opportunity for everyone as 
much as any society that has ever existed in all of history.
    Senator Alexander. I have one last question, and then we 
will allow you to get on with your schedule, and we will go to 
other witnesses. You lead me to it. We have talked about how, 
for a variety of reasons, we have not focused on the teaching 
of American history. Perhaps one reason is because teachers 
have not learned it or they have not caught the attitude that 
helps them impart this attitude of teaching. I think there may 
be another reason that teachers may not teach American history. 
I think many of them are afraid to. They are reluctant to 
because, in their words, it has become controversial. We have, 
on the one hand, super patriots, and we have, on the other 
hand, a politically correct crowd. And so, for example, Thomas 
Jefferson owned slaves, that is a subject that a teacher may be 
reluctant to discuss. Or many teachers are reluctant to discuss 
the religious nature of our country because they hear that we 
cannot teach religion in schools. Many teachers may be afraid 
to discuss a whole variety of issues because they are 
controversial or because they have conflicts. Some schools have 
even gone so far as to take the names of George Washington and 
Thomas Jefferson off the school because they owned slaves.
    What would you say to teachers who are afraid to wade into 
controversial territory in American history? What would your 
advice to them be?
    Mr. McCullough. I would say read history and you will 
understand the controversy and differences of opinion, and 
various forms of coercion have been part of the story from the 
beginning. There is nothing new about this kind of difference 
of opinion, contradiction, conflict. It has always been there, 
from the beginning. And if we have reached the State where we 
are afraid to teach our own history, that is as sad a comment 
as I can imagine.
    I think there are three great needs in the teaching of 
history. The first is we have to revise how we are teaching our 
teachers.
    The second is we have to do something about the textbooks, 
which are, by and large, deadly. Some of them, they seem to 
have been written almost as if for the purpose of killing 
anyone's interest in history. If somebody said to you, ``You 
have got to go home and read this book tonight for 2 hours,'' 
you would probably say after you had read maybe for 15 minutes, 
``Why am I being punished this way?''
    We should have them reading what we would want to read, and 
the argument that students, children today do not want to read 
has been blown right out of the water by Harry Potter. When you 
see an 8-year-old sit down a read a 700-page book for the 
pleasure of reading, you know that there is nothing adverse 
about their attitude toward reading.
    And the third thing is not to put all the burden of 
responsibility on the teachers. We have to assume 
responsibility. We have to talk about history in front of our 
children, with our children, our grandchildren. We have to take 
them to national parks and historic sites and talk about the 
books that we have read, talk about the people in history who 
have interested us, who have been our heroes. Make it part of 
conversation in the family. Set the example at home.
    Senator Alexander. Well, David McCullough, thank you not 
just for being here today, but helping a whole Nation catch an 
attitude about American history. Your narrative of John Adams 
is the most recent example of that and captured the imagination 
of Americans who knew about John Adams but had no idea of all 
you told about him--you told a wonderful story. I hope we can 
work together with other members of the U.S. Senate and 
Congress and teachers to find ways to inspire the teaching of 
American history. We appreciate your coming this morning.
    Mr. McCullough. Thank you, sir.
    Senator Alexander. Thank you very much. [Applause.]
    Now, before our second panel--our second panel includes 
Bruce Cole, Chairman of the National Endowment for the 
Humanities; Dr. Gene Hickok, the Under Secretary of Education; 
Dr. Jim Billington, the Librarian of Congress. Before they come 
to the table, I want to ask Senator Robert Byrd if he will--
invite him to make a statement.
    While he is coming, it is customary for Senators to 
compliment one another. I have learned that even in 3 months of 
being in the Senate. But in this case, Senator Byrd actually 
deserves it. He is a historian himself. He reads history. He 
writes history. He loves history. He has caught the attitude of 
history. He speaks on it on the Senate floor, and he, above all 
Senators, has through his work in the Senate encouraged the 
teaching of traditional American history.
    Senator Byrd, thank you for being here this morning.

STATEMENT OF ROBERT BYRD, A U.S. SENATOR FROM THE STATE OF WEST 
                            VIRGINIA

    Senator Byrd. Thank you, Mr. Chairman.
    It is a great honor and a privilege and a rare experience 
to be able to start the day as this day has been started in 
this room, to hear one of the greatest of American historians, 
David McCullough, and to listen to him. He is not only a great 
historian, but he has helped to change the course of history.
    Back in 1977, when I became the Majority Leader of the U.S. 
Senate and Howard Baker, a statesman, as well as a good 
politician, was the Minority Leader, the subject before the 
country was the Panama Canal Treaty. And the country was very 
much opposed to a new treaty, according to the polls. I was 
very much opposed to a new treaty. The people of West Virginia 
were very much opposed. And I made speeches in West Virginia, 
made statements--they are in print, and I am confronted with 
them, have been in every subsequent election--in which I said, 
no, we should not have a new treaty.
    I read David McCullough's book, ``The Path Between the 
Seas.'' It is a fascinating book. The title is an excellent 
title, but somewhat misleading in that one does not feel what 
is in that book by simply reading the title. But that book 
helped to change my position on the Panama Canal Treaty. I read 
the book. It was so fascinating I could hardly get away from 
reading it to eat some of my wife's good cooking. But there is 
a book that changed the course of history.
    Now, I changed my viewpoint, and Howard Baker, who was the 
Minority Leader, as I said earlier, changed his viewpoint. And 
Howard Baker, you should have his name on the reception room in 
the U.S. Senate, where there are some great Senators, all-time 
great Senators--perhaps not all-time but certainly all in the 
history of this Republic. And it took a statesman to do that. 
It took a high-quality statesman. He looked and he read, and we 
both went to Panama. We did not go on the same trip. We went 
separately to see for ourselves the canal.
    But what I want to say here is here was a book that helped 
in great measure to change the course of history, and we 
carried those two treaties by not only the two-thirds vote that 
is required by the Constitution, but two-thirds plus one vote 
in the case of each treaty. And we sailed upstream. We went 
against the grain. And I say this to applaud the man who wrote 
that fascinating history. And he came down to the Senate at 
that time and talked with me and with other Senators. So he 
took an active part in changing history, changing the course of 
this country for the better. And I want to congratulate him 
once again. I have done it many times, and he is a great 
American, and I have been greatly inspired by him on many 
occasions.
    I believe in teaching history. Social studies are fine in 
their place, but I believe in history, teaching history and 
reading history.
    I grew up at a time in American history when we read in the 
7th and 8th grades, 9th grade, Muzzey's history, and I have 
Muzzey at my house. I remember the first sentence in Muzzey's 
book: ``America is the child of Europe.'' That is the first 
sentence.
    Now, Muzzey might have been driven out of town in this day 
because that might not have been smart politics. But I will 
take Muzzey any day over political correctness. America is the 
child of Europe. So I studied American history. I often talk to 
the pages in the Senate, and I say, ``How many of you know 
about Nathan Hale? Hold up your hands. How many of you know 
about Nathan Hale?'' Sometimes there would be one hand; 
sometimes there would be none. And, occasionally, I am pleased 
to see two or three hands go up.
    Well, who was Nathan Hale? He was that patriot who, on 
September 22, 1776, gave his life. He was arrested as a spy for 
volunteering--he volunteered when George Washington, the 
greatest President who ever lived, and who ever will live 
probably, George Washington asked for volunteers to go behind 
the British lines to bring back drawings of fortifications, and 
he went. He gave his life. And the night before he was to 
return to the American lines, he was arrested, and the drawings 
were in his clothing.
    The next morning he was hauled up before a gallows, a crude 
gallows, and there before the gallows was a roughly hewn wood 
coffin. He knew that his body would soon lie in that coffin. 
And when the British captain, whose name was Cunningham, asked 
Nathan Hale, ``Is there anything you would like to say?'' Those 
immortal words: ``I only regret that I have but one life to 
lose for my country.'' And the British captain said, ``String 
the rebel up.''
    Well, Muzzey gave me my heroes. American history gave me my 
heroes. My heroes are not among the rock musicians. Even my 
good musicians are not among the rock musicians. I like the 
Grand Ole Opry and bluegrass boys. I used to listen to the 
Grand Ole Opry, my wife and I, Grand Ole Opry.
    American history ought to be taught today. Muzzey, perhaps 
you ought to go back to Muzzey. You did not find many pictures. 
There were not many pictures in Muzzey's history, just a few. 
It was full of text. And I memorized my history at night by the 
light of an old oil lamp on Wolf Creek Hollow in Mercer County, 
southern West Virginia. I memorized my lessons because I had a 
great man who raised me. His name was Titus Dalton Byrd, and he 
and his wonderful wife did not have much of a education, but 
they felt that they ought to reward this boy that they had 
adopted. And they always looked at my report card, and one of 
the first things my dad--I called him my dad; he was the only 
dad I ever knew. One of the first things he looked for on that 
report card was designated ``deportment.'' And if that did not 
show up very well, which it always did in my case, of course, I 
knew what the razor strap would be like.
    I had a wonderful teacher in a two-room school. His name 
was Archie Akers. And I lived in a house where there was no 
running water, no electricity, and each morning Archie Akers 
would come by my house and we would walk together to the 
school. And I would talk with him about history, the history 
lesson. I loved it. I memorized those history lessons.
    Then when I moved to a coal-mining community, the principal 
of that school learned that I knew a lot about American history 
and that I memorized history. He took me up before the senior 
class. I was just in the 5th grade. He took me up before the 
senior class and had me repeat the words in American history 
that I had memorized.
    As I say, there is where many a young person in America 
received his education with respect to American history, and 
there is where he found his heroes.
    So I am honored today to come before your committee and 
especially honored by being able to listen to David McCullough. 
And we have a great Librarian of Congress here, too, Dr. 
Billington. And I have been privileged to visit with him over 
these years.
    Well, I have taken about all the time that you expected me 
to take. May I just read from--I will ask the committee if it 
will include my prepared statement.
    Senator Alexander. Of course, Senator Byrd.
    Senator Byrd. Let me just read from a speech which I made a 
few years back at West Virginia University. These are the 
closing paragraphs. You would not want me to repeat the whole 
speech, or we would be here quite a while. But it goes like 
this:
    ``As a Nation, we are all guilty of abominably lax 
vigilance over our responsibilities, Members of Congress who 
cower at the slightest criticism and who do not even both to 
study and understand the document that they take a solemn oath 
to support and defend; Presidents eager to grab power, to make 
their mark on history larger; representatives of the media who 
would report significant events without really understanding 
them because they do not understand history; talk-show 
demagogues who rail over the airways while they generate ill-
informed and destructive anger; and ordinary citizens who do 
not even bother to vote.''
    ``Let us remember the words of John Philpot Curran, the 
Irish orator and statesman who commented that, `The condition 
upon which God hath given liberty to man is eternal vigilance, 
which condition if he breaks servitude is at once the 
consequence of his crime and the punishment of his guilt.'''
    Now, I went on to say, ``Those of us who teach, those of us 
educated in the discipline of law, those of us who purport to 
serve the public in some capacity have a special responsibility 
to make others sensitive to the importance of every citizen's 
role in preserving our freedoms. But we can all do more, and we 
must. We started this day,'' I said, ``with a most disturbing 
poll. Let us close with the results of a study which may shed 
some useful light upon at least one possible reason why such 
ignorance about our Constitution exists.''
    I refer to the Thomas B. Fordham Foundation's first ever 
appraisal of State standards for history in 38 States, 
published in February of 1998. This is a brand-new study which 
points out something that I have believed for quite a while. 
Let me quote from the foreword of the study on its general 
findings about how 38 States are doing in the effort to teach 
history to our grade school and high school students, and I 
quote--this is from the Fordham study. ``The vast majority of 
young Americans are attending school in States that do not 
consider the study of history to be especially important. No 
doubt some children are learning lots of solid history from 
excellent teachers in fine schools. Their good fortune, 
however, appears to be serendipitous. State standards rarely 
constitute a ceiling on what can be taught and learned. But it 
is not unreasonable to view them as the floor below which no 
child or school should fall. When it comes to history, most 
States have placed that floor where the sub-basement ought to 
be. In only a few instances in history itself, the focus of the 
State academic standards that pertain to it, in most 
jurisdictions history remains mired in a curricular swamp 
called social studies.''
    This is Robert Byrd talking again now. ``We can correct 
this deplorable treatment of history in our schools and we 
must. For only with a thorough knowledge of history can we ever 
expect our people to appreciate the gift of the Framers or the 
experience and the struggles going back centuries which combine 
to make us free. Only with a citizenry that understands its 
responsibilities in a republic, not a democracy, in a republic 
such as ours can we ever expect to elect office holders with 
the intelligence to represent the people well, the honesty to 
deal with them truthfully, and the determination to effectively 
promote the people's interest and preserve their liberties, no 
matter what the personal and political consequences. We can 
build upon the respect and reverence we still hold for our 
Constitution, but we better start now before, through ignorance 
and apathy, even that much slips away from us.''
    Now, Mr. Chairman, I close by thanking you and the members 
of the subcommittee for conducting this hearing. I do not know 
of any greater service we could render our Nation than that of 
promoting--and we are in positions to do it--the study of 
American history. When I think about those 38 signers of the 
Constitution, I think about what they taught and how they 
sacrificed, and the dangers they put themselves in by what they 
did and giving us a Declaration of Independence, considering 
those who wrote it and signed it would have been declared 
treasonous and could have been taken to England and hanged, and 
then the Constitution, the 38 signers.
    I will close by saying that Cicero said to remain ignorant 
before you were born is to remain always a child. And let me 
close by saying this: This Constitution, Mr. Chairman, if we 
could find some way to begin teaching, the re-teaching, the 
review of American history to our colleagues, the Members of 
the U.S. Senate and the Members of the House of 
Representatives, we would perform a great service indeed. As I 
say this to you--now, this may offend some, but it is the 
truth, in my judgment. When only 23 Senators cast a vote 
against shifting the power to declare war to a Chief Executive 
of a Nation, something is wrong. Twenty-three Senators. Study 
that Constitution which gives the Congress the power to declare 
war.
    This may be a little like teaching history, American 
history, and it may offend some. But the truth is there. The 
truth will always stand.
    I thank you for what you are doing.
    Senator Alexander. Thank you, Senator Byrd, very much for 
joining our hearing. To have it begin with Mr. McCullough and 
with you is the best possible way we could start. Thanks for 
your leadership.
    [The prepared statement of Senator Byrd may be found in 
additional material.]
    Senator Alexander. I will ask Dr. Cole and Dr. Hickok and 
Dr. Billington if they will come to the table now, and we will 
hear from them.
    Senator Byrd. I apologize to those who are going to be 
witnesses before the committee now that I will have to go. I 
have to attend another committee hearing. Thank you very much 
for what you gentlemen are doing.
    Senator Alexander. We have a third panel of witnesses, and 
they may be setting their watches because I know they all have 
schedules as well. We will finish this panel before 11 o'clock, 
and that will give us a chance for Dr. Ravitch and others to 
testify and answers questions in time to leave.
    Our first witness is--and let me suggest in each case, we 
would be glad to hear your statements, but you would be welcome 
to summarize them in any way you would like, and then we can 
have questions and answers. This is an extremely distinguished 
panel representing three agencies that have the most to do with 
providing resources to teachers and schools and others who want 
to learn more about American history and civics. And our 
mission is to shovel all this wonderful information out to the 
classroom and put it in front of the students and put it in the 
hands of the teachers so it can be used.
    Our first witness is Bruce Cole, who is Chairman of the 
National Endowment for the Humanities. He has a distinguished 
resume. He himself is an author. He has written 14 different 
books. He has new, important roles in helping with President 
Bush's initiative on American history and civics.
    Dr. Cole, rather than give you a long introduction, I am 
going to thank you for coming and let you take the time to tell 
us how the National Endowment for Humanities might help.

STATEMENTS OF BRUCE COLE, CHAIRMAN, NATIONAL ENDOWMENT FOR THE 
 HUMANITIES; EUGENE W. HICKOK, UNDER SECRETARY FOR EDUCATION, 
  U.S. DEPARTMENT OF EDUCATION; AND JAMES H. BILLINGTON, THE 
           LIBRARIAN OF CONGRESS, LIBRARY OF CONGRESS

    Mr. Cole. Thank you, Mr. Chairman and members of this 
committee, for the opportunity to testify today.
    This hearing helps raise awareness of an important issue--
the need to increase and enhance knowledge and understanding of 
American history.
    It is crucial that we understand the principles, events, 
and ideas that have defined our past and that will shape our 
future. Democracy, unlike other forms of government, is not 
self-perpetuating. Its ideas and principles must be taught and 
transmitted. Indeed, we cannot defend what we do not 
understand. But even as our country is at war, numerous studies 
indicate that many students lack even a basic knowledge of 
their country's past.
    I will give you just a few examples:
    A recent survey of students enrolled at 55 of our Nation's 
most elite colleges and universities found that 54 percent of 
our brightest young people thought Abraham Lincoln was 
President before 1860, before the Civil War. More than a third 
of these students could not identify the Constitution as 
establishing our Government's division of powers.
    At the secondary school level, the National Assessment of 
Educational Progress test found that over half of all high 
school seniors scored ``below basic''--that is, below the bare 
minimum level of proficiency in history. To illustrate what 
this means, 18 percent of seniors thought Germany was a U.S. 
ally in World War II; around two-thirds could not identify who 
we fought with or against.
    In speaking to various groups, I have called this loss of 
memory and lack of understanding of our history ``our American 
amnesia.'' The consequences are serious. Citizens who do not 
know their rights are less likely to protect them. And if young 
Americans cannot recall whom we fought, and whom we fought 
alongside, during World War II, there is no reason to expect 
that they will long remember what happened on September 11th.
    As Chairman of the National Endowment for the Humanities, 
one of my top priorities for the agency and its able staff is 
to address this challenge of American amnesia. We are aiming to 
do this through a new initiative called ``We the People.''
    On Constitution Day, 2002, in a special Rose Garden 
ceremony, President Bush announced the launch of the ``We the 
People'' initiative to be spearheaded by the NEH. ``We the 
People'' is designed to broaden and deepen Americans' knowledge 
of their Nation's history. We are honored that the President 
has chosen the Endowment to play a leadership role in the 
administration's American history and civics initiative, and we 
look forward to serving in this capacity. This initiative is an 
important part of the President's USA Freedom Corps, which is 
working to promote a culture of active, engaged citizens who 
have a better understanding of their democratic traditions and 
their duty to serve our communities and country.
    NEH's ``We the People'' initiative aims to cultivate an 
enhanced understanding of American history among students, 
teachers, and the public at large. We will enlist the efforts 
of scholars, professors, curators, librarians, filmmakers, and 
others engaged in a wide variety of projects, including the 
creation of model history curricula, the digitization and 
dissemination of historical documents, the expansion of our 
acclaimed summer seminars for school teachers, and new programs 
that bring history to our citizens.
    Already, the Endowment has undertaken several exciting 
efforts as part of this initiative. This year, we launched a 
nationwide solicitation of grant applications to address ``We 
the People'' themes and topics. On May 1st, we will host the 
inaugural ``Heroes of History'' lecture, featuring acclaimed 
historian Robert Remini, who was authorized by the House of 
Representatives to write its official history. In addition, we 
recently held the first ``Idea of America'' essay contest where 
more than 1,300 high school juniors submitted essays on key 
events in American history.
    I should also mention that on May 15th, the NEH will 
present the Thirty-Second Annual Jefferson Lecture, delivered 
by the distinguished historian David McCullough. As you may 
have gathered from his remarks this morning, he is not only a 
first-rate scholar but also a leading champion of American 
history.
    Each of these NEH efforts aims at enhancing and increased 
knowledge and understanding of American history among teachers, 
students, and the general public.
    This hearing is another important step. I want to express 
my appreciation to Senator Alexander for his work to address 
this issue, both in his home State of Tennessee and from the 
Capitol. He has been an effective and dedicated advocate for 
excellent in education, and I look forward to working with him 
toward that shared goal.
    The American History and Civics Education Act authorizes 
the establishment of Presidential academies for teaching 
history content to teachers and congressional academies for 
teaching history to gifted students. It would place the 
responsibility for selecting those academies within the purview 
of the NEH and its highly respected merit review system.
    It is a truism of teaching that one cannot teach what one 
does not know. As someone whose life was changed by the 
inspired teaching of a professor, I can attest to the 
transformative power of quality teaching. But studies also show 
that secondary school history teachers receive less instruction 
and training in their discipline than any other subject except 
physics. In fact, one recent Department of Education study 
found that 58 percent of high school history teachers neither 
majored nor minored in history.
    There are many reasons for this ``content gap'' in history 
teaching. Many education schools focus more on the theory and 
methods of teaching rather than on the key documents, events, 
and figures of our history. The emphasis that Senator 
Alexander, Senator Byrd, Under Secretary Hickok, James 
Billington, and others have placed on teaching actual history, 
as opposed to pedagogy, is exactly right.
    Our challenge is clear: We need to enhance and extend the 
teaching of history to teachers so they can pass it on to their 
students.
    One way in which the NEH addresses this challenge is 
through its widely respected summer seminars and institutes for 
school teachers. Each seminar or institute is selected by the 
NEH's rigorous merit review system and concentrates on teaching 
the teachers history and humanities content. In the 
testimonials we have received, many teachers have claimed that 
the experience was extremely helpful and rewarding and that 
learning more about a subject naturally enabled them to teach 
it more effectively.
    Mr. Chairman, the administration and the NEH share your 
concern with ensuring that our Nation's history is well 
understood by teachers, students, and all citizens. The ideas, 
ideals, and institutions that founded and form our Nation 
should be well and widely taught. With nearly 40 years of 
experience as the Federal Government's agency for advancing 
education, scholarship, public programs, and preservation in 
history and the humanities, NEH is well positioned to 
contribute to this important effort.
    Again, I want to express my appreciation for the 
willingness of this committee to address the issue of American 
amnesia, for the work and experience Senator Alexander has 
invested in this legislation, and for the opportunity to 
testify today. I would be glad to answer any questions.
    Senator Alexander. Thank you, Dr. Cole. Am I correct that 
you have until about 10:45? Is that right?
    Mr. Cole. Right.
    Senator Alexander. Well, why don't we go on to Dr. Hickok 
and Dr. Billington and then we will bring this panel to a 
conclusion about 10:45.
    [The prepared statement of Mr. Cole may be found in 
additional material.]
    Senator Alexander. Dr. Hickok, the Under Secretary of 
Education, also has a distinguished resume for his work as 
Pennsylvania's Secretary of Education. We are delighted to have 
him with us today. The Department of Education supervises a 
number of activities and programs that have to do with the 
encouraging of the teaching of history, of American history and 
civics. Dr. Hickok?
    Mr. Hickok. Thank you, Mr. Chairman, and good morning. Let 
me first of all State it is somewhat humbling to sit at the 
same table where Senator Byrd just made his presentation and, 
before that, the eminent historian David McCullough. It is one 
of the great benefits of a job like this. You get a chance to 
hear some incredible words from incredible people. It is also 
very humbling to share the table with these two gentlemen, who 
have long and distinguished careers of contributing through 
public service and private service to the next generation of 
America.
    I on a personal note want to say how much what you are 
attempting to do and what we are talking about today means to 
me because, long before I entered public service, I was a 
college professor and devoted my scholarship and my teaching to 
the importance of American constitutionalism and American 
constitutional history. I would point out that there is a 
statute of Nathan Hale outside the Justice Department where I 
once worked. Most people probably could not tell you that. I am 
hopeful now that most people now know who Nathan Hale is, at 
least the people in this room.
    I am also here to point out that the Department of 
Education has a lot going on, in large measure because of the 
work of this body, to promote informed teaching of American 
history. The Teaching American History program, $100 million, 
is dedicated toward trying to make sure that America's teachers 
understand the fundamentals and can teach the fundamentals of 
American history using original documents, working with 
colleagues, working with faculty from higher education and 
other institutions, community organizations. The goal of this 
is professional development in its truest sense, and it is 
urgently needed.
    As my colleague Dr. Cole said, the majority of America's 
history teachers did not major or minor in history, and I think 
if the truth be told, they were not hired to be history 
teachers. Most of them were hired to teach other things or to 
be coaches. American history has not been a high priority in 
America's schools, and I think America suffers because of that, 
especially at this time, this very, very challenging and unique 
time in our history.
    The Teaching American History program then is dedicated to 
the proposition that we need to do something as a nation about 
that. It is a long and difficult challenge, but the purpose of 
the program, perhaps one teacher at a time, is to change the 
course of the way we teach history so that lives in the future 
are better informed about what this Nation is all about, has 
been all about, the idea of America, and, more importantly, we 
will be better prepared to make sure that idea continues long 
after all of us are gone.
    In addition to the Teaching American History program, we do 
civic education, every bit as important, certainly not 
unrelated to the importance of understanding of American 
history. Under the Civic Education program, we work with the 
``We the People'' program that does The Citizen and the 
Constitution and Project Citizen.
    The Citizen and the Constitution project is a competition 
in many ways, high school and junior high school, middle 
school, the goal of which is to get students engaged in 
understanding, and not just in a superficial way but in a 
reasoned, articulate, in-depth way, some of the most important 
issues in American civics and history. They grapple with these 
issues in competitions at the local and State level, and their 
final competition is held here in DC. I have attended it. You 
would be, I am sure, stunned with the quality of the 
competition and the ability of some of these people to make the 
arguments they make and be able to debate with such insight and 
in many ways wisdom far beyond their years. The competition is 
truly impressive.
    The disappointing thing about the competition is even 
though it might be thousands of kids, there are millions of 
kids who need to be a part of that competition. So whatever we 
can do as a nation to instill in this country a sense of the 
importance of civic education through programs such as The 
Citizen and the Constitution, we need to continue to do.
    I want to close. I think it is more important we have 
conversation. I would mention two things. On a personal note, 
about 10 years ago I was lucky enough to visit the Baltic 
republics that were struggling at the time to achieve their 
independence from the then-Soviet Union. I was there to talk 
with the emerging leaders about their emerging constitutions. I 
mention that because I was fortunate to get a sense coming home 
of how important it is for a free people to remember the source 
of their freedom.
    I remember sitting with a gentleman who later became the 
Minister of Finance in Lithuania and how he sat across the 
table from me and said, ``How do you invent private property? 
How do you find the invisible hand? How do you create a 
democracy among a people who do not know how to govern 
themselves?'' And it struck me I had no answer for that, except 
I knew that we as a nation had been able to do that because we 
have never lost touch with how we created our system of 
economy, our Government, etc.
    I fear that we as a nation need to address the teaching of 
history and civics with a sense of urgency because I never want 
my children or my grandchildren to be asking the kind of 
question that was asked of me almost a decade ago.
    I would leave with this one thought, going back to 
something that Senator Byrd referenced, the Declaration of 
Independence. The last line of that document should ring in the 
hearts of every citizen in a republic. That last line talks 
about how those who signed the document pledge their lives, 
their fortunes, and their sacred honor.
    The future of this Nation will always rely upon individuals 
willing to do exactly that, and if we are not about the 
business of making sure that our young people, from elementary 
school through college, and not just students but all of our 
citizens, if we are not about the task of making sure they 
understand American history and the obligations and 
opportunities of American citizenship, then we will not be able 
to make sure the legacy that is established in the Declaration 
continues. That is how urgent our task is, and I thank the 
chairman for making sure that we are about that task.
    Thank you.
    Senator Alexander. Thank you, Dr. Hickok.
    [The prepared statement of Mr. Hickok may be found in 
additional material.]
    Senator Alexander. Thank you. All three of you have 
rearranged your schedules and are very busy with other 
responsibilities, and I am grateful to you for coming, Dr. 
Billington. I know that you have--and I appreciate your 
arranging to be here.
    Dr. James Billington is the 13th person, only the 13th 
person to ever be the Librarian of Congress. He has been that 
since 1987. To use Mr. McCullough's words, he certainly has 
caught the attitude of American history and has a treasure 
trove of information there that we all can use.
    Dr. Billington, we look forward to hearing from you.
    Mr. Billington. Thank you very much, Mr. Chairman, and it 
is a privilege to be able to testify on this subject that is so 
important to the future of America and on which you yourself 
have spoken and acted so eloquently.
    I am going to try to illustrate for you an actual program 
we have which I think follows Mr. McCullough's principles in 
terms of both representing something which creates a chain of 
enthusiasm which is so important for animating this history and 
also that helps humanize history by using the Internet, as he 
said, is of some importance.
    During Alex Haley's 12 years researching his groundbreaking 
novel ``Roots,'' he traveled the globe to uncover his family's 
story, even crossed the Atlantic to get some feel for what his 
ancestors went through on the Middle Passage. He also spend 
many hours in the reading rooms of the Library of Congress, 
porting over American Missionary Society files from our 
Manuscript Collection.
    For the first 100 years of the Library's existence, people 
could access our vast collections only by traveling here, 
working in the beautiful reading rooms, as Mr. Haley did.
    Now the primary materials in the Library of Congress, many 
of them are already available free of charge online, and this 
has proven to be extraordinarily valuable in the teaching of 
civics and history, in supporting the teaching particularly in 
the classroom, and I believe that this kind of program that we 
have been running for a while now can be a key player in your 
program to establish Presidential academies for teachers and 
congressional academies for students, and also most 
particularly to create an online National Alliance for 
Teachers.
    The technology revolution of the past decade has made it 
possible for the Library to reach far beyond its buildings. We 
now deliver 8 million interesting and educational multimedia 
documents, maps, and images of American history and culture 
free of charge to stimulate curiosity, to humanize the teaching 
of history. By exploiting the power of the Internet and the 
incomparable resources of these collections, the Library I 
think now can be considered the leading provider of free, 
noncommercial educational content on the World Wide Web.
    The Library's websites attracted last year more than 2.5 
billion hits, and they have won many prestigious awards by 
offering easy electronic access to the key documents, events, 
ideas, and people of American history. So the Library is 
uniquely positioned, I think, to support the goals of educators 
everywhere, helping students in a sense form their own 
questions so that finding the answers to them will drive them 
back into reading.
    American Memory, as it was called, was first established as 
a pilot in 1990. It is one of the first large-scale efforts to 
use the Internet to disseminate high-quality educational 
content.
    Out of that grew the National Digital Library program, 
which has created an online archive of more than 100 
significant collections of important, rare, and unique items in 
all formats documenting American history and its cultural 
heritage. The materials were selected from the Library of 
Congress as well as from 36 other American institutions, making 
the National Digital Library truly national.
    Students themselves get to work directly with the primary 
materials, get to feel some of that enthusiasm, whether it is 
manuscripts, documents of which we have spoken, the original 
drafts. You can see them inventing these things, maps which you 
can zoom in on and view with greater clarity than you can see 
them with the naked eye; prints and photographs of all kinds 
and varieties that themselves document the history of 
technology as well as illustrate different stages of the 
Nation's history, and music, which I am sorry we cannot provide 
for you, the local technology, but I assure you that online it 
illustrates all the different kinds of music of which Senator 
Byrd was speaking.
    The point is these are the actual stuff of history, not 
about history. These resources encourage critical thinking in 
students and inspire learners to further exploration. The 
multimedia American Memory Collections include the papers of 
United States Presidents in their own handwriting--you get the 
feel and you see how good their handwriting is, by the way--
Mathew Brady's Civil War photographs. This is the first 
photographed war and, of course, the great development of 
American history recorded in a whole host of moving photographs 
that have a great impact on children. Edward Curtis' images of 
Native Americans, and early films of Thomas Edison, the first 
films ever made, including the first steps on American soil of 
people arriving at Ellis Island at the turn of the century. It 
is very moving because he took--these are not the huddled 
masses of which people tend to speak. They are people proud, 
taking their first step on American soil. You can see how they 
dressed up in their finest outfits, usually the only good 
outfit they had, but proud to be taking that first step in the 
great entryway into America of so many of our citizens. And 
historic speeches is another thing, to hear the voices of our 
leaders, as well as the great sort of implements of American 
sports, the very first baseball cards. You cannot quite see it, 
but the one on the left is the Brooklyn Atlantics, who were 
champions of the world in 1865. And oral histories representing 
the diversity of our culture, recorded Federal projects of 
various kinds going back to the 1890s.
    The Learning Page website, introduced in 1996 as a 
companion to the American Memory Collections, specifically was 
designed for K-12 educators and their students. Here a wide 
range of content, and the Library's digital collections are 
presented within an educational context that includes lesson 
plans, actual lesson plans that reflect the real-life 
experience. Those are just the sort of covering images on top 
of actual experience lesson plans of students. Also, ``how to'' 
projects, for instance, this one illustrates the beginning of--
using maps to show how geography changed, the science of 
geography, and also to show how people view--there are all 
these little pictures. This is 1562, one of the earliest maps 
of the New World, and it goes on to be--so they actually see 
these materials and have a kind of ``how to'' study of history 
through geography.
    The point is the educational experience makes a dynamic, 
stimulating, and interactive activity. You have to have a train 
of thought. You have to be thinking critically to develop it. 
It is not passive spectator experience like television.
    Now, on this page, teachers can show with their lesson 
plans. At the click of a mouse, they can search the 
collections. They can try out lesson plans. They can engage in 
classroom activities. They can connect with other teachers. 
They can ask a librarian for help, the Library of Congress or 
their local library. They can view a lecture or a poetry 
reading, or they can visit more than 40 exhibitions, which are 
also online.
    We have had American Memory Fellows Institutes at the 
Library in summer. They can serve perhaps as a pilot for or in 
anticipation of your program to establish a National Alliance 
of Teachers. The institute has successfully trained a network 
of teachers across the country who are teaching other educators 
in their local communities what they have learned at the 
Library using primary sources in the classroom to stimulate and 
get that chain of enthusiasm. Over a 5-year period, 300 master 
educators from nearly every State have participated in a year-
long, largely online, professional development program which is 
highlighted by a brief but intensive summer institute held at 
the Library.
    Teams of educators worked directly with the Library staff 
and with the original lesson plans and teaching guides based on 
the Library's online materials. These teachers develop road-
tested lesson plans that are now available electronically to 
all teachers through the Learning Page website.
    So we already have a kind of alliance of teachers connected 
virtually through our Learning Page. But America needs to reach 
teachers in all of the Nation's 15,000 school districts, and 
also to have, as these institutes do, they get--what Mr. 
McCullough stressed so beautifully, they get firsthand exposure 
to the actual documents, and there are documents, by the way, 
in local histories, museums, libraries all over the country, so 
that is not just a perquisite of one community. They can have 
that experience of actually seeing the originals and then using 
the virtual materials, but carrying on that enthusiasm.
    Anyhow, we are already reaching children and their families 
directly through yet another new website called America's 
Library, which is specifically designed to get kids where they 
are, in the audiovisual world of boom boxes and television, but 
seeing real quality material. It is fun, but it is also 
educational, and it is currently attracting more than 22 
million hits per month, combining child-friendly graphics with 
the incomparable American collections of the Library, which 
include more than 4,500 stories about our Nation's past. 
Interactive elements on the site teach searching as a scavenger 
hunt. They offer a virtual tour around America. You can send a 
picture postcard of the American past online through e-mail and 
so forth.
    The Library is also linking the world's resources with 
America's schools through collaborative digitization projects 
with the national libraries of Russia, Brazil, Spain, and the 
Netherlands. Joint binational, bilingual collaborations of this 
kind, combined with the power of the Internet, provide some 
marvelous material for global education. And they provide 
links--we also provide links to other vetted and reliable 
materials from and about more than 130 countries. When 
completed, this project--this is just one topical example, 
obviously, but when completed, this project will bring free to 
America's classrooms resource materials from all the nations of 
the world.
    Finally, we have a new monthly online magazine called The 
Wise Guide, which offers articles that encourage newcomers to 
use our website to explore the wealth of the Library's online 
educational programs.
    So the Library is reaching students, their teachers, and 
all learners with the documents, sounds, films, maps, music, 
and other artifacts that tell the story of America. I think 
this can be an inspirational as well as an educational 
enhancement for the important new initiatives that this 
committee is considering, and I, too, will be happy to answer 
questions, Mr. Chairman.
    [The prepared statement of Mr. Billington may be found in 
additional material.]
    Senator Alexander. Thank you, Dr. Billington. That is a 
fascinating presentation. Alex Haley was a close friend of 
mine, and he told me many times of his--he described that 13 
years of research he did, finally discovering his ancestor 
Kunta Kinte in Gambia.
    While we have such talent here, let me go right to the 
chase in a couple of ways. All of you have experience with 
summer institutes in one way or another in this subject. Dr. 
Cole does. Dr. Billington, as you said, you have short summer 
institutes of one kind. Dr. Hickok, you do as well.
    And as we have heard today and know, there is a great story 
and a great need, and there are about maybe 2 million teachers 
plus out here of all kinds plus in K-12. So how do we connect 
all this up with the teachers?
    Some of the obstacles I have heard about today or heard 
about other places include that teachers are not trained to 
teach history. Almost every witness has said that. They are 
trained in other subjects. Textbooks are dull and watered down 
and boring, and as Mr. McCullough said, if you were sentenced 
to 2 hours of reading the textbooks, that would cure you 
forever of wanting to learn history.
    I believe many teachers are afraid to teach a lot of the 
stuff of history because they feel caught in so-called 
controversial subjects and do not feel confident in dealing 
with them. And then, finally, an obstacle, Dr. Billington, to 
what you have to offer is that a great many teachers, while 
they have hardware, are not comfortable with using the 
Internet. They will say they are and there are lots of salesmen 
around who will tell you they are, but the fact of the matter 
is if you go into a great many schools, you do not see very 
many teachers who are comfortable integrating material on the 
Internet into their daily teaching program.
    So my own thought is--and the reason I proposed this 
legislation was that summer institutes of 2 weeks, say, for 
teachers or 4 weeks for students at which there would be a lot 
of master teachers would be a good way to solve many of these 
problems at once. If you have 200 teachers, for example, for 2 
weeks--Mr. McCullough talked about visiting historic sites. 
They can be presented with this information and shown how to 
use it. There can be a discussion of how to teach controversial 
subjects and a reminder that most of American history is 
controversial subjects because it is a conflict of very deeply 
held principles about which we mostly agree.
    So my question for you would be: Based on the experience 
you already have with institutes or what you can think about in 
the future, in each case, Dr. Cole, starting with you, if you 
think about a 2-week institute for teachers, what would you do 
with the 2 weeks?
    Mr. Cole. Well, first let me say that hearing you, Senator 
Alexander, and Senator Byrd and David McCullough and my 
colleagues here gives me a lot of hope. I think this is 
inspiring, and I think together we can really address this 
problem of American amnesia.
    We have a long experience with summer seminars in the NEH, 
and I like to think of these seminars as sort of an analogy of 
a pebble tossed into a pool that has a great rippling effect, 
because what we do is we bring teachers together with experts 
in fields of various disciplines and would now talk about 
American history. And we give them a very content-rich 
experience. We expose them to the raw materials of history, 
things that you can find in American Memory, for example.
    Then these teachers take that knowledge back. They have a 
chance in these seminars, by the way, to reflect and to discuss 
among themselves. They take this content back and then teach 
generations and generations of students.
    Senator Alexander. Where would such a seminar be? Here in 
Washington? Or do you have them all over?
    Mr. Cole. We have them all over the country.
    Senator Alexander. And how long are they? How many days?
    Mr. Cole. They vary. They vary.
    Senator Alexander. And how many teachers will come to a 
typical seminar, or does that vary as well?
    Mr. Cole. Fifteen to 30. But what we plan in our ``We the 
People'' initiative is to expand this to include many more 
hundreds of teachers. We find that this gives teachers 
something that they do not have, that is, very content-rich 
education.
    Senator Alexander. Dr. Hickok, I wonder if in thinking 
about the teaching program that you are administering whether 
you now have such--whether any of the school districts now have 
such institutes or whether you are thinking about such 
institutes for the future.
    Mr. Hickok. Some do. I think the better ones have 
partnerships with institutions of higher education. I do not 
think many of them locate the 2- or 3-week institute at a 
historic location, which I think is an excellent idea. You 
know, history is everywhere. You do not have to go to famous 
historic sites to be in a historic location.
    I do think that most need to do a better job of 
incorporating technology. One of the real benefits from these 
kinds of experiences I have seen--and I have been lucky enough 
to participate in quite a few over the years as a faculty 
member--is not just the experience of those 2 or 3 weeks where 
a chemistry develops among the participants and an energy and a 
willingness to sort of get engaged in the discussions and 
debates, sort of give them the kind of intellectual support 
that they might feel they need. It is what takes place 
afterwards, especially with the technology. This community does 
not disband after 3 weeks. They tend to keep in touch through 
the Internet, through technology. They tend to share lesson 
plans. It is kind of the ripple effect you are talking about.
    The beauty of that is gradually that intellectual community 
of history teachers, if you will, finds others to get engaged 
at their location, so it does grow. It is very important that 
it not be seen as sort of a 3-week experience, have a good 
time, get a certificate, and go back to work. It has got to be 
in many ways a transformative experience, intellectually, 
pedagogically, and professionally. And the best of them can do 
that. And when that takes place, it really grows pretty 
quickly.
    Senator Alexander. Dr. Billington, what has been your 
experience? And as you look ahead, what could you foresee for 
such summer institutes for teachers?
    Mr. Billington. Well, our summer institutes are very short, 
very intensive. They are just a week long. I think the 2 weeks 
and the longer period you propose is an excellent idea.
    We have tried--a couple of things from our experience that 
are worth noting. First of all, the exposure to primary 
materials, whether they are handling them directly in the 
Library or in some other archive or repository or dealing with 
them online, can be very effective right down to the 3rd grade, 
2nd grade. I mean, it is surprising because the main point is 
it gets people to form questions. When they themselves form the 
question, they are motivated to find answers. That is important 
not only for history but for learning in general. And because 
kids are on the Internet very early, if you do not get some 
good quality material to them on the Internet, they are going 
to identify with, you know, the culture of violent video games 
and all the destructive things and the chat rooms which are 
destroying the basic unity of human thought, which was the 
sentence, because it just runs on with the only punctuation 
being ``like'' and ``you know.''
    If you do not get good things on there very early and get 
the teachers--the training of the teachers is absolutely 
central, I think. And we have found also that the people who 
are trained in this can train other people. We try to make it a 
condition. It is competitive access to our summer institutes 
that they offer some promise or some program for teaching 
others. Because you are absolutely right, one of the biggest 
obstacles is that the kids very often tend to be ahead of the 
teachers with the new technology.
    But I would say that getting people comfortable with the 
new technology is not nearly as big or as demanding a problem 
as it is getting the competence and the knowledge of history 
and the enthusiasm of it from the teachers themselves. If they 
have gone through a lot of education themselves and not picked 
this up, that is in a way the bigger problem.
    So it seems to me a slightly longer period, but focusing on 
teachers at an early stage, because a lot of scholarship shows 
that if they have not gotten turned on by the 4th grade, they 
are not going to get turned on at all. And this has the 
capacity, because, I mean, this is like the experience--I mean, 
my model was going up in the attic of my grandparents when I 
was very young and discovering old letters and old pictures. 
And I started asking my grandmother a whole lot of questions. 
And that was in a way the way most kids get an interest in 
history.
    Another point that I would like to stress that Mr. 
McCullough stressed is the importance of getting the family 
involved. Our new website, this America's Library website, has 
been adopted by the Advertising Council. It is the first 
library program they have ever adopted, precisely because they 
think it has the capacity to get intergenerational learning 
going, story telling across generational lines. And the value 
of the Internet is it goes into the home as well as the 
schools.
    So I think that the institutes that you are proposing are 
very important. I do not think the business of getting people 
to feel comfortable, teachers, with the Internet is that 
difficult. It just has to be done, and it has to be done 
professionally. So I would say that an important aspect of this 
should be using people who are already well trained. We have a 
network--there are others, there are plenty of others--to train 
the trainers, so to speak. But you need to get a multiplier 
effect because all these programs, including ours, are just 
very small drops in a very big ocean. And I think having some 
obligation for the participants to assume some responsibility 
for energizing, training teachers in their own community would 
be a good thing to add in so that you can really ramp this 
thing up and not let the peer group chat room world take over 
the Internet, because the Internet is not--no new technology is 
automatic delivery.
    The last thing I would say is that we have found the 
combination of the new technology and old materials, primary 
materials that reflect old values, that widen the horizons of 
kids, is old material, old values, and new technology. That is 
a very American combination, and I think we need to not only 
teach it but to exemplify it, that the country that produced 
all this new technology can use it to restore its memory and 
not simply to create the idea of innovation for innovation's 
sake.
    Senator Alexander. I have one more question of this panel, 
and then we will move on to the next one. I will start with Dr. 
Hickok on this and see if Dr. Cole and Dr. Billington have 
anything to add.
    The Leave No Child Behind Act, as you mentioned in your 
testimony, requires that teachers in core academic subjects be 
highly qualified, quote-quote, by the year 2005, 2006. Several 
of the witnesses today have remarked that in no subject do 
teachers have less instruction than in history other than 
physics.
    Now, that is a problem to cure for the future, but we have 
got more than 2 million teachers out there teaching today, and 
we have lots of students out there today. And so it occurs to 
me that these summer academies for teachers as well as the 
summer schools for students, but especially the academies for 
teachers, might be a way that a State could help its teachers 
become highly qualified in history.
    What do you think of that?
    Mr. Hickok. I think you are absolutely right, Senator. Two 
points. The highly qualified language of the law does say if 
you are teaching a core academic discipline such as history you 
need to have subject matter mastery in history. In far too many 
places, the certificate is a social studies certificate, and 
that is not to be critical of social studies, but that is often 
not much history, maybe no history.
    So the first challenge for existing teachers is to get the 
kind of background they need to meet the highly qualified 
provisions, and one way to do that would be to participate at 
institutes such as the ones that you are proposing.
    The other issue to remember is that new teachers need to be 
highly qualified as well, so there is a challenge now for those 
who want to go into teaching, perhaps those who are just 
entering college and teacher preparation programs now, they 
need to start thinking, we need to start thinking about a new 
way to prepare teachers, all teachers, but certainly history 
teachers. They need to be taking courses in experiencing 
history in the departments and not just in the college 
education programs.
    Senator Alexander. I have an idea we will hear something 
about that from Dr. Ravitch when she gets to the table.
    Mr. Hickok. I think so.
    Senator Alexander. Dr. Cole, do you have any thought on 
that?
    Mr. Cole. I agree. I think it will better prepare them, and 
I think it is right, there is a systemic problem here in the 
way teachers are trained that needs to be addressed.
    Senator Alexander. Dr. Billington?
    Mr. Billington. I agree. I think that part of the problem 
of the way history is taught, I think much greater pressure 
should be put on the university system, which is not--the major 
universities that train historians train them mostly to talk to 
other historians, not to teach effectively in the schools. So I 
think that there needs to be some pressure put. The 
universities have an obligation, which they have not really 
properly assumed, to teach history to teachers of history. I 
think the summer schools should be developed there. I think the 
summer institutes that the Humanities Endowment has done--I 
have had exposure to a couple of them--are excellent. But they 
need to be multiplied, and the whole burden should not be on 
the Federal Government. The universities should be cajoled and 
made to see that it is part of their responsibility not just to 
deal with the graduate students there but to deal with teaching 
crisis in their particular discipline.
    One of the problems, it is not only ideological, as you 
mentioned, but it is methodological. There has been so much 
emphasis on impersonal forces and on various methodological 
fads in the study of history that people no longer write good 
English. So it affects expression. That is one reason David 
McCullough--everybody reads David McCullough because he is such 
a beautiful writer. The teaching of history is the telling of 
stories, making them literate. There is nothing wrong with 
making them a little more fun. And if there were more emphasis 
in the universities on the writing and on the presentation for 
a general audience the way history should be, I think we would 
have a much better trained corps. But as it is, people tend to 
write more and more at rarefied levels for less and less 
readers rather than addressing themselves to what you have well 
identified as a national problem that the universities should 
be playing a much more active role.
    Mr. Cole. I second and third that.
    Mr. Hickok. I fourth it.
    Senator Alexander. Our most successful summer Governor's 
School for teachers in Tennessee was a Governor's academy for 
teachers of writing, taught by Richard Marius, who was at 
Harvard, whose job was teaching Harvard freshmen how to write 
as they went in. And he would divide them up in groups and get 
local writers to come and actually work with them, and Marius, 
who was a Tennessean originally, came down, worked with about 
200 teachers for a 2-week period in the summer, and literally 
inspired them. I mean, their feet did not hit the ground for 10 
years after they spent 2 weeks with him. And it was 200 
teachers every summer for 10 years, and it had a dramatic 
effect in the classrooms across our State on the teaching of 
writing.
    I hope that this will be the beginning of an alliance 
working together. I have a list of 11 Federal programs related 
to the teaching and/or the study of American history and 
civics, and they are all supervised by the three of you. And so 
if Senator Kennedy and Senator Byrd and I can work with you 
over a period of time to look for ways to coordinate those 
activities--we do not want to run them. We just want to 
encourage you, put the spotlight on them, have additional 
hearings, provide the funds. Perhaps over a period of time 
perhaps we can put the teaching of American history and civics 
back in its rightful place in our schools.
    Thank you for coming.
    Mr. Hickok. Thank you.
    Mr. Billington. Thank you, Mr. Chairman.
    Mr. Cole. Thank you.
    Senator Alexander. I would like to invite the members of 
the third panel, Dr. Diane Ravitch and Blanche Deaderick and 
Russell Berg, to please come.
    Welcome. Thank you for being patient as we heard from, I 
thought, some very interesting people. Senator Dodd is coming 
in a few minutes, Russell, to introduce you, and I am going to 
let him have the honor of doing that. He is the ranking member 
of this committee. And, Blanche, welcome to you and to Kate 
Gooch. Both are here from Memphis. Kate started the Governor's 
School for International Studies at the University of Memphis 
and was in charge of it, for a number of years, and Blanche ran 
it. So we will get to you next.
    Dr. Ravitch has come from New York. She has a class to 
teach there, and she has to go back there after a while. So if 
the others of you will permit that, I would like to introduce 
Dr. Ravitch and let her say what she has to say and ask her a 
few questions, and then that will make sure that her students 
are not cheated out of her class this afternoon.
    Diane Ravitch--there is no American historian of education 
superior to Diane Ravitch. There is also no one who writes 
about education who is a better writer than Diane Ravitch. She 
has a clear view where our schools came from and a strong view 
about what they ought to be doing. When I was appointed by the 
first President Bush as Education Secretary, my first act was 
to recruit David Kearns, the CEO of Xerox, to become the Deputy 
Secretary of Education, and then he and I, never having met 
Diane Ravitch but having read her books and works for a long 
time, invited her to lunch and asked her to join us, which she 
did, as Assistant Secretary of Education. So she is still 
writing and still teaching, especially on this subject.
    So, Diane, thank you very much for being here today.

 STATEMENT OF DIANE RAVITCH, RESEARCH PROFESSOR OF EDUCATION, 
NEW YORK UNIVERSITY, BROOKLYN, NEW YORK, AND SENIOR FELLOW, THE 
                     BROOKINGS INSTITUTION

    Ms. Ravitch. Well, thank you, Senator Alexander. I am very 
honored to be here and to be in such distinguished company and 
to hear from the gentlemen who have preceded us.
    Since everything I was going to point out that was brand 
new has been said this morning, I am going to say some things 
that are not in my written testimony that were evoked by the 
previous speakers.
    This hearing is wonderful for me because I started pushing 
the subject of history education and the need to revive it. As 
I realized sitting here, I started it 20 years ago. It was at 
that time that the State of New York was proposing to drop 
chronology from the social studies curriculum and to teach 
history and social studies all mixed up together so that events 
came completely out of chronological order and in relation to 
grand themes and there would be no sense of cause and effect. 
And I wrote my first article on the topic. Al Shanker gave me 
his guest column in the New York Times to decry this mish-mash, 
and the State backed off and restored chronological history.
    I followed that up with an article in the New York Times 
Magazine in 1985 called ``The Decline and Fall of the Teaching 
of History,'' and then got on to the subject of how history had 
been dropped out of the elementary grades and retitled that 
``Tot Sociology.''
    Subsequent to that, I wrote the California history 
standards K-12 with a committee created by the State of 
California. That curriculum has been around since 1987, which 
is quite remarkable.
    But I have been at this subject of the dire State of 
history education for a long time, and I salute you for making 
this an important cause. I think for all the reasons that have 
been said this morning, it is very important to our future as a 
Nation.
    I am particularly pleased that your legislation 
incorporates not just history but civics, because that is what 
is so often missing. And I think that is what we find missing, 
for instance, in higher education where history is taught 
completely divorced from any sense of the importance of 
democratic principles.
    There has been, as you pointed out earlier, a feeling on 
the part of the National Council of Social Studies and many in 
that field that the U.S. is not exceptional. In fact, several 
years ago, the NCSS put out a proposed framework for the 
teaching of social studies where they said that U.S. and world 
history should be merged into a single study, which would 
demonstrate that the U.S. was not in any way exceptional, it 
was no different from any other country and should not get any 
more time or attention.
    The teachers of America, despite their lack of a strong 
history background, realized that that was a very bad idea, and 
I do not know of any State in the country that has actually 
followed that recommendation.
    On campus, I think one of the reasons that--you know, I 
have very mixed feelings about where and how teachers should be 
educated--is that on campus history has become so specialized, 
as Mr. Cole and Mr. Billington said earlier, that we are 
certainly not getting in higher education the approach to 
American history that David McCullough described, a sense of 
the inspirational quality of American history, a sense of the 
specialness of the Founding Fathers.
    What we get instead is, whereas American history used to be 
taught as everything that happened was good, there tends to be 
now a sense that everything that happened was bad. And students 
who come through American history courses come through a long 
exposure to the deep defects of American society, the deep 
defects of American history. They do not encounter heroes. They 
only encounter victims. And there is an adversarial approach to 
teaching about America that I think turns a lot of young people 
off to history other than to continue seeking for flaws that 
have not yet been uncovered. So that creates a very bad taste 
in the mouth in terms of teaching history to children.
    Now, as was said earlier, we have amongst people who are 
teaching history a teacher corps, and it is 3 million, by the 
way, not 2 million. But amongst people who teach social studies 
and history, the majority of them have neither a major nor a 
minor in history, and they are coming from other fields. And 
most of their education, unfortunately, has been a pedagogy, 
which does not prepare them for any particular academic 
subject.
    I think in terms of the problem that you are attempting to 
deal with, I certainly support this legislation. I think 
symbolically it is very important. I think in terms of what it 
will accomplish, it is important. But it does not get to the 
structural problem, which is that our States need to establish 
requirements for history teachers where they are expected to 
take, for example, not only courses in U.S. history and world 
history, but also courses in the U.S. Constitution. And I think 
that point was made very well this morning. Until the States 
begin establishing reasonable requirements for history 
teachers, we are not going to see any serious change.
    I have just finished writing a book, which is actually 
being published next week, and part of the book was a review of 
textbooks. So I forced myself all last summer to----
    Senator Alexander. ``The Language Police'' by Diane 
Ravitch. I have it right here.
    Ms. Ravitch. Well, I forced myself last summer to read the 
history textbooks that our children read in high school and 
junior high school, and, believe me, it was truly forcing 
myself. This is an exercise in ``my eyes glaze over.'' It is a 
punishment to children to expect them to read these books. Most 
of them run to 1,000 pages. At least half the material in them 
is graphics. The textbooks attempt to look like Web pages, but 
since they are static, they really cannot compete with Web 
pages. And the language in them, as David McCullough said, is 
really very dull, and everything is compressed so small that 
you do not get a sense of narrative.
    Now, since Senator Byrd mentioned how he had been inspired 
by David Saville Muzzey's textbook, I realized that I had the 
introduction--a quote from his introduction from Muzzey's 
textbook in my new book, and I want to tell you why David 
Muzzey said that high school students should learn history, and 
this was his advice to his readers of his high school history 
text. This was in 1940. He said, ``You are growing up in this 
age of opportunity and responsibility. In a few years, we of 
the older generation shall have passed on, leaving to you the 
duty of carrying on the American tradition of a free democracy, 
of preserving our ideals and remedying our faults. This is your 
America. Whatever business or profession you may choose to 
follow, you are all first and foremost American citizens. Each 
of you should think of himself or herself as a person who has 
inherited a beautiful country estate and should be proud to 
keep up that estate and to make such modern improvements as 
will increase its beauty and comforts. You would be ungrateful 
heirs indeed if you did not care to know who had bequeathed the 
estate to you, who had planned and built the house, who had 
labored to keep it in repair for your occupancy, who had 
extended and beautified its grounds, who had been alert to 
defend it from marauders and burglars. If you agree with me, 
you have already answered the question why you should be eager 
to study American history.''
    Well, I looked at all of the textbooks that our kids get 
today, all of them published between 1997 and 2001, and not one 
of them has an introduction explaining why kids should want to 
study history or connecting history to the extension and 
protection of our democracy. In fact, there is almost an 
embarrassment about the idea that we have something that we 
want to be proud of.
    What I found in my review of these textbooks is, first of 
all, there is no narrative. They just give event after event 
and fact after fact. There is certainly no celebration of 
American democracy and its growth and development and 
improvement over time. There are no paeans to freedom and 
democracy because that is considered embarrassing in the world 
of higher education. There are no heroes. There is no idealism.
    What we do find is a plethora of pointing out hypocrisy, 
finding victims, pointing to exploitation. And it is not a very 
inspiring story, and it is intended not to be inspiring. And so 
it is dull.
    What I think that you can do with these 2-week seminars 
that would be important--you cannot take the place of a college 
education. You cannot take the place of a year-long study of 
American history. You cannot do that in 2 weeks. What you can 
help to do is to begin with presenting people who participate 
in these seminars with a synthesis, having a distinguished 
advisory panel of historians and excellent history teachers, 
through the auspices of the NEH develop the synthesis of what 
teachers will learn and what they will teach and what a year-
long course in American history must include as essentials. 
Then working from this synthesis, spend at least a week out of 
this 2-week period describing the synthesis, criticizing it, 
talking about it, understanding it so that teachers can begin 
to integrate, because if they have taken history courses, the 
chances are they have bits and pieces of American history.
    They will have a very difficult time utilizing either of 
the methods that David McCullough described, going to John 
Adams' House, which is very specific. First of all, you have to 
know who John Adams is and how he fits into the Revolutionary 
generation and how that fits into the broader picture. So 
teachers need to have synthesis. They will not be able to use 
the kinds of material that the Library of Congress has 
available unless they have the big picture. And I think you can 
work on the big picture during this first week. You can in the 
second week work with teachers in developing the skills of 
using primary sources, of using technology, of introducing 
multimedia approaches to the teaching of history, of using 
experiential approaches where you go to sites and where you go 
to local landmarks and where you fit it in, of using--instead 
of or in addition to textbooks, using biographies, using real 
histories and real narratives so that the teachers themselves 
can see what they have been missing in not having these 
materials.
    But I think that without that larger picture, they are 
going to still be at sea and have just lots and lots of little 
pieces, very detailed and specific.
    I just wanted to close, first of all, by thanking you for 
your interest in what is obviously a very important and timely 
subject, but also to remember something that occurred to me, 
and this was in 1989. I had been invited by the American 
Federation of Teachers to travel to Warsaw, and at the time I 
was invited, Solidarity was the underground movement, and that 
was in the spring of 1989. But by the time I got there, the 
underground dissident who had invited me was the Minister of 
Education. And that was in the fall of 1989. So I arrived and I 
was told that I was to lecture on the meaning of democracy. And 
I was lecturing in the Great Hall of the Ministry of Education.
    I gave my lecture and was told that this building had been 
the headquarters of the Nazi Party before it had become the 
Communist Ministry of Education. And one of my Polish hosts 
said to me, ``We always use words like `democracy.' We always 
use words like `debate.' But they did not mean what you said 
they mean. They always meant no debate and no democracy. They 
meant the opposite of your description.'' And I had this eerie 
feeling, in fact, goose bumps all over, thinking that I was the 
first person in that building in 60 years who talked about 
debate and democracy and actually meant it.
    And I wonder whether our children will know the meaning of 
freedom and democracy unless they understand much more about 
the history of this country and much more about what it means 
not to have freedom, not to have democracy in countries like 
Iraq and Poland and the other countries that have gone through 
the terrible things that have happened in our world. If all 
they have is what they get instantaneously, it is not enough.
    And so I thank you for addressing this vital issue and will 
be happy to answer any questions, and if you have no questions, 
I will be happy to extend any help that you ask for in the 
future.
    Senator Alexander. Thank you, Dr. Ravitch.
    First of all, I would like to welcome Senator Dodd of 
Connecticut, who is here and in a moment will introduce Mr. 
Berg. But he may want to join me in asking you some questions.
    Ms. Deaderick, is your schedule such that I can go to Mr. 
Berg next and then we will come back to you?
    Ms. Deaderick. Yes.
    Senator Alexander. All right.
    Dr. Ravitch, first, thank you for your very specific 
suggestions about what we might accomplish in a 2-week 
institute for teachers of American history and civics. That was 
a big help. And maybe as time goes along we will ask you to 
write the whole synthesis--that would be terrific--or some 
enterprising applicant for one of these schools. The idea would 
be that there will be a dozen places around the country in this 
pilot program where someone will want to do this and want to 
apply to the National Endowment for the Humanities and set up 
such a school in the summer. I would invite you to take an 
interest in that because the first institutes will obviously be 
models for others, and it will be a way to put a fresh 
direction to the way we approach the teaching of American 
history and civics.
    You mentioned Al Shanker, I believe, and I have great 
respect for Al Shanker, the former president of the American 
Federation of Teachers. And I remember being in a meeting with 
him in 1988 in Rochester, and the president of Notre Dame, Monk 
Malloy, asked a roomful of educators this question. He said, 
``What is the rationale for a public school?'' And there was 
this embarrassing silence among all these educators, until Al 
Shanker spoke up and said, ``The rationale for a public school 
was, when it was created, to teach immigrant children the three 
R's and what it means to be an American, with the hope that 
they would then go home and teach their parents.''
    Is that an accurate memory of how and why the school was 
created in this country? And if so, whatever happened to the 
idea that the common school or the public school had as its 
principal rationale teaching about the principles that unite us 
as a country?
    Ms. Ravitch. That was the original rationale, and the great 
leaders, Henry Barnard of Connecticut and Horace Mann of 
Massachusetts, understood that citizenship and sustaining and 
building this republic was the most important thing that the 
public school could do. It was not about dividing us up and 
teaching us how we differ, but teaching us what we have in 
common so that we could, in fact, be citizens and be part of a 
common enterprise and pull together.
    Robert Hutchins, who was the president of the University of 
Chicago, once said that the purpose of the public school is to 
sustain the res publica, the public thing, and it is about 
maintaining and sustaining our governmental institutions.
    Senator Alexander. In my, as we call it in the Senate, so-
called maiden address, I spoke on this subject, and I said I 
thought we had spent over the last 30 or 40 years too much 
time, relatively, on diversity, multiculturalism, and 
bilingualism and too little time on a common culture, on a 
common language, and on unity. And I nearly had my head taken 
off by a few people who thought that was heretical.
    I still think I am right. I think our diversity and variety 
is one of the greatest strengths that we have as a country, but 
Jerusalem and the Balkans and Iraq are all diverse. Diversity 
is not that great an accomplishment. It is a source of 
strength, but it is not an accomplishment. The accomplishment 
is that we have taken all that variety and diversity and turned 
it into one country, and we do not talk about that. We do not 
teach our children about the principles that unite us as 
Americans. And, therefore, it seems to me they do not--that is 
where the idea comes that there is no difference between the 
history of the world and the history of America because they 
are the same thing. They are not the same thing, in my opinion.
    Ms. Ravitch. Well, our national slogan is E Pluribus Unum--
out of many, one. And it does not deny them any. In fact, I 
live in the most diverse city probably in the entire world, and 
diversity is a magnificent thing. But in order to maintain a 
nation and to make it work, you have to have a sense that you 
have something in common with your fellow citizens. And that is 
why we have public schools. If we did not care about teaching a 
sense of community, then we would not need public education at 
all.
    And, by the way, Senator Dodd, I wanted to tell you that in 
my review of the work of the States in developing things like 
history and literature, Connecticut is way up there. It has 
just done a magnificent job. As you know from the NAEP scores, 
Connecticut always leaves almost everyone else in the dust.
    Senator Alexander. Well, that is a nice transition to 
Senator Dodd.
    Senator Dodd, would you like to ask Dr. Ravitch some 
questions?

                   Opening Statement of Senator Dodd

    Senator Dodd. Well, first of all, I apologize for arriving 
a bit late. We have had a hectic morning. We had all five 
Presidents of the Central American countries here this morning, 
and as a former Peace Corps volunteer in Latin America, I 
worked closely with the Central American countries.
    But I want to begin by commending you, Mr. Chairman, on 
your--and I am proud to be a cosponsor--first bill. It is a 
bill dealing very specifically with the teaching of American 
history and civics, and it should come as no surprise that you 
chose this subject matter, given your own background in 
history. This is a wonderful contribution to the public debate 
to be able to have a subject matter like this as the subject of 
discussion in the U.S. Senate.
    I appreciate your very kind comments, Ms. Ravitch, about 
Connecticut, and you are going to hear in a minute an example 
of why we are so proud of Connecticut.
    And I am hopeful that we are going to do some things to 
begin to address some of these issues. First of all, I think 
the legislation by the chairman is going to be a good start. If 
it does nothing else it will to get us talking about history 
and civics education around here. We don't do enough of that.
    I get teased a little bit by my staff. I walk around every 
single day of my life with a copy of the Constitution in my 
pocket. Every single day. And I read it almost every day--not 
all of it, but I read a good part of it every day, go through 
it. And the Declaration of Independence is in this as well. 
This was given to me by Senator Byrd years ago. It is a ratty 
old copy. It is all falling apart.
    Senator Alexander. He came earlier, and he waved his copy 
just as well.
    Senator Dodd. We are going to build a Visitor Center here 
at the Capitol. We are in the process of doing it, as you can 
see by the incredible amount of construction going on here. 
Beyond being a public works project, what we are trying to do 
with the Visitors Center is create an introduction to the 
Capitol. One of the things that has always been disturbing to 
me is that people come here, we walk them into the halls 
without any preparation of what they are about to see, what 
these buildings represent, what went on here, and what goes on 
here.
    It is a civics project. The Center will have theaters in 
which people will be introduced to the history of Congress. So 
that before you walk in the building, you understand what you 
are about to see. This is a living institution, based on that 
which came before.
    I have spoken at every single public high school in my 
State in the last 15 years, and I try to do it almost every 
week. I have not been very faithful to that in the last number 
of weeks. I have a new child, an 18-month-old daughter that is 
taking a little of my time, so I am missing some of these 
things. But I have been to every high school, and one of the 
reasons I do this is because I want students in my State, and 
particularly in my inner cities, to see a United States Senator 
answer questions, listen to their ideas, and talk about the 
notion of civics so that it is living. It is not just a 
question of who we Senators are but what a Senator is and what 
we do.
    I know Senators' schedules are busy, but we all ought to 
make an effort, when high schools and elementary or middle 
schools come down here for those photographs on the steps and 
so forth, to be with them. The Presidential Classroom and Close 
Up programs are wonderful institutions. We ought to promote 
promote these types of programs particularly Close Up, which 
reaches out to a wide-range of students so you end up with a 
mix of students who otherwise would not be able to afford to 
come to DC. There are also internships. In fact, there are so 
many things that we can do in our daily conduct as Senators to 
become part of a living civics lessons, if you will, if we 
utilize our offices and our time appropriately. I cannot think 
of anything more important that we can do.
    Having said all of that, I come from a family of teachers. 
My father's three sisters taught for 40 years apiece in the 
Connecticut public school system. My sister has taught for 
almost 35 years in the inner city of Hartford. My brother, Tom, 
taught history for 30 years at Georgetown University. So I get 
lobbied rather heavily, Mr. Chairman, on teachers and the 
importance of it.
    One of the things I would like to bring up is how stunned I 
was to discover how few States today require any State history. 
There used to be a time when it was almost mandatory that there 
at least be a year of State history. The reason I bring that up 
is because I think it is important that there be a progression. 
I think children first learn from their immediate environs and 
then from an expanding circle. I am learning this with my first 
child, my 18-month-old daughter. When we move her from our 
house here in Washington and we go up to Connecticut, it is 
like going to a different country for her. In fact, going from 
one room to the next is almost like going to a different 
country. At least it was initially. See if you begin by 
understanding your neighborhood, your community and where you 
are from, getting you to understand the Nation in which you 
live and the world which you inhabit becomes a lot easier.
    And so I wonder if you might comment on what has happened 
here. I guess a lot of it has to due with budgets and so forth, 
but why isn't there more of an effort to begin civics and 
history at a very young age. Why do we only talk about history 
in high school? I do not think you can begin early enough 
talking about the notion of civics. There is only one textbook 
on Connecticut history. Unfortunately, the gentleman who wrote 
it has passed away. It is very hard to get a copy of his books. 
But I use it as a reference all the time because it has 
wonderful facts and information about the 169 cities and towns 
that Mr. Berg and Mr. Sullivan and I live in in the State. But 
when this gentleman died, that is where it ends. There is a gap 
now of about 30 years. In fact, if anyone is listening to me, 
it would be a nice project to pick up the next 30 years to add 
on to that wonderful history of Connecticut that is already in 
textbook form.
    I wonder if you might just comment on the notion of 
beginning earlier with the notion of civics and what has 
happened to States that so many have dropped the notion of 
learning about the State in which one lives as a beginner to 
understanding the larger civics questions.
    Ms. Ravitch. Yes, Senator Dodd, in most States, State 
history became conventional in the 4th grade, and it just was 
always taught in 4th grade. When I was growing up in Texas, it 
was always taught in 7th grade. But most States do teach State 
history at some point. And I think that if the State of 
Connecticut required State history, you would find someone who 
would quickly prepare at least one textbook, if not more, to 
meet that requirement.
    When you talk about kids learning in terms of expanding 
their environments, there has actually been over the past, I do 
not know, 50 years this idea that little kids cannot really 
deal with any history. And so they spend 1st grade learning 
about myself, and 2nd grade is my neighborhood and community, 
and 3rd grade is my town. And so by the time they get to 4th 
grade, they can learn about my State.
    This is actually a very bad idea. It is right for your 18-
month-old, but for little kids, especially in the 2nd and 3rd 
and 4th grade, they are very capable of learning about 
biography. They love great stories of heroes. And it used to be 
that all over the country, in America, kids learned about 
Nathan Hale; they learned about George Washington; they learned 
about, you know, the great men and women of our republic and 
even of other cultures. And all that got tossed out for my 
neighborhood and the community helpers, which turned out to be 
such a dreary thing that surveys showed that kids were not 
doing any social studies at all in the early grades because the 
teachers thought it was boring. And you would get a textbook 
telling you about somebody else's community and someone else 
having a birthday party and somebody else going grocery 
shopping. Well, kids don't need to read in a textbook about 
grocery shopping when they could be reading about Nathan Hale.
    So I think that some States have been trying to turn that 
around and realize that you can actually introduce little kids 
to heroes. They like it a lot.
    Senator Dodd. How many States do that? How many States 
really require it today?
    Ms. Ravitch. Well, about half the States now have history 
standards, and that is a big change. Ten years ago, there were 
only four States that had history standards, and it was 
Virginia, Connecticut, Texas, and Massachusetts, literally the 
only four in the country. The rest all had social studies 
standards. Now, including Connecticut, today it is about half 
the States actually have history standards, but most of them 
still have this antiquated idea that little kids cannot deal 
with anything like history or civics. But, in fact, the thing 
about little kids--and it is really up until the time kids are 
teenagers. Kids have this tremendous sense of fairness. And you 
will hear them say, when your 18-month-old starts to talk, 
``That's not fair.'' They know what is----
    Senator Dodd. She is talking.
    Ms. Ravitch. Then she is already beginning to know what is 
fair. Kids know about fairness, and that is the basis for 
teaching them civic education, what is fair.
    Senator Dodd. Well, good. That is very helpful. I live, by 
the way--you mentioned Nathan Hale. I live in the town of East 
Haddam, CT, where he taught. In fact, down the street from me 
is the Nathan Hale Schoolhouse. In fact, when that schoolhouse, 
that one-room schoolhouse became to small in about 1854, they 
built a little two-room schoolhouse down the street, which was 
the schoolhouse in that part of town because there were seven 
districts. Obviously, in a small town, there are not a lot of 
schools. It was the schoolhouse from 1854 until 1948. And that 
schoolhouse is my home today. I have lived in it for 22 years, 
converted it into a home, and it is just the wonderful 
vibrations of being in the successor schoolhouse to Nathan 
Hale's.
    Ms. Ravitch. Well, I might not normally have mentioned 
Nathan Hale but for the fact that Senator Byrd spoke about 
Nathan Hale this morning in some detail, and it was very 
interesting.
    Senator Alexander. I hope you don't come to the same end he 
did.
    Senator Dodd. Well, if I could on behalf of my country, it 
would be a wonderful ending. [Laughter.]
    Senator Alexander. Senator, do you have any other----
    Senator Dodd. No. Just when we finish here, I will 
introduce Mr. Berg. I do not know how you want to proceed, Mr. 
Chairman.
    Senator Alexander. Well, let me thank Dr. Ravitch for 
coming because she is going back to New York to teach a class.
    Ms. Ravitch. In history.
    Senator Alexander. In history.
    Ms. Ravitch. Thank you.
    Senator Alexander. So thank you very much for making a 
special trip for this. We appreciate it very much.
    [The prepared statement of Ms. Ravitch may be found in 
additional material.]
    Senator Alexander. Senator Dodd, would you introduce Mr. 
Berg?
    Senator Dodd. Just very quickly, Mr. Chairman, you have 
been very gracious again. Russell Berg is a student at Trumbull 
High School, and we welcome you here, Russell. It is good to 
have you come down.
    He is a member of Trumbull's civics education team, which 
for the fourth straight year, Mr. Chairman, will be competing 
in the national finals of the ``We the People: The Citizen and 
the Constitution'' program here in Washington. With that kind 
of a record, I might say that Trumbull High School is to civics 
education in Connecticut what the women's basketball team at 
Uconn--with all due respect--look at the sad face now on the 
Tennessean over here is to basketball in Connecticut. I had to 
bring that up. I apologize.
    We are very proud obviously of the women's basketball team, 
but we don't give enough recognition, with all due respect to 
champions in education. And so we want this to be a moment, 
Russell, while you may not be getting the attention that Diana 
Taurasi is right now, to think of yourself as sort of in the 
same league, considering how well you have done and how well 
Trumbull High School has done over the years in this ``We the 
People: The Citizen and Constitution'' issue. He has been 
named, by the way, Mr. Chairman, as an AP scholar with honors, 
a National Merit Scholarship finalist, and a Presidential 
Scholar semifinalist.
    Peter Sullivan, who is with him, is Russell's civics 
teacher and last year's Trumbull High School Teacher of the 
Year. Russell's testimony speaks very highly of Mr. Sullivan, 
and I am sure that he deserves all of the praise and more that 
he will be getting as someone who has worked so hard on this 
program that Trumbull High has competed in.
    So we are honored that you are here, Russell, and, Mr. 
Sullivan, we thank you for coming down, and I thank you, Mr. 
Chairman, for inviting them to be a part of this.
    Senator Alexander. Russell, Mr. Sullivan, thank you very 
much for coming. We look forward to your comments.

  STATEMENTS OF RUSSELL BERG, STUDENT, TRUMBULL HIGH SCHOOL, 
 TRUMBULL, CT; ACCOMPANIED BY PETER SULLIVAN, HISTORY TEACHER, 
   TRUMBULL HIGH SCHOOL, TRUMBULL CT; AND BLANCHE DEADERICK, 
                  HISTORY TEACHER, MEMPHIS, TN

    Mr. Berg. Thank you. Good morning. I would first like to 
say what an honor, what a humbling experience it is to be on 
the same panel with such distinguished historians, doctors, 
experts in the field of civic education. It really is a 
pleasure to be here.
    Mr. Chairman, it is an honor to testify before this 
committee on this most important issue of civic education. By 
promoting civic education in schools, you and the cosponsors of 
this legislation, including our Senator Christopher Dodd, have 
proven that education is not something to be sidelined in the 
face of pressing current issues. Your actions have shown us 
that education is a pressing current issue.
    Unfortunately, to many Americans, our Government may seem 
intimidating and difficult to understand. Civic education is 
the key to comprehending, appreciating, and eventually 
participating in our democratic process. The ``We the People: 
The Citizen and the Constitution'' program, which is 
administered by the Center for Civic Education and funded by 
the United States Department of Education by an act of 
Congress, takes the logical approach to understanding our 
American Government, by tracing its manifestations to their 
source, the Constitution.
    Our Constitution provides Government with powers and 
limitations, to ensure congruence with the Founders' greatest 
hopes of a benevolent government ruling under popular consent. 
To many Americans, the Constitution is a revered document, 
written on browned parchment with faded ink. But to my class, 
the Constitution is a living gold mine of philosophical, 
political, and social history.
    Our State champion Trumbull, CT, ``We the People'' class is 
led by the knowledgeable and charismatic Mr. Peter Sullivan. 
The most incredible achievement that our class has made, and 
that Mr. Sullivan has in no small part facilitated, is the 
critical mass of constitutional knowledge we have learned. My 
favorite moments in education occur when concepts and new 
information can be integrated into an overall framework of the 
issue at hand. A beautiful symphony of debate and exchange 
miraculously manifests every morning in our class. Mr. Sullivan 
might bring up an issue currently in the U.S. Supreme Court 
docket, or ask the class for any news they might have heard the 
night before. An opinion is expressed by a student, a rebuttal 
by another. A particularly progressive member of the class 
might apply the issue to its broader social ramifications. A 
more critical member of the class would then appeal to our 
logic and the realistic implications of the Court's decisions.
    Here, in a brew of free, creative thought, coupled with the 
solid foundation of constitutional knowledge on which to anchor 
our arguments, lies true learning. Not learning without any 
application to ourselves, but knowledge that sheds light and 
understanding upon a Government that is involved in so many 
issues concerning our daily lives.
    ``We the People'' was a class I signed up for at the end of 
my junior year, with great expectations in mind. I had heard 
from many older students that the class was more than a class. 
It was hard work, to be sure, but the rewards extended beyond 
grades and test scores.
    In 2 weeks, our team will be competing in the National 
Finals for the ``We the People: The Citizen and the 
Constitution'' program. Throughout the year, a common goal has 
driven our class together, and together forward. I have seen 
miraculous things this past year. I have seen quiet, reserved 
students emerge, citing complex Court cases with confidence and 
vigor in our daily debates. Students who many dreaded would 
succumb to the great demands of the program have only 
flourished to become our leaders and exemplars. Simply put, 
well-designed programs in civics, such as ``We the People,'' 
taught by teachers like Mr. Sullivan, make a difference in the 
classroom.
    Surely, such changes in our young people can only be for 
the better. A civic education, as buttressed by the ``We the 
People'' program, does not merely press rote facts into 
receptive minds. It challenges us to use this information as 
support for our own arguments and opinions. Undoubtedly, 
everyone in our class has learned more than they bargained for 
about the United States Government and her Constitution. But 
the benefits of this civic education extend beyond learning. 
This program has allowed us to become involved in the 
Government that we spend so much time studying.
    The Constitution is associated with words which reflect the 
importance of the American citizen, such as ``popular 
sovereignty,'' ``consensus,'' and ``majority.'' It is clear who 
was intended to captain the ship of America: her people. Our 
Nation is designed to be accessible, to its citizens and to 
incoming immigrants, to anyone who has ambition and a dream. 
For me, this lesson has only been confirmed by my experiences 
this year. ``We the People'' is not merely a mental exercise or 
a contest of effort and knowledge. By learning about the 
Government, one automatically becomes involved in it. I am here 
today, in front of the Nation's leaders, speaking with a 
message I hope to convey. I have learned in class that we are 
blessed with a participatory Government. Today it has been 
proven to me.
    The importance of developing these fundamental principles 
and values among my generation and future generations was noted 
by Judge Learned Hand in an article on liberty, published in 
the Yale Alumni Magazine on June 6, 1941. He said, ``I often 
wonder whether we do not rest our hopes too much upon 
constitutions, upon laws, and upon courts. These are false 
hopes; believe me, these are false hopes. Liberty lies in the 
hearts of men and women, when it dies there, no constitution, 
no law, no court can save it; no constitution, no court, no law 
can even do much to help it. While it lies there it needs no 
constitution, no law, no court to save it . . .''
    Mr. Chairman, I thank the committee for giving me this 
opportunity to testify today.
    Senator Alexander. Thank you, Russell, and thank you, Mr. 
Sullivan.
    [The prepared statement of Mr. Berg may be found in 
additional material.]
    Senator Alexander. I wonder, Senator Dodd, if we could go 
now, having heard from the student, if we go to the teacher, 
and then ask both of them questions if we have time.
    Senator Dodd. Sure, absolutely.
    Senator Alexander. Blanche Deaderick is from Memphis, TN. 
She teaches at Germantown High School in Memphis. She is a 
history teacher, and the reason that I invited her today is 
because since 1987 she has been the academic director of the 
Governor's School for International Studies at the University 
of Memphis. That was one of Tennessee's Governor's Schools that 
began in 1984 which would attract several hundred high school 
students to spend a month on one of our university campuses in 
a particular core academic subject. At the University of 
Tennessee, Knoxville, it was the sciences. At Middle Tennessee 
State University, it was the arts. It was humanities at UT-
Martin. And it was international studies in Memphis.
    We have had a lot of talk today about the need for a 
congressional academy for students of American history and 
civics, an opportunity for students in the summer to go for a 
month, perhaps, to some educational institution and be inspired 
by the ideas and the events and the persons who formed our 
democracy.
    Blanche, what I would like to talk with you especially 
about today is the practicality of making that happen. How 
useful has a Governor's School been, even though this is in a 
different subject? How much did it cost to make it work? Where 
was it held? How was it put together? Those kind of practical 
things, so as the National Endowment for the Humanities goes 
about taking applications for these schools in American history 
and civics, well, they will know more about it.
    And may I say, while we have Mr. Sullivan here and Ms. 
Deaderick here, the competition is wide open. There will be, if 
this legislation is approved this year--which I think it will 
be--an opportunity in 12 places in the country to have a 
Presidential academy for teachers of American history and 
civics and a congressional academy for students of American 
history and civics. So it would not hurt my feelings and I 
doubt if it would hurt Senator Dodd's feelings if the first two 
were in Connecticut and Tennessee.
    So, Blanche Deaderick, welcome. And may I also, as I did 
earlier, welcome Kate Gooch from Memphis, who was really the 
pioneer who started the Governor's School for International 
Studies at the University of Memphis and the director of it for 
many years.
    Ms. Deaderick. Thank you, Senator Alexander, Senator Dodd. 
I am so glad to be here today supporting your legislation. I 
think enhancing instruction in these areas is critical right 
now. We have to provide remedies for all the problems that have 
been addressed today, and we have to provide them not only for 
people who have lived here and their families here for 
generations, but also for the students or people who have come 
here, having made conscious choices to come to this country and 
be here so that obviously they want to know what are the 
factors that really unify us.
    I know what you want me to do is explain how the 
International Studies Governor's School can be a model for 
these academies, and I just wanted to thank you for 
establishing the Governor's Schools, and particularly the 
International Studies School, because it has been a 
transforming experience for me in my own life.
    Like what is proposed in this legislation, we have a 
director and core faculty chosen for their subject expertise 
and for their teaching skills, and because international 
studies is such a broad field, what we do is divide our 
students into teams focusing on different areas, and then the 
expectation is that they will interact and share the knowledge. 
This sounds a little problematic in light of what Dr. Ravitch 
said about how things need to be chronological and what we do 
is not chronological, but I think it works very well.
    This year, we are going to be studying--in the four teams, 
we are going to study Latin America, and they will study the 
Portuguese language. Our goal is to study nontraditional 
languages or at least languages that are not routinely taught 
in the schools. We have a team studying Sub-Saharan Africa and 
Hausa language; East Asia and Chinese language, and Eastern 
Europe and Russia along with the Russian language.
    Additionally, every day all students address issues of 
major significance in the world, and so, you know, they spend 2 
hours in classes studying language and area studies, and then 
they come together, all--this summer we are going to have 
slightly under 100. The school was designed originally for 150, 
but with the money the way it is, we have the same budget that 
we had in 1986, and so what we do is cut the number of students 
yearly. And so I hope that nobody tries to cut your budget. I 
worked on your figures, and I decided it may be just possible.
    But, anyway, this summer we are going to have a strong 
focus on the Middle East, on environmental issues, on human 
rights, just to name a few of the major subjects that people 
will deal with. And then the students go to an issue analysis 
class where they examine things like foreign policy decision 
making or democracy and the conditions necessary for its 
survival. Yesterday morning, I was watching C-SPAN and I saw 
Senator DeWine on the Senate floor talking about his clean 
diamond bill. And I do not know if you all had an opportunity 
to hear that, but it was so interesting and it is just that 
kind of issue that we try to deal with at Governor's School, 
and I thought, well, that is a perfect example of something 
that is the kind of dilemma that we could look at in a case 
study, and it would pull together issues of human rights and 
foreign policy and international economics, looking at 
something that students would find fascinating, the ideas of 
the kinds of terrorism and terrorist activities that are 
financed by that blood diamond trade that the people in Sierra 
Leone, the revolutionary forces in Sierra Leone have. That is 
an example of the kind of thing that we deal with.
    We also make a very strong effort to infuse the arts into 
our curriculum because we see that as a powerful statement of 
what culture is like.
    As far as computers--I have added some stuff to this in 
addressing what other people have said--we do use some computer 
technology in the Governor's School, and one of the ways that 
we did that the last time--I don't know if you--I guess you do 
know that the Governor's School didn't--we didn't have 
Governor's Schools last summer because they were cut for budget 
reasons. We will have them again this summer. But we dealt with 
one issue on hormone-treated beef and another on coffee 
production where students had to go into the Web and find out 
everything there was to find--well, not everything, but much of 
what there was to find out about those issues, and then develop 
projects and PowerPoint things that tied into the Web. So that 
is a powerful way to do that. And in our school, we have that 
kind of facility as well.
    This is obviously a very, very intense program, and there 
is not very much free time. When there is, the students will 
talk to each other and sometimes get a little chance to sleep, 
not very much, but you have to be so careful, I think, to 
select students who really care about what they are doing, so 
the admissions process is an important thing to consider.
    The student academies in American history I thought could 
be developed along these same lines. There are so many ways to 
individualize instruction. I mean, students might concentrate 
on specific periods of history, but they also might look at 
something like the development of immigration law or civil 
rights growth. You spoke of the principles of American 
citizenship like liberty and the rule of law, individualism, 
separation of church and State. And those could be issues, the 
different groups in the American history schools and civics 
school concentrated on. Each could be an area of study.
    I am just suggesting, and I think it would be very, very 
stimulating to design one of these schools. But what we have to 
do is make sure that the instruction is unique, individualized, 
and unpredictable.
    At the Tennessee Governor's School, our goal has been to 
provide experiences that would not ordinarily be found in 
schools. And to that end, we encourage the faculty to live in 
the dorms with the students and interact with them as much as 
possible. There is never a day when the students aren't around 
asking questions, engaging in debates among themselves and with 
faculty. Then they go back to their schools exhilarated, ready 
to share all the new-found knowledge.
    The same scenario applies to the teachers' academies, and I 
heard all the obstacles that have been raised about this issue, 
but the obstacle that I personally think is the most powerful 
one is how much teachers have to do in a day. You know, when 
you are involved in mastering all the newest computer programs 
for attendance or teaching your subject--in addition to 
teaching your subject, but guiding the students, teaching 
manners and ethics, all your paperwork, lesson line, curriculum 
maps, there are all these things that have to be done so that 
there is not really very much time left. And the thing that 
suffers is preparation in the subject. Teachers don't have any 
time to read and keep up to date, and so that what I see these 
academies doing is providing them with the time to be involved 
in scholarly pursuits, developing lessons that are rich in 
content and depth, and then these lessons are going to be ready 
to teach. You know, when they go back to school, this will even 
help with the textbook problems, because, you know, they will 
go back with lessons that are just there that they can then use 
to train other teachers with. You know, I can't imagine 
anything better than spending these weeks in this kind of 
environment. I think it would be wonderful, and all the 
teachers will come home with, you know, knowledge, they will be 
rested, they will be ready to inspire the students and the rest 
of the faculty.
    As for Governor's School, again and again I encounter 
students who have attended Governor's School in the past, and I 
hear how their lives have been transformed by the experiences 
in our classrooms and in their late-night discussions. And, you 
know, when we see where those students are now--they are in the 
Foreign Service, they are in State Government, they are in 
teaching, they are in all kinds of leadership positions. And I 
know probably a lot of them are in your offices or will be 
soon. And many, many say that Governor's School was the single 
shaping event in their lives. And what you can do with this 
legislation is make the same kind of life-changing experiences 
for more teachers and more students.
    Thank you.
    [The prepared statement of Ms. Deaderick may be found in 
additional material.]
    Senator Alexander. Thank you, Ms. Deaderick. We will bring 
the hearing to a close in just a moment, but I have got a short 
question of each of the witnesses, and Senator Dodd may have a 
question or two himself.
    What is the optimum number of students and what is the 
optimum number of weeks for such a school? If money weren't a 
problem what would----
    Ms. Deaderick. If money weren't a problem, for students I 
think the 4-week model that we have is really ideal. What seems 
to happen is that when it starts, the first 2 or 3 days seem to 
go on for a long time. And then all of a sudden, you know, you 
are at the end of the 4 weeks, and the students say, ``Oh, 
please don't make me go home. I just want to stay here for the 
rest of my life.'' And, of course, they don't. But, you know, 
that is the way they feel at that time. I think if we kept them 
longer, it might not work that well.
    I think the optimum number of students is--we were funded 
originally for 150, and I do not think that is an optimum 
number. I think maybe 125 at least within the facility that we 
have would be a better number. But the thing that is 
particularly important is how much faculty do you have to deal 
with them, and I think your optimum number has to do with 
faculty-student ratio. We try to have three faculty for 20 to 
25 students.
    Senator Alexander. I think the Governor's School in 
Knoxville in sciences may have had 400 students.
    Ms. Deaderick. Yes, they did, and I did not have that 
opportunity, and I am only responding to what our system was 
like.
    Senator Alexander. But if you had enough faculty, you could 
design a larger school.
    Ms. Deaderick. Yes.
    Senator Alexander. And would you think that for a teacher 2 
weeks is about right, that more than that would not likely fit 
into a teacher's----
    Ms. Deaderick. Yes. Yes, I think----
    Senator Alexander. Four weeks would be hard for a teacher, 
wouldn't it?
    Ms. Deaderick. Yes, it would.
    Senator Alexander. Given other responsibilities. And what 
is the budget for your school? Do you know?
    Ms. Deaderick. Ours is around $240,000, and I did some 
figures that I----
    Senator Alexander. Does that count what the university 
contributes?
    Ms. Deaderick. No, it does not.
    Senator Alexander. So this is cash from the State.
    Ms. Deaderick. This is cash from the State, and what the 
university contributes is classroom space and utility bills, 
you know, the machines that we have to use, all those kinds of 
things. They give us the dormitory--no, well, we pay for it. 
The biggest portion of our budget goes for food and lodging. 
Every year that goes up, and I think we have about $2,500 per 
student to spend this year, and looking at your figures, it 
looked like $3,800 per student. I don't know if I did my math 
correctly or not, but that would be good. That would maybe be 
equivalent to what we had when we started. When we started the 
school, we could do a whole lot more than we are able to do 
now. We have had to cut our faculty.
    Senator Alexander. And how many applications did you have 
the year before last for your spots?
    Ms. Deaderick. For the student spots?
    Senator Alexander. Yes.
    Ms. Deaderick. I think that we had--the year before last, I 
think we had about 400-plus applications, and this year we had 
325 for what has come to be about 92 spots.
    Senator Alexander. Mr. Berg, if there were in Connecticut a 
4-week congressional academy for outstanding students of 
American history and civics, would you be interested in going? 
And if you were, what would your advice be to the managers of 
the school about what you would like to find there?
    Mr. Berg. Of course, I would be interested. That would be 
an incredible opportunity if such a school opened up in 
Connecticut, or even regionally; it would still be accessible 
to a lot of motivated students with the support of their 
schools.
    I think some issues that would need to be worked our 
probably on a school-by-school basis to make these Governor's 
Schools work would be to accommodate students' other interests, 
maybe scheduling conflicts with other classes they have. I do 
not know if high school students have 4 months of their year to 
devote----
    Senator Alexander. It would be 4 weeks.
    Mr. Berg. Four weeks.
    Senator Alexander. It would be a summertime----
    Mr. Berg. Excuse me.
    Senator Alexander. No, that is all right.
    Mr. Berg. Then summertime would be--that would be perfect. 
That would be great.
    What I would like to see there, if it were to be held on a 
university campus, I think that would include most of the 
facilities that students would appreciate, access to computers. 
With our ``We the People'' program, computers and the Internet 
are our greatest resource, along with guidance from expert 
faculty, etc.
    I think it would be an excellent and positive addition to 
the education of any student in their career.
    Senator Alexander. Senator Dodd?
    Senator Dodd. Well, again, thank you all for your 
testimony. And we thank you, Mr. Sullivan, for being here as 
well. You were at Georgetown. Were you in the college or the 
Foreign Service School?
    Mr. Sullivan. College.
    Senator Dodd. So you did not have my brother as a 
professor.
    Mr. Sullivan. I did not.
    Senator Dodd. You know, I am listening to you talking about 
this, and obviously it is a wonderful concept. Just sharing 
anecdotally with you, as I mentioned earlier, having gone to 
visit my schools in Connecticut and talking to students, there 
is a clear distinction, obviously, when I go to some schools in 
more affluent communities and so forth in my State in terms of 
the dialogue, the questions, the interchange. And when I go to 
some of the areas in my State, particularly in the urban 
areas--you go to Bridgeport, which is very near Trumbull. What 
does it take, about 15 minutes maybe, to go from Trumbull High 
to Bassick or Central High School?
    Mr. Sullivan. If that.
    Senator Dodd. If that. Maybe 10 minutes away. And, Mr. 
Chairman, the disparity and difference between these two 
schools that are 10 minutes apart from each other in the most 
affluent State in the country on a per capita income basis, in 
the most affluent Nation on the face of the earth, is 
startling. Like many urban schools, because of a lack of 
resources--the last time I was at Bassick or Central, I think 
there were maybe five or six computers in the entire school. I 
think there are police officers on every floor. The buildings 
are in tough shape, to put it mildly. There is not much of an 
athletic complex or facilities and so forth. You meet some 
remarkable students and remarkable teachers there, but students 
growing up 10 minutes apart from each other, through no fault 
of their own, are getting a very different educational 
opportunity. As many as 38 percent of the teachers at Bassick 
or Central are not certified to teach the course they are 
teaching. I suspect at Trumbull High School it is probably, 
what, 1 percent or 2 percent may be not certified to teach the 
courses they are teaching.
    I want to make sure that we do this while we are talking 
about students that have the wonderful advantages to promote 
these ideas, that we make a real effort somehow as well to 
reach out to those students in schools that may have an 
appetite and desire but for a variety of other reasons, maybe 
resources, don't have available to them the same kind of a 
program that exists at Trumbull as a result of Mr. Sullivan's 
incredible work, the taxpayers of Trumbull who care about it, 
to their great credit, who have decided this is a priority for 
them. And I don't want to in any way suggest that because what 
Trumbull has done that somehow they ought to feel in any way 
guilty because the next town over, for all the reasons that I 
have mentioned, and many, many more, are incapable of it.
    But I would like to see us be able to do more, and my 
question really to you goes beyond this particular proposal, 
which I think is an excellent one and I am a cosponsor of it. 
What can we do, Ms. Deaderick, in your mind or, Mr. Sullivan, 
in your mind, as teachers? I have a harder time in urban 
settings when I start talking about what I do as a Senator. And 
sometimes the only way I can get it going is to get very 
provocative. I will say something absolutely outrageous, if 
nothing else except to try and at least promote some debate, 
someone to start up and just disagree with me. And I do it 
intentionally, and then things can get going. But it is much 
harder for me, I find, than it is at a Trumbull or a Ridgefield 
High or West Hartford at Hall or Connard, other schools where 
kids come prepared, fired up with questions. Some of the best 
questions I ever get--I was at a middle school, at Pulaski 
Middle School last week in New Britain, CT. Mr. Chairman, 60 
students in the class, 25 or 30 of them came from different 
countries as immigrant children, and about three or four or 
five of them came from Muslim countries, were dressed in the 
clothing of Muslims. My State is so diverse in its population 
and interest. But the questions were fabulous. I mean, I don't 
think I have had as many good questions, most of all on the 
Persian Gulf and Iraq, than I have received from, with all due 
respect to my colleagues who cover me here, our friends from 
the media. They were wonderful questions. And yet I know if I 
go into another area, I am lucky to get any questions at all. I 
really have to fight hard.
    Why are we not doing as well in promoting civics and an 
appreciation of American history in these areas? And what would 
you recommend, could be done at a State or local level? I don't 
suggest that all the answers reside here at all, but we can be 
educators in the sense by providing a forum for you to share 
your thoughts. So what ideas do you have about how we could do 
a better job of promoting education, educational interest in 
these subject matters in some of our harder-hit schools--
schools that are suffering more from some of the items that I 
have just mentioned like a lack of resources? Any ideas, Ms. 
Deaderick, on that?
    Ms. Deaderick. Well, I think that, you know, what was said 
earlier about the teachers being excited about what they are 
teaching--if teachers seem really to care about what they are 
teaching, then the students embrace that and are really ready 
to learn so much more. And I think that one way that these 
academies that we are talking about right here could help with 
that is by making sure to reach into the areas that you are 
describing where people have more problems with resources.
    One of the things that we have done in Tennessee is made 
certain that we select people from as many counties as possible 
through the State as we can. And, you know, some of our 
counties are affluent and some of them are very poor. And so 
that tends to then spread the wealth of the information around. 
And you could do the same thing with the selection of the 
teachers to these programs, and the students to the programs as 
well. But if you make sure to select teachers who come from the 
disadvantaged areas, then that will be a help. And, of course, 
if there were money to put teachers into these programs, so 
many of which have been described today, some of them are free, 
but many of them are ones that teachers have to pay for. And if 
there were money to pay the fees for those schools, then that 
would help as well.
    I think that requiring people to be certified in the area 
they are teaching, I think that, you know, if I am teaching 
history, I think I need to have a degree in history. And I 
think if we can do that, that would make a tremendous 
difference.
    Senator Dodd. I guess you know this, Mr. Chairman, in our 
bill we have the academy for students. Do we have a 
commensurate academy for teachers?
    Ms. Deaderick. Yes.
    Senator Dodd. Mr. Sullivan?
    Mr. Sullivan. Ours is a participatory Government, and I 
think that our civics education must be participatory as well. 
And I think that is one of the greatest strengths of programs 
like the ``We the People'' program. Russell has been preparing 
all year for a competition which takes the form of a mock 
congressional committee hearing and has familiarized himself 
with that format, never realizing that he would have this 
opportunity today to do the real thing. But the fact is, you 
know, he came to me as a student at the beginning of the year 
probably who had a curiosity about Government, but being 
exposed to it in a unique way, it has become a great love of 
his. So if there is a way make civics education more 
participatory, then it should be pursued.
    ``We the People'' in my own State, I would love it if more 
schools did it on the one hand. That would make for more 
competition every year at our State finals. But, you know, the 
larger goal is more important.
    There are other similar programs offered at our school such 
as a mock trial program, which, again, allows students to 
learn, you know, the process of a trial and actually learn by 
doing. So whether it be through clearly established programs 
like a mock trial or ``We the People,'' that is one thing. Or 
certainly in the classroom, teachers should be trained in, you 
know, calling upon other means to do the same thing, even if it 
is not sponsored as part of an official program. So that would 
be my strongest recommendation.
    Senator Dodd. Those are good ideas and suggestions. I don't 
know if I mentioned to you, visiting schools, Mr. Chairman, is 
something that I have found--I used to do town hall meetings, 
but I found out that at those sometimes I ended up being a 
referee.
    Senator Alexander. That is right. [Laughter.]
    Senator Dodd. I had one guy one time--the last one was 
about 15 years ago, and some guy showed up dressed as Abraham 
Lincoln, and another guy showed up--not dressed up, but he was 
a member of the World Federalist. And they got into a fist 
fight, and I ended up breaking it up. And that was the picture 
on the front page of the paper the next day, not what I had to 
say or anybody else. I decided that was enough.
    So I started doing schools as a way of getting out and 
listening to people, and I found particularly high schools, 
juniors and seniors, middle schools--and we tried to mix it up 
a little bit. But the value I think it has is--I don't come 
unannounced, and so the schools are going to get ready because 
the Senator is going to come. And so there is some discussion 
about what students ought to ask. I suspect that some of the 
students go home and tell their parents the Senator is going to 
come, what do you think I ought to ask? And I think that may 
generate a little conversation at home about what a Senator is 
and what I do.
    Then while you are there, it has a value, and I think after 
you leave, there is usually discussion about what I had to say. 
So it has this kind of ripple effect beyond just this site 
visit. It has its own, I think, value. That is why I encourage 
my colleagues to do more of it so that people can hear us 
answer questions or say we don't know, we will have to find the 
answer out for you. There is a value in that as well.
    But I would encourage anything that could be done to really 
reach into these communities as well, Mr. Sullivan. I don't 
know how you could--you have done so well at this. We ought to 
think back home on how we might get you around to go maybe 
visit some of these schools and talk about the program and how 
it works and how people can participate so that we can see 
greater participation in this civics exercise. Maybe you and I 
ought to talk about that and how we could maybe achieve that. 
Maybe I will take you with me to some of these urban schools 
and get you a chance to get up and talk to people about 
participating next year or the year after in the program.
    Mr. Sullivan. I would welcome that opportunity. I am a firm 
believer in this program and would love to share its merits 
with other schools.
    Senator Alexander. Well, I have a suggestion, Senator Dodd. 
Mr. Sullivan could--we can get this bill passed. Mr. Sullivan 
can work with Russell and his other students and his fellow 
teachers, and he can put in an application to the National 
Endowment for the Humanities, and he can create a Presidential 
academy for teachers or a congressional academy for students 
and be the director of it. And in that way, he might invite 
teachers from those schools. I mean, it could be aimed at 
schools that have fewer resources and a greater need. That is 
certainly a rationale for a school. I mean, we are looking for 
many different ideas, and as I mentioned earlier, I hope that--
I see no reason why the University of Memphis with its years of 
experience in operating a successful Governor's School couldn't 
be a potential applicant for a Presidential academy or a 
congressional academy for American history.
    Ms. Deaderick. We want you to come down to the Governor's 
School this summer and, you know, be a representative and show 
them that you are the person who made this Governor's School 
happen.
    Senator Alexander. I am likely to do it, Blanche.
    I thank you. We have gotten to noon, and I think unless the 
Senator has other questions, let me thank you, Ms. Deaderick, 
Russell, Mr. Sullivan, let me thank you for coming. You have 
really helped us a great deal. We have had quite a--Senator 
Dodd, we started with David McCullough at 9:00 a.m., and we had 
the heads of the National Endowment for Humanities, the Library 
of Congress, and the Under Secretary of Education. We had Diane 
Ravitch, a distinguished historian of American history, and we 
have had a teacher, an outstanding teacher, and an outstanding 
student. So we are off to a good start. We have 19 cosponsors, 
including the Democratic Whip, Senator Reid, who asked me to 
incorporate his statement into the record, which I will do.
    [The prepared statement of Senator Reid follows:]

                   Prepared Statement of Senator Reid

    The education of America's children must be one. of our top 
priorities. These children are our future, and we need to give 
them the tools to be Great leaders of that future. Our schools 
have several important responsibilities to achieve that end, 
including providing students with the foundation to pursue 
higher education, helping them develop their individual 
potential and preparing them for successful careers.
    America has been a nation of immigrants for hundreds of 
rears. And our schools have helped instill in our diverse 
population a sense of what it means to be an American and have 
prepared our youth for the responsibilities of citizenship. We 
need to reaffirm the importance of learning American history 
and maintaining civic understanding.
    As I work to make sure that all schoolchildren, and 
especially those in Nevada, are connected to the Internet and 
to the future, I also want them to be connected to America's 
past and to know the common values and history that bind 
together all who live in our great nation.
    Senator Alexander. The bill is introduced in the House of 
Representatives by Roger Wicker and others, exactly the same 
bill, and so we hope it is enacted and we hope we can play a 
role in taking all the various programs, nearly a dozen of them 
throughout the Federal Government that focus on putting the 
teaching of American history and civics back in its rightful 
place in our curriculum so our children can grow up learning 
what it means to be an American.
    I would like to also place into the record the testimony of 
the National Conference on Citizenship, Philip Duncan, the 
executive director.
    [The prepared statement of Mr. Duncan may be found in 
additional material.]
    Senator Alexander. I would like to add my maiden speech on 
the subject, which I made a few weeks ago when I introduced the 
bill.
    [The prepared speech follows:]

Prepared Remarks of Senator Alexander on the Introduction of his Bill: 
      The American History and Civics Education Act--March 4, 2003

    Mr. President, from the Senate's earliest days, new members have 
observed a ritual of remaining, silent during floor debates for a 
period of time that ranged from several weeks to two years. By waiting 
a respectful amount of time before giving their so-called ``maiden 
speeches,'' freshman senators hoped their senior colleagues would 
respect them for their humility.
    This information comes from the Senate historian, Richard Baker, 
who told me that in 1906, the former Governor of Wisconsin, Robert 
LaFollette arrived here ``anything but humble.'' He waited just three 
months, a brief period by the standards of those days, before launching 
his first major address. He spoke for eight hours over three days: his 
remarks in the Congressional Record consumed 148 pages. As he began to 
speak, most of the senators present in the chamber pointedly rose from 
their desks and departed. LaFollette's wife, observing from the 
gallery, wrote, ``There was no mistaking that this was a polite form of 
hazing.''
    From our first day here, the new members of this 108th Congress 
have been encouraged to speak up, and most of us have. But, with the 
encouragement of the majority leader, several of its intend also to 
revive the tradition of the maiden address by making a signature speech 
on an issue that is important both to the country and to each of us. I 
Want to thank my colleagues who are here and assure them that I will 
not speak for three days--as former Governor LaFollette did.
    Mr. President, I rise to address the intersection of two urgent 
concerns that will determine our country's future. These are also the 
two topics about which I care the most: the education of our children 
and the principles that unite us as Americans.
    It is time that we put the teaching of American history and civics 
back in its rightful place in our schools so our children can grow up 
learning what it means to be an American.
    Especially during such serious times when our values and way of 
life are being attacked, we must understand clearly just what those 
values are.
    In this, most Americans would agree. For example, in Thanksgiving 
remarks in 2001, President Bush praised our nation's response to 
September 11. ``I call it,'' he said, ``the American character.'' 
Speaking at Harvard at about the same time, former Vice-President Al 
Gore said, ``We should [fight] for the values that bind us together as 
a country.''
    Both men were invoking a creed of ideas and values in which most 
Americans believe. ``It has been our fate as a nation,'' the historian 
Richard Hofstadter wrote, ``not to have ideologies but to be one.'' 
This value based identity has inspired both patriotism and division at 
home, both emulation and hatred abroad. For terrorists, as well as for 
those who admire America, at issue is the United States itself--not 
what we do, but who we are.
    Yet our children do not know what makes America exceptional. 
National exams show that three-quarters of the nation's 4th, 8th and 
12th graders are not proficient in civics knowledge and one-third does 
not even have basic knowledge, making them ``civic illiterates.''
    Children are not learning about American history and civics because 
they are not being taught it. American history has been watered down 
and civics is too often dropped from the curriculum entirely.
    Until the 1960s, civics education, which teaches the duties of 
citizenship, was a regular part of the high school curriculum. Today's 
college graduates probably have less civics knowledge than high school 
graduates of 50 years ago. Reforms in the '60s and '70s resulted in the 
widespread elimination of required classes and curriculum in civics 
education. Today, more than half the states have no requirement for 
students to take a course--even for one semester--in American 
government.
    To help put the teaching of American history and civics in its 
rightful place. I introduce legislation today to create Presidential 
Academies for Teachers of American History and Civics and Congressional 
Academies for Students of American History--and Civics. These 
residential academies would operate for two weeks (in the case of 
teachers) and four weeks (for students) during the summer.
    Their purpose would be to inspire better teaching and more learning 
of the key events, persons and ideas that shape the institutions and 
democratic heritage of the United States.
    I have had some experience with such residential summer academies, 
when I served as Governor of Tennessee. In 1984, Tennessee began 
creating Governor's schools for students and teachers. For example, 
there was the Governor's School for the Arts at Middle Tennessee State 
University and the Governor's School of International Studies at the 
University of Memphis as well as the Governor's School for Teachers of 
writing at the University of Tennessee at Knoxville. Eventually there 
were eight Governor's Schools helping thousands of Tennessee teachers 
improve their skills and inspiring outstanding students to learn more 
about core curriculum subjects. When these teachers and students 
returned to their schools for the next school year, they brought with 
them a new enthusiasm for teaching and learning that infected their 
peers. Dollar for dollar, the Governor's Schools were one of the most 
effective and popular educational initiatives in our state's history.
    States other than Tennessee have had similar success with summer 
residential academies. The first Governor's school was started in North 
Carolina in 1963 when Governor Terry Sanford established it at Salem 
College in Winston-Salem. Upon the establishment of the first school, 
several states, including Georgia, South Carolina, Arkansas, Kentucky, 
and Tennessee established similar schools.
    For example, in 1973 Pennsylvania established Governor's Schools of 
Excellence, which has 14 different programs of study. As in Tennessee, 
students participating in the Pennsylvania Governor's School program 
attend academies at 8 different colleges to study everything from 
international studies, to health care and teaching. Also established in 
1973, Virginia's Governor's School is a summer residential program for 
7500 of the Commonwealth's most gifted students. Mississippi 
established its Governor's School in 1981. The Mississippi University 
for Women hosts the program, which is designed to give students 
academic, creative, and leadership experiences. Every year West 
Virginia brings 80 of its most talented high school performing and 
visual arts students to West Liberty State College for a three-week 
residential program.
    These are just a few of the approximately 100 Governors' schools in 
28 states--clearly the model is a good one. The legislation I propose 
today applies that successful model to American history and civics 
education at the national level by establishing Presidential and 
Congressional academies for American history and civics.
    Additionally, this proposed legislation authorizes the creation of 
a national alliance of American history and civics teachers who would 
be connected by the Internet. The alliance would facilitate sharing of 
best practices in the teaching of American history and civics. It is 
modeled after an alliance I helped the National Geographic Society 
begin during the 1980's to put geography back into the American school 
curriculum. Tennessee and the University of Tennessee were among the 
first sponsors of the alliance.
    My legislation creates a pilot program. Up to 12 Presidential 
academies for teachers and 12 Congressional Academies for students 
would be sponsored by educational institutions. The National Endowment 
for the Humanities would award 2-year renewable grants to those 
institutions after applications are subjected to a peer review process. 
Each grant would be subject to rigorous review after three years to 
determine whether the overall program should continue or expand. The 
legislation authorizes $25 million annually for the four year pilot 
program.
    There is a broad basis of renewed support for and interest in 
American history and civics in our country.
    As David Gordon notes in a recent issue of the Harvard Education 
Letter: ``A 1995 surrey by the nonpartisan research organization Public 
Agenda showed that 84 percent of parents with school aged children said 
they believe that the United States is a special country and they want 
schools to convey that belief to their children by teaching about its 
heroes and traditions. Similar numbers identified the American ideal as 
including equal opportunity, individual freedom, and tolerance and 
respect for others. Those findings were consistent across racial and 
ethnic groups.''
    Our national leadership has responded to this renewed interest. In 
2000, at the initiative of my distinguished colleague Senator Byrd, 
Congress created grants for schools that teach American history as a 
separate subject within school curricula. We appropriated $100 Million 
for the Byrd Grants in the recent Omnibus appropriations bill, and 
rightfully so. They encourage schools and teachers to focus on the 
teaching of traditional American history, and provide important 
financial support.
    Last September, with historian David McCullough at his side, 
President Bush announced a new initiative to encourage better teaching 
of American history and civics. He established the ``We the People'' 
program at the NEH, which will develop curricula and sponsor lectures 
on American history and civics. He announced the ``Our Documents' 
project, run by the National Archives. ``Our Documents'' brings one 
hundred of America's most important documents from the National 
Archives to classrooms and communities across the country. This year, 
he will convene a White House forum on American history, civics, and 
service. There, we will discuss new policies to improve the teaching of 
history and civics in elementary and secondary schools.
    My proposed legislation takes the next step by training teachers 
and encouraging outstanding students. We need to foster a love of this 
subject and arm teachers with the skills to impart that love to their 
students.
    I am pleased that today one of the leading members of the House of 
Representatives, Roger Wicker of--Mississippi, along with a number of 
his colleagues, are introducing the same legislation in that House.
    I want to thank Senator Gregg, Chairman of the Committee on Health, 
Education, Labor and Pensions, who has agreed that the committee will 
hold hearings promptly on this legislation so that eye can determine 
how it might supplement and work with recently enacted legislation and 
the President's own initiative.
    Mr. President, in 1988, at a meeting of educators in Rochester, the 
President of Notre Dame University asked this question: ``What is the 
rationale for the public school?'' There was an unexpected silence 
around the room until Al Shanker, the president of the American 
Federation of Teachers, answered in this way: ``The public school was 
created to teach immigrant children the three R's and what it means to 
be an American with the hope that they would then go home and teach 
their parents.''
    From the founding of America, we have always understood how 
important it is for citizens to understand the principles that unite us 
as a country. Other countries are united by, their ethnicity. If you 
move to Japan, you can't become Japanese. Americans, on the other hand, 
are united by a few principles in which we believe. To become an 
American citizen, you subscribe to those principles. If there were no 
agreement on those principles, Samuel Huntington has noted, we would be 
the United Nations instead of the United States of America.
    There has therefore been a continuous education process to remind 
Americans just what those principles are. In his retirement at 
Monticello, Thomas Jefferson would spend evenings explaining to 
overnight guests what he had in mind when he helped create what we call 
America. By the mid-19th century it was just assumed that most 
Americans knew what it meant to be an American. In his letter from the 
Alamo, Col. William Barrett Travis pleaded for help simply ``in the 
name of liberty, patriotism and everything dear to the American 
character.''
    New waves of immigration in the late 19th century brought to our 
country a record number of new people from other lands whose view of 
what it means to be an American was indistinct--and Americans responded 
by teaching them. In Wisconsin, for example, the Kohler Company housed 
German immigrants together so that they might be Americanized during 
non-working hours.
    But the most important Americanizing institution, as Mr. Shanker 
reminded us in Rochester in 1988, was the new common school. McGuffey's 
Reader, which was used in many classrooms, sold more than 120 million 
copies introducing a common culture of literature, patriotic speeches 
and historical references.
    The wars of the 20th century made Americans stop and think about 
what we were defending. President Roosevelt made certain that those who 
charged the beaches of Normandy knew they were defending for freedoms.
    But after World War II, the emphasis on teaching and defining the 
principles that unite its waned. Unpleasant experiences with 
McCarthyism in the 1950's, discouragement after the Vietnam War, and 
history books that left out or distorted the history of African-
Americans made some skittish about discussing ``Americanism.'' The end 
of the Cold War removed a preoccupation with who we were not, making it 
less important to consider who we are. The Immigration law changes in 
1965 brought to our shores many new Americans and many cultural 
changes. As a result, the American Way became much more often praised 
than defined.
    Changes in community attitudes, as they always are, were reflected 
in our schools. According to historian Diane Ravitch, the public school 
virtually abandoned its role as the chief Americanizing Institution. We 
have gone, she explains, from one extreme (simplistic patriotism and 
incomplete history) to the other--``public schools with an adversary 
culture that emphasize the nation's warts and diminish its genuine 
accomplishments. There is no literary canon. No common reading, no 
agreed upon lists of books, poems and stories from which students and 
parents might be taught a common culture and be reminded of what it 
means to be an American.''
    During, this time many of our national leaders contributed to this 
drift toward agnostic Americanism. These leaders celebrated 
multiculturalism and bilingualism and diversity at a time when there 
should have been more emphasis on a common culture and learning English 
and unity.
    America's variety and diversity is a great strength, but it is not 
our greatest strength. Jerusalem is diverse. The Balkans are diverse. 
America's greatest accomplishment is not its variety and diversity but 
that we have found a way to take all that variety and diversity and 
unite as one country. E pluribus unum: out of many, one. That is what 
makes America truly exceptional.
    Since 9/11 things have been different. The terrorists focused their 
cross-hairs on the creed that unites Americans as one country forcing 
us to remind ourselves of those principles, to examine and define them 
and to celebrate them. The President has been the lead teacher. 
President Bush has literally taken us back to school on what it means 
to be an American. When he took the country to church on television 
after the attacks he reminded us that no country is more religious than 
we are. When he walked across the street to the mosque he reminded the 
world that we separate church and state and that there is freedom here 
to believe in whatever one wants to believe. When he attacked and 
defeated the Taliban, he honored life. When we put planes back in the 
air and opened financial markets and began going to football games 
again we honored liberty. The President called on us to make those 
magnificent images of courage and charity and leadership and 
selflessness after 9/11 more permanent in our every day lives. And with 
his optimism, he warded off doomsayers who tried to diminish the real 
gift of Americans to civilization, our cockeyed optimism that anything 
is possible.
    Just after 9/11, I proposed an idea I called ``Pledge Plus Three.'' 
Why not start each school day with the Pledge of Allegiance--as we did 
this morning here in the Senate--followed by a faculty member or 
student sharing for three minutes ``what it means to be an American.'' 
The Pledge embodies many of the ideals of our National Creed: ``one 
nation, under God, indivisible, with liberty and justice for all.'' It 
speaks to our unity, to our faith, to our value of freedom, and to our 
belief in the fair treatment of all Americans. If more future federal 
judges took more classes in American history and civics and learned 
about those values, we might have fewer mind-boggling decisions like 
the one issued by the Ninth Circuit.
    Before I was elected to the Senate, I taught some of our future 
judges and legislators a course at Harvard's John F. Kennedy School of 
Government entitled ``The American Character and America's 
Government.'' The purpose of the course was to help policy makers, 
civil servants and journalists analyze the American creed and character 
and apply it in the solving of public policy problems. We tried to 
figure out, if you will, what would be ``the American way'' to solve a 
given problem.
    The students and I did not have much trouble deciding that America 
is truly exceptional (not always better, but truly exceptional) or in 
identifying the major principles of an American Creed or the distinct 
characteristics of our country. Such principles as: liberty, equal 
opportunity, rule of law, individualism, e pluribus unum, the 
separation of church and state.
    But what we also found was that applying those principles to 
today's issues was hard work. This was because the principles of the 
creed often conflicted. For example, when discussing President Bush's 
faith-based charity legislation, we knew that ``In God We Trust'' but 
we also knew that we didn't trust government with God.
    When considering whether the federal government should pay for 
scholarships which middle and low income families might use at any 
accredited school--public, private or religious--we found that the 
principle of equal opportunity conflicted with the separation of church 
and state.
    And we found there are great disappointments when we try to live up 
to our greatest dreams, for example--President Kennedy's pledge that we 
will ``Pay any price or bear any burden'' to defend freedom, or Thomas 
Jefferson's assertion that ``all men are created equal,'' or the 
American dream that for anyone who works hard, tomorrow will always be 
better than today.
    We learned that, as Samuel Huntington has written, balancing these 
conflicts and disappointments is what most of American politics and 
government is about.
    Mr. President, if most of our politics and government is about 
applying to our most urgent problems the principles and characteristics 
that make the United States of America an exceptional country--then we 
had better yet about the teaching and learning of those principles and 
characteristics.
    The legislation I propose today will help our schools do what they 
were established to do in the first place. At a time when there are 
record numbers of new Americans, and at a time when our values are 
under attack, at a time when we are considering going to war to defend 
those values, there can be no more urgent task than putting the 
teaching of American history and civics back in its rightful place in 
our schools so our children can grow up learning what it means to be an 
American.
    Senator Alexander. Also, I am going to put in the record, 
Senator Dodd, without objection, I hope, the syllabus that I 
used the last two semesters at Harvard's Kennedy School of 
Government, where I taught a course called ``The American 
Character and America's Government.''
    [The prepared syllabus follows:]

  PAL 223--The American Character and America's Government: Using the 
                    American Creed to Make Decisions

    Professor: Lamar Alexander, John F. Kennedy School of Government, 
Harvard University
    Spring 2002, Tuesdays, 4:10 p.m.--6:00 p.m., Classroom: L382/Kahn
    Course Credit: 1, Limited Enrollment, First class: 2'5

                        OBJECTIVE OF THE COURSE

    To help future decision-makers use the principles of the American 
Creed to solve difficult, contemporary public policy problems. Students 
will first explore America's ``exceptionalism'': how an idea-based 
national ideology makes the United States different from other 
countries-including other Western democracies. Then, each session will 
analyze one value of the ``American Creed''--and how it conflicts with 
other values and/or creates unrealized expectations--in the solving of 
a specific problem. Students will simulate realistic policymaking 
situations and produce professional products as assignments: concise 
memos, outlines and briefings.

                        RATIONALE FOR THE COURSE

    In Thanksgiving remarks President Bush praised the nation's 
response to September 11. ``I call it.'' he said. ``the American 
Character''. At KSG Al Gore said. ``We should [fight] for the values 
that bind us together as a country''. Both men were invoking a creed of 
ideas and values in which most Americans believe. ``It has been our 
fate as a nation,'' Richard Hofstader wrote, ``not to have ideologies 
but to be one.'' This value-based national identity has inspired both 
patriotism and division at home, both emulation and hatred abroad. For 
terrorists as well as for those who admire America, at issue is the 
United States itself--not what we do, but who we are.
    Yet Americans who unite on principle divide and suffer 
disappointment when using their creed to solve policy problems. This is 
because the values of the creed conflict (e.g., liberty vs. equality, 
individualism vs. community and because American dreams are loftier 
than American reality (e.g., ``all men cue created equal'', ``tomorrow 
will be better than today''). Samuel Huntington has said that balancing 
these conflicts and disappointments is what most of American politics 
and government is about. That is also what this course is about.

                                AUDIENCE

    The Course is designed for future police makers--civil servants, 
and journalists. A general knowledge of American politics is helpful 
but not required. It should be useful for both U.S. and international 
students seeking to learn more about the American system of government 
and how it differs from that of other countries.

                               INSTRUCTOR

    Lamar Alexander, The Roy M. and Barbara Goodman Family Visiting 
Professor of Practice in Public Service, has been Governor of 
Tennessee. President of the University of Tennessee, and U.S. Education 
Secretary. He co-founded Bright Horizons Family Solutions, Inc., now 
the nations largest provider of worksite day care. His seven books 
include Six Months Off, the story of his family's trip to Australia 
after eight years in the Governors residence. In 1996 and 2000 he was a 
candidate for the Republican nomination for President of the United 
States.
    Office: Littauer 101, Telephone: (617) 384-7354.
    Office hours will generally be on Tuesdays and Wednesdays. A sign 
up sheet will be posted outside Professor Alexander's door.

                            COURSE ASSISTANT

    Matt Sonnesyn will be course assistant for PAL 223.

                              EXPECTATIONS

    This is a graduate level professional course and will have the 
corresponding standards and assignments: attendance at all scheduled 
classes, assignments completed on time, and evaluation according to 
students' preparation of professional products--crisp and realistic 
decision memos, memo outlines, and policy briefings. All briefings are 
conducted in class and all decision memos and weekly outlines are due 
at the beginning of the corresponding class session. There is no final 
exam, but there will be a final paper.

                                GRADING

    Briefings (2): team exercise 20%
    Two times during the course each student will participate in a team 
briefing on that Week's subject.
    Memos (2): team exercise 20%
    Two other times during the course each student will participate in 
a team preparing a three-page decision memo on that week's subject. The 
student may select these from among the class topics.
    Weekly Outlines (6): 20%
    Six other times during the course each student will prepare a one-
page analysis of the week's problem. (This will be during those weeks 
when the student is not involved in preparing a team briefing or team 
memo.)
    As a result, for ten of the twelve class sessions. each student 
will have an assignment to (other than reading) that requires 
preparation outside of class--either a team briefing, a team memo, or 
an individual weekly metro outline.
    Class participation and attendance: 15%
    Final Paper: 25%
    Final grades will be determined by students' overall position in 
the class as measured by performance on each of the assignments and 
will conform to the Kennedy School of Government's recommended range of 
grading distribution.

                               MATERIALS

    The course relies primarily on course packets to be made available 
for sale at the Course Materials Office. There will be 125-150 pages of 
reading each week. There are three required textbooks:
    (1) Alexis de Tocqueville, Democracy in America, translated and 
edited by Harvey C. Mansfield and Delba Winthrop. The University of 
Chicago Press, 2000.
    (2) Seymour Martin Lipset, American Exceptionalism, W.W., Norton & 
Co., 1997(paperback);
    (3) Samuel P. Huntington. ``American Politics: The Promise of 
Disharmony'', The Belknap Press of Harvard University 1981.
    All three books are available for purchase at the Harvard Coop. 
Copies of all three books are on reserve in the KSG library.
    Note: Readings from the three required textbooks or readings which 
are readily available online are not included in the course packet. 
(Hypertext links to the online readings may be found within the 
syllabus that is posted on the KSG website.)

                               ENROLLMENT

    The course has a limited enrollment. Auditors are permitted with 
permission of the instructor.

                  COURSE OUTLINE AND REQUIRED READINGS

    2/5--My ``ism'' is Americanism, American Exceptionalism
    One hundred and one ways Americans are different. So what?
    Alexis de Toqueville, Democracy in America, edited by Harvey C. 
Mansfield and Delba Winthrop, University of Chicago Press, Chicago, 
2000, pp. 2-15, 90, 585-587, 225-226.
    G.K. Chesterson. What I Saw in America, Dodd, Mead & Co., 1922. pp. 
6-12.
    Daniel J. Boorstin. ``Why a Theory Seems Needless'', The Genius of 
American Politics. 1953, The University of Chicago Press. p. 8-35.
    Samuel P. Huntington, ``The American Creed and National Identity,'' 
American Politics: The Promise of Disharmony, 1981. pp. 13-30.
    Albert Hourani, A History of the Arab Peoples, 1991. The Belknap 
Press of Harvard University Press, Cambridge, pp. 46-58.
    Samuel P. Huntington, The Clash of Civilizations, Simon and 
Schuster, 1996, pp. 40-55, 68-78, 301-308.
    Seymour Martin Lipset, American Exceptionalism, pp. 17-34
    2/12--``. . .) where at least I know I'm free . . . Liberty
    Should Congress repeal President Bush's executive order allowing 
non-citizens suspected of international terrorism to be detained and 
tried in special military tribunals''
    Alexis de Toqueville, ibid, pp. 239-242, 246-249. 301, 639-640.
    U.S. Constitution and amendments, 1787
    John Stuart Mill, ``The Authority of Society and the Individual'', 
On Liberty, 1859, Hackett Publishing Co. edition, 1978, pp. 73-91.
    Carl Brent Swisher, American Constitutional Development, Greenwood 
Press, Connecticut, 1954, pp. 276-292, 1017-1025.
    Samuel P. Huntington, ``The American Creed vs. Political 
Authority,'' American Politics: The Promise of Disharmony, 1981, pp. 
31-60.
    Richard E. Neustadt and Ernest R. May, Thinking in Time, The Free 
Press, pp. 232-246, 1988.
    An Executive Order of President George W. Bush, ``Detention 
Treatment and Trail of Certain Non-Citizens in the War against 
Terrorism'', November 13, 2001.
    Jeffrey Rosen, ``Testing the Resilience of American Values'', The 
New York Times Week in Review, Sunday, Nov. 18, 2001, pp. 1 and 4.
    Laurence H. Tribe, Statement before U.S. Senate Judiciary 
Committee, December 4, 2001.
    ``American Attitudes Toward Civil Liberties'', public Opinion 
survey, by Kasier Foundation, National Public Radio and Kennedy School 
of Government, December 2001.
    2/19--In God We Trust . . .  but we don't trust government with God 
Christianity, pluralism and the state
    Should Congress enact President Bush's faith-based charity 
legislation?
    Alexis de Toqueville, ibid, pp. 278-288.
    John Locke, ``A Letter Concerning Toleration'', Diane Ravitch and 
Abigail Thernstrom, The Democracy Reader, NY: HarperCollins, 1992, 
ibid., pp. 31-37.
    Thomas Jefferson, ``Notes on the State of Virginia'', Ravitch and 
Thernstrom, ibid., pp, 108-109.
    James Madison, ``Memorial and Remonstrance against Religious 
Assessments'', 1785, The Writings of James Madison, NY: Putnam, 1908.
    ``Separation of Church and State in American Brought about by the 
Scotch-Irish of Virginia'', Charles. A. Hanna, The Scotch Irish, Vol. 
II, 1985, Genealogical Publishing Co., Baltimore, pp. 157-162.
    Philip Schaff, America: A Sketch of its Political, Social and 
Religious Character, 1961, The Belknap Press of Harvard University, pp. 
72-83.
    Engel vs. Vitale, 370. U.S. 421 (1962)
    Marvin Olasky. ``The Early American Model of Compassion'', The 
Tragedy of American Compassion, Regnery, Publishing, Washington, D.C., 
1992, pp. 6-23.
    Lamar Alexander, ``Homeless, not hopeless'', We Know What to Do, 
William Morrow, New York, 1995, pp. 35-51.
    Two Executive Orders of President George W. Bush. ``Establishment 
of White House Office of Faith-Based and Community Initiatives'' and 
``Agency Responsibilities with respect to Faith-based Community 
Initiatives''. January 29, 2001.
    2/19--``Leave no child behind'' Equal Opportunity
    Should the federal government pay for scholarships that middle and 
low-income families may use at any accredited school--public, private 
or religious?
    Alexis de Toqueville, ibid, pp. 41-42.
    Horace Mann, ``Report of the Massachusetts Board of Education, 
1848'' in Daniel J. Boorstin, An American Primer, Meridian, 1995, pp. 
361-375.
    Charles Leslie Glenn, Jr. The Myth of the Common School, The 
University of Massachusetts Press, 1988, pp. 146-158.
    Lamar Alexander, ``The GI Bill for Kids'', The John Ashbrook 
Lecture, presented at Ashland (O.) University, 9/12/92.
    Thomas J. Kane, ``Lessons from the Largest School Voucher 
Program'', Who Chooses? Who Loses?, edited by Bruce Fuller and Richard 
F. Elmore, Teachers College Press, 1996, pp. 173-183.
    Michael W. McConnell. ``Legal and Constitutional Issues of 
Vouchers'', Vouchers and the Provision of Public Schools, The Brookings 
Institution, 2000, pp. 368-391.
    Eliot M. Minceberg and Judith E. Schaeffer,--Grades K-12: The Legal 
Problems with Public Funding of Religious Schools', Vouchers and the 
Provision of Public Schools, pp. 394--403.
    Diane Ravitch, ``American Traditions of Education'', Terry M. Moe, 
A Primer on America's Schools, Hoover Institution Press, 2001, pp. 1-
14.
    Paul Peterson, ``Choice in American Education'', A Primer on 
America's Schools, pp. 249-283.
    Diane Ravitch, ``Ex Uno Plures'', Education Next, Fall 2001, pp. 
27-29
    3/5--Equal at the starting line . . . but what about those with 
shackles? Individualism
    Should the federal government pay for race-based college 
scholarships?
    Alexis de Toqueville, ibid., pp. 326-334, 347-348; 482-488.
    The Declaration of Independence, 1776
    Abraham Lincoln, Second Inaugural Address (1856)
    Frederick Douglass, ``What to the Slave is the Fourth of July?''
    Martin Luther King, Jr., address at the Lincoln Memorial in 
Washington, D.C., August 28. 1963.
    Excerpts from University of California Regents vs. Bakke, 438 U.S. 
265 (1978)
    Testimony of Lamar Alexander, U.S. Education Secretary, Hearings 
before a Subcommittee of the Committee on Appropriations, House of 
Representatives, 102nd Congress, 2nd session, Feb. 20, 1992, pp. 39-46, 
82-89, 99-102.
    Seymour Martin Lipset. ``Two Americas'', American Exceptionalism, 
pp. 113-150.
    Abigail Thernstrom and Stephen Thernstrom, America in Black and 
White, New York, Simon & Schuster, 1997, pp. 530-545.
    Cornel West. ``Malcolm X and Black Rage'', Race Matters, Random 
House, Vintage Books, New York, 2001, pp. 135-151.
    3/12--A nation of immigrants . . . but all Americans E Pluribus 
Unam
    Should illegal aliens have Illinois driver's licenses? discounted 
tuition at state colleges? free medical care? should their children 
attend public schools?
    Alexis de Toqueville, Ibid., pp. 29-30, 32, 34-37, 268.
    J. Hector St. John de Crevecouer, ``What is an American'', Letters 
from an American Farmer, 1782. Penguin Books edition 1986, pp. 67-90.
    Arthur M. Schlesinger, Jr., The Disuniting of America, W.W., 
Norton, New York, 1991, pp. 9-43.
    Carlos E. Cortes, ``Limits to pluribus, limits to unum'', National 
Forum, Baton Rouge, Winter, 1992. pp. 6-10.
    Samuel P. Huntington, The Clash of Civilizations, Simon and 
Schuster, 1996. pp. 198-206.
    J. Harvie Wilkinson, ``The Medley of America'', One Nation 
Indivisible, Addison Wesley, 1997, pp. 3-21.
    Griffin Bell, ``The Changing Role of Migrants in the United 
States''. Address to the International Leadership Issues Conference of 
State Legislative Leaders Foundation, Budapest, October 4, 2001.
    David Cohen, Chasing the Red, White and Blue. New York, 2001, St. 
Martin's Press, pp. 218-286, 250-260
    Morris P. Fiorina and Paul E. Peterson, The New American Democracy, 
Longman, 2002. pp. 99-108.
    3/19--Suspending the constitution in order to save it. Rule of Law.
    Should the governor-elect seize office three days early to prevent 
the incumbent governor from selling pardons for cash?
    Alexis de Tocqueville, ibid., pp. 229-231.
    US Constitution, 25th Amendment
    Tennessee Constitution Article 3, Section 12
    Tennessee Acts Section 8-1-107
    Lou Fuller, ``The Morality that Makes Law Possible'', The Morality 
of Law, Yale Law School Press, 1964, pp. 33-44.
    John D. Feerick. The Twenty-Fifth Amendment: Its Complete History 
and Earliest Applications, Fordham University Press, 1976. pp. 3-23, 
193-206.
    Bush vs. Gore, 2000
    Al Gore, address to the nation, December 13, 2000.
    Paul F. Boller, Jr., ``Picking the Day'', Presidential 
Inaugurations, Harcourt, Inc., 2001.
    James W. Torke. ``What Is This Thing Called the Rule of Law?'' 
Indiana Law Review, Volume 34, 2001, pp. 1445-56.
    Dotty Lynch, ``Back to Abnormal'', Sept. 28, 2001, from CBS News 
Site,
    Tim McGirk, ``Wahid's In, Megawati's Out'', Dec, 8, 2001, from Time 
Asia
    Gordon Silverstein, ``Globalization and the Rule of Law'', mimeo, 
The University of Minnesota, 2001.
    3/26--Harvard break
    4/2--``Ask not what your country can do for you . . . Community
    Should all high school graduates perform one mandatory year of 
community service?
    Alexis de Toqueville, ibid, pp. 56-58. 577-78, 489-92.
    Robert L. Bellah, et al, Habits of the Heart, University of 
California Press, 1985, pp. vii-xxxv, 275-296.
    Daniel Boorstin. ``From Charity to Philanthropy'', Hidden History. 
Vintage, New York, 1989, pp. 193-209.
    -209J.
    Barry Alan Shain, The Myth of American Individualism, Princeton 
University Press, 1994, pp. xii-xix.
    Lamar Alexander, ``What's Wrong With American Giving and How to Fix 
It,'' Philanthropy, Summer 1997.
    Robert D. Putnam, Bowling Alone, Simon & Schuster, 2000, pp. 15-28, 
45-64, 116-133.
    4/9--Why Americans don't trust Washington, D.C. A government of, by 
and for the people
    Should the U.S. create a citizen congress: cut their pay and send 
them home six months a year, adopt term limits and two-year federal 
budgets?
    Alexis de Toqueville, ibid. pp. 53-55
    Aristotle, ``Politics'', from Ravitch and Thernstrom, pp. 9-12.
    Edmund Burke, ``On Election to Parliament'', Ravitch and 
Thernstrom, ibid. pp. 50-51.
    Samuel P. Huntington, ``The American Creed and National Identity.'' 
American Politics: the Promise of Disharmony, 1981, pp. 36-41.
    E.J. Dionne, ``The Politics of the Restive Majority'', Why 
Americans Hate Politics, Touchstone, New York, 1991, pp. 329-355.
    Lamar Alexander, ``Cut Their Pay and Send Them Home.'' 1994, 
address to The Heritage Foundation.
    Seymour Martin Lipset, American Exceptionalism, pp. 35-46.
    Joseph S. Nye, et al, Why People Don't Trust Government, Harvard 
University Press, 1997, pp. 253-281.
    Mark Kim, David King, Richard Zechhauser. ``Why State Governments 
Succeed'', mimeo, John F. Kennedy School of Government, Harvard 
University, 2001.
    4/16--``Work! For the night is coming . . . '' Laissez Faire
    Should the federal government pay all working Americans a living 
wage''?
    Alexis de Toqueville, ibid. pp. 506-08, 555-557, 606-608.
    Herbert Croly, The Promise of American Life, 1909, Northeastern 
University Press, pp. 1-26.
    Kevin Phillips, ``The Triumph of Upper America'', The Politics of 
Rich and Poor, Harper, 1991, pp. xvii-xxiii.
    C. Vann Woodward, ``The Pursuit of Happiness'', The Old World's New 
World, Oxford University Press, 1991, pp. 40-62.
    Seeymour--Martin Lipset, ``Economy, Religion and Welfare'', 
American Exceptionalism, pp. 53-76.
    David Neumark and William Washer, ``Using the EITC to Help Poor 
Families: New Evidence and a Comparison with the Minimum Wage'', NBER 
Working Paper #7599 March 2000, pp. 1-4. 24-27.
    Charles Handy, ``DeToqueville Revisited: The Meaning of American 
Prosperity'', Harvard Business Journal, January 2001, pp. 5-11.
    David Neumark, ``Living Wages: Protection For or Protection From 
Low-Wage Workers'', NBER Working Paper #8393, July 2001, pp. 1-7, 25-
27.
    David Cohen, Chasing, the Red, White and Blue, New York, 2001, St. 
Martin's Press, pp. 52-80.
    Harvard Living Wage Statements
    4/23--``Pay any price, bear any burden . . . Exporting American 
Values.
    Putin shuts down last remaining independent Russian TV station 
(owned 25% by Ted Turner), expels 100 foreign journalists for 
``inaccurate reporting'' including all Fox News personnel. What does 
U.S. do?
    Alexis de Toqueville, ibid., pp. 217-220.
    George Washington's Farewell Address, 1795.
    John F. Kennedy's Inaugural Address. 1961.
    Samuel P. Huntington, American Politics: the Promise of Disharmony, 
pp. 240-262.
    Graham T. Allison. Jr. and Robert P. Beschel, Jr.. ``Can the United 
States Promote Democracy'', Political Science Quarterly, Volume 107, 
No. 1, 1992, pp. 81-89.
    Henry Kissinger, ``The Hinge: Theodore Roosevelt or Woodrow 
Wilson'', Diplomacy, New York Simon & Schuster, 1994, pp. 29-55.
    Lamar Alexander, ``In War and Peace'', We Know What to Do. pp. 95-
107.
    Samuel P. Huntington, The Clash of Civilizations, pp. 309-321.
    Samantha Power, ``Bystanders to Genocide'', The Atlantic Monthly, 
September 2000, pp. 84-108.
    Walter Russell Mead, Special Providence: American Foreign Policy 
and How it Changed the World, Alfred A Knopf, New York 2001, pp. xv, 
xviii, 3-29.
    4/30--Anything is possible. Ubridled optimism
    Should there be a $1000 limit on individual federal campaign 
contributions?
    Alexis de Toqueville, ibid., pp. 187-189.
    Larry J. Sabato, ``PACS and Parties'' Money, Elections and 
Democracy: Reforming Congressional Campaign Finance, 1990, Boulder, 
Colorado, Westview Press.
    Todd Eardensohn, A Review of the Alexander for President Campaign 
Budge (1995-1996).
    Samuel P. Huntington, The Clash of Civilizations, Simon and 
Schuster, 1996, pp. 308-321.
    Seymour Martin Lipset, American Exceptionalism, pp. 51-52, 267-292.
    Lamar Alexander, ``Should Tom Paine Have Filed with the FEC'', 
January 21, 1998, address to The Cato Institute.
    Andrew Del Banco, The Real American Dream, 1999, Harvard University 
Press, pp. 103-118.
    Lamar Alexander, ``Put More Money Into Polities'', August 27, 1999, 
The Wall Street Journal.
    Alexander, ``Keeping the Dream Alive'', We know What to Do, ibid, 
pp. 165-180.
    Senator Alexander. And most of the classes were spent doing 
the kind of thing that you suggested, Ms. Deaderick. We would 
take an issue, we would take a principle that unites us as a 
country, like freedom, and a contemporary issue before the U.S. 
Senate, like did President Bush go too far with the first 
military tribunal, and we would divide up into teams and we 
would debate that. And the next week we would take a question 
like should the Federal Government pay for scholarships based 
solely on race, and we would debate that.
    But the way we would debate it is to try to identify the 
principle that was at stake, and what we normally found was, 
say, in that latter case, we had the principle of equal 
opportunity on the one side and the principle of individualism 
on the other side, and they are both principles that we all 
agree with, but when we apply them to our current issues, we 
get conflict. So most of our politics and most of our 
Government is about conflicts of principles about which we 
agree and about disappointments we have when we don't reach our 
dreams, like pay any price, bear any burden to defend freedom. 
We don't always do that. All men are created equal. They always 
weren't in this country.
    So those are the conflicts and those are the 
disappointments that most of our history is about and which 
create wonderful stories like David McCullough's book on John 
Adams. And what we hope through this is not to--we want to 
leave the teaching right where it ought to be, in the local 
classroom in the local schools. We want to leave the curriculum 
setting where it ought to be, with the State and local 
governments. But maybe through these summer residential 
academies we can put a spotlight on and encourage and inspire 
the teaching and learning of American history and civics.
    I want to thank Senator Dodd for his leadership and for 
being a part of this and for inviting Mr. Berg, and thank you, 
Blanche.
    The hearing is adjourned.
    [Additional material follows:]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Byrd
    Harry Truman once said, ``The only thing new in the world is the 
history you don't know.'' Given the woeful state of history education 
in this country, Americans must believe that plenty of things are new.
    A September 2002 report by the American Council of Trustees and 
Alumni reveals a troubling lack of historical literacy among college 
students. That report was based on a survey of seniors from fifty of 
Americas top colleges and universities. Those seniors were given high-
school level questions. According to the report, nearly 81 percent of 
the college seniors who participated would have received a grade of D 
or F. Among the hardest questions for students to answer correctly were 
those concerning earl, American history. For example, when students 
were asked to name the ``Father of the Constitution,'' only twenty-
three percent correctly chose James Madison. And this is at the college 
level!
    The situation is not any better at the elementary and secondary 
level. The National Assessment of Educational Progress conducted in 
2001 reported that only two out of ten students in grades four through 
eight, and one out of ten students in grade twelve were deemed 
``proficient'' in U.S. history.
    History is not only the common memory that we all share, but it is 
also in excellent teacher. Too many schools today lump history together 
with other subjects and package there as courses broadly titled 
``social studies.'' This conglomeration certainly does not provide the 
kind of focused study that history deserves and requires. Moreover, it 
shortchanges our young people who will some day be the leaders of this 
nation of a grounding in the basic philosophies and values that served 
to form the foundation of America.
    The importance of learning from history is heightened when we are 
at war. It is critical that our current military leaders have studied 
the great battles of history and will not repeat mistakes that doomed 
battles in the past. Imagine if these generals and admirals had not 
thoroughly examined the lessons of past wars, and instead took a 
composite course called ``Aggressive Studies.''
    I am a lifelong student of history. Even though this subject is so 
important and such a rich treasure of information, I regret that 
today's young people do not have a strong appreciation for it. If they 
are to have any hope of being prepared to lead in the future. America's 
students need a deeper understanding of this nation's past.
    To help address this problem, three years ago I created the 
Teaching American History Grant Program. This program has Infused $250 
million--$50 million in Fiscal Year 2001, $100 million in Fiscal Year 
2002, and $100 million again in this fiscal year--in the nation's 
classrooms to encourage more schools to develop, implement, and 
strengthen classes in American history. By helping teachers to develop 
a better understanding and appreciation of American history as a 
separate subject matter within the core curriculum, this program seeks 
to improve instruction and raise student achievement.
    Mr. Chairman [Senator Lamar Alexander], in your maiden speech 
before the U.S. Senate, you sought to emphasize the importance of 
restoring the teaching of American history and civics to its rightful 
place in our schools so that students can grow up learning what it 
means to be an American. I commend you for this, and I appreciate your 
kind remarks about my Teaching American History Grant Program.
    At that time, you introduced S. 504, the American History and 
Civics Act, which would establish Presidential Academies for teachers 
of American history and civics, and Congressional Academies for 
students of American history and civics. I understand that your 
legislation would also create a National Alliance of Teachers of 
American History and Civics to allow the sharing of ideas and best 
practices among American history and civics teachers.
    I hope that your efforts will complement the Teaching American 
History Grant Program that is already in place, and I would be pleased 
if you would add my name as a cosponsor to your legislation.
    No remarks on the subject of history would be complete without a 
quote from the Roman orator and statesman Cicero. I close with his 
observation that, ``History is the witness that testifies to the 
passing of time: it illumines reality, vitalizes memoir, provides 
guidance in daily life and bring's us tidings of antiquity.''
    Cicero's words from two millennia ago still ring true today. I hope 
that our efforts can help to provide students with this guidance.

                  Prepared Statement of Senator Cornyn

    Thank you, Mr. Chairman for allowing me to make a brief statement 
on the American History and Civics Education Act (S. 504). First, I 
would like to say thank you to my good friend and colleague, Senator 
Lamar Alexander from Tennessee, for introducing S. 504 to show the 
country's commitment to educating our children about the history and 
principles of American government. Young Americans deserve to learn 
about the Constitution, Bill of Rights, our Founding Fathers, 
Federalism, and the stories of Americans who lost their lives so we 
would be able to live in freedom.
    I am particularly pleased to support and co-sponsor this 
legislation because it reminds me of how public schools back in Texas 
teach students about Texas history. While growing up in San Antonio, I 
learned about a great Texan from Tennessee, named Sam Houston and how 
he influenced the Republic of Texas and the United States. Now, I have 
the honor to serve in the Senate in the seat once held by Sam Houston. 
American history and civics were crucial for my education. Today's 
children should have the same opportunity as I did to learn about the 
influential people who shaped this nation.
    This legislation creates a four-year pilot program for schools to 
receive grant money from the National Endowment of the Humanities. Each 
year the program will receive $25 million in grant money. Although $25 
million is a small amount in the beginning, I hope the program will 
thrive and grow in the future. Under the proposal, grant money will 
fund a two week seminar on American history and civics for teachers. 
Also, students can attend a four week academy in the summer to learn 
American history and civics.
    Mr. Chairman, how can American children know the true meaning of 
being an American without understanding the key influences and 
principles in which this great nation was built? Children need to learn 
about their inalienable rights found within the Bill of Rights and why 
these are so important to each American. They need to learn why the 
colonies demanded independence from the British. American students need 
to understand how slavery impacted the country and how many Americans 
fought for their freedom and equality for generations. Every American 
needs to know their rights and how their government works in order to 
insure their God-given rights are never infringed.
    After the September 11th attacks, now more than ever, we need to 
teach our young people what it truly means to be an American and a 
freedom-loving person. I believe the American History and Civics 
Education Act will ensure young people have a solid background on which 
to build a life long interest in our nation's history. I am a proud co-
sponsor of S. 504. I thank the Senator from Tennessee for introducing 
this legislation and chairing this important hearing.

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I appreciate very much your invitation to participate 
in this hearing.
    I congratulate the Senator from Tennessee (Mr. Alexander) for his 
leadership on the issue of teaching history and civics. As the 
Committee considers the American History and Civics Education Act, I 
hope it will be sure to carefully examine a program currently 
authorized and funded through the Department of Education called, ``We 
the People . . . The Citizen and the Constitution.'' This program is 
the result of the work of the Commission on the Bicentennial of the 
Constitution, chaired by Chief Justice Warren Burger during the years 
1985 to 1992. The Honorable Lynne V. Cheney was a member, as were 
Senators, Members of Congress and other prominent Americans. There was 
also a National Advisory Committee for the development of the program 
we know today as ``We the People . . .'' Some of its members were 
Senators and Members of Congress, both Republicans and Democrats.
    The dual purposes of the Commission and the Committee included 
developing a recommended text and accompanying curriculum for teaching 
the American Constitution. The result is a set of texts that is 
nationally known as one of the best, if not the best, for teaching our 
Constitution to young people. ``We the People . . .'' also includes a 
comprehensive teacher training curriculum and a National competitive 
program for students.
    One classroom set with teacher materials is provided free of charge 
to every Congressional district. Additional sets are available at a 
modest cost. The texts have also been adapted and translated for use in 
former soviet countries.
    It is important to bring attention to this program because it has 
proven its effectiveness. ``We the People . . .'' has been administered 
by the Center for Civic Education since its start in 1987. Studies over 
the last ten years conducted by the Center for Civic Education and 
independent institutions have shown dramatic effects. I'll include that 
information at the end of my statement. But first, I want to share with 
the Committee a poignant electronic mail message sent to a ``We the 
People . . .'' teacher just a few months ago.
    Dear Mr. Alcox,
    About a year ago I was in your constitutional law class. I really 
loved your class. I ended up dropping out of school and joined the 
United States Army. I held on to your books because they were my life. 
I continued studying after I got out of basic training, and thought 
about going to college for law, because I enjoyed your class so much.
    One day a sergeant of mine borrowed my book and we went to the 
field. When I got back after a month he and my book were gone. He went 
to Germany and I tried finding him so I could get my book back, but I 
just kept hitting dead ends. The reason I am writing to you is because 
I was wondering if it would be possible to get another copy of the 
book. I will pay anything in the world to have them. The only problem I 
face right now is that I am deploying overseas to fight. I leave at the 
end of this month and it takes 7 days for packages to reach me from New 
Hampshire. I will have my dad deliver a check or something. If 
something could be worked out please write back to me and let me know 
what I would have to do, and if not I understand completely. I'm still 
working on the essay of what the American flag means to me. I'm up to 8 
pages and it needs more work.
    Thank you for inspiring me!
    Sincerely,
    PFC Andrea Welch
    By the way, I'm told Private Welch received her books. This young 
woman*s message to her teacher is a compelling testimony about what he 
taught and how he taught. It is one of the best pieces of evidence we 
have that teaching American history and civics will encourage young 
people and help them develop their minds to better serve our nation.
    Again, I thank the Chairman for inviting me to participate in this 
hearing. I am pleased to cosponsor the American History and Civics 
Education Act. I commend the distinguished Senator from Tennessee for 
his leadership on this issue, and I am pleased to join the effort to 
have this legislation considered by the Senate.
    The following is a summary of research findings provided at my 
request by the Center for Civic Education.
    Center for Civic Education
    5146 Douglas Fir Road
    Calabasas, California 91302
    (818) 591-9321
    Increases in knowledge. We the People . . students have greater 
political knowledge than their peers, political science majors, and 
adults. For example, We the People . . . students:
    Scored 23% higher on political knowledge test items that were a 
part of the National Assessment of Educational Progress (NAEP)
    Outperformed college freshmen political science majors in political 
knowledge
    Outperformed adults on a knowledge index
    Increases in interest and commitment. We the People . . . students 
report higher levels of interest in political life and higher 
commitment to staying well. For example, in comparison with their 
peers, We the People . . . students showed:
    Increased interest in the Constitution and Bill of Rights and 
commitment to their values and principles
    Greater interest in keeping up with public affairs, during their 
high school years and after graduation
    Greater attention to public affairs, as evidenced by regular 
reading of newspapers at higher rates than peers
    Improvement in political attitudes. We the People . . . students 
showed greater improvement than their peers and adults in political 
attitudes. For example, We the People . . . students and were found to 
be:
    More politically tolerant than the average American
    More politically tolerant than high school students using other 
curricula
    More self-confident and perceived fewer limits on their own 
political freedom
    Less cynical about government
    Increased participation. We the People . . . students showed 
greater participation in all aspects of the political process than 
their peers. For example, We the People . . . students and were found 
to be:
    More likely to participate in the political process, even in high 
school
    Voting in higher numbers than their peers. A study of alumni found 
that 82% voted in November 2000, in contrast to 48% of their peers
    More likely to work for a political campaign, to contribute to a 
campaign, or to take part in a protest
    More likely to discuss politics
    Serving the public as public officials (one alum is mayor of 
Nogales, Arizona), staffing political offices in the Capitol and in 
state legislatures, clerking for justices, serving in the armed forces, 
teaching in classrooms, and mentoring high school students in the We 
the People program.

                    Prepared Statement of Bruce Cole

    Thank you, Mr. Chairman, and the members of this Committee, for the 
opportunity to testify today.
    This hearing helps raise awareness of an important issue--the need 
to increase and enhance knowledge and understanding of American 
history.
    It is crucial that we understand the principles, events, and ideas 
that have defined our past and that will shape our future. Democracy, 
unlike other forms of government, is not self-perpetuating. Its ideas 
and principles must be taught and transmitted. Indeed, we cannot defend 
what we do not understand. But even as our country is at war, numerous 
studies indicate that many students lack even a basic knowledge of 
their country's past.
    I'll give you just a few examples:
    A recent survey of students enrolled at the 55 of our nation's most 
elite colleges and universities found that 40 percent of our brightest 
young people cannot place the Civil War in the correct half-century. 
More than a third of these students could not identify the Constitution 
as establishing our government's division of powers.
    At the secondary school level, the National Assessment of 
Educational Progress (NAEP) test found that over half of all high 
school seniors scored ``below basic''--that is, below the bare minimum 
level of proficiency in history. To illustrate what that means: 18 
percent of seniors thought Germany was a U.S. ally in World War II. 
Less than half correctly identified the Soviet Union as an ally.
    In speaking to various groups, I have called this loss of memory 
and lack of understanding of our history our American amnesia. The 
consequences are serious. Citizens who do not know their rights are 
less likely to protect them. And if young Americans cannot recall whom 
we fought, and whom we fought alongside, during World War II, there is 
no reason to expect that they will long remember what happened on 
September 11.
    As Chairman of the National Endowment for the Humanities, one of my 
top priorities for the agency and its able staff is to address this 
challenge of American amnesia. We are aiming to do this through a new 
initiative called We the People.
    On Constitution Day, September 17, 2002, in a special Rose Garden 
ceremony, President Bush announced the launch of the We the People 
initiative, to be spearheaded by the NEH. We the People is designed to 
broaden and deepen Americans' knowledge of their nation's history. We 
are honored that the President has chosen the Endowment to play a 
leadership role in the Administration's American history and civics 
initiative, and we look forward to serving in this capacity. This 
initiative is an important part of the President's USA Freedom Corps, 
which is working to promote a culture of active, engaged citizens who 
have a better understanding of their democratic traditions and their 
duties to serve our communities and country.
    We the People aims to cultivate an enhanced understanding of 
American history among students, teachers, and the public at large. We 
the People will enlist the efforts of scholars, professors, curators, 
librarians, filmmakers and others engage in a wide variety of projects, 
including the creation of model history curricula, the digitization and 
dissemination of historical documents, the expansion of our acclaimed 
summer seminars for school teachers, and new programs that bring 
history to our citizens.
    Already, the endowment has undertaken several exciting efforts as 
part of this initiative. This year we launched a nationwide 
solicitation of grant applications to address We the People themes and 
topics throughout the NEH's divisions. On May 1, we will host the 
Inaugural ``Heroes of History'' lecture, featuring acclaimed historian 
Robert Remini, who was authorized by the House of Representatives to 
write its official history. In addition, we recently held the first 
``Idea of America'' essay contest, where more than 1,300 high school 
juniors submitted essays on key events in America's history.
    I should also mention that on May 15th the NEH will present the 
Thirty-Second Annual Jefferson Lecture, delivered by distinguished 
historian David McCullough. He is a first-rate scholar and a leading 
champion of American history.
    Each of these NEH efforts aims at enhancing and increasing 
knowledge and understanding of American history among teachers, 
students, and the general public.
    This hearing is another important step. I want to express my 
appreciation to Senator Alexander for his work to address this issue, 
both in his home state of Tennessee, and from the Capitol. He has been 
an effective and dedicated advocate for excellence in education, and I 
look forward to working with him toward that shared goal.
    The American History and Civics Education Act authorizes the 
establishment of Presidential academies for teaching history content to 
teachers, and Congressional academies for teaching history to gifted 
students. It would place the responsibility for selecting those 
academies within the purview of the NEH, and its highly respected merit 
review system.
    It is a truism of teaching that one cannot teach what one does not 
know. As someone whose life was changed by the inspired teaching of a 
college professor, I can attest to the transformative power of quality 
teaching. But studies also show that secondary school history teachers 
receive less instruction and training in their discipline than teachers 
of any other subject, except the natural sciences. In fact, one recent 
Department of Education study found that 58 percent of high school 
history teachers neither majored nor minored in history.
    There are many reasons for the ``content gap'' in history teaching. 
Many education schools focus more on the theory and methods of 
teaching, rather than what is being taught. The emphasis that 
Undersecretary Hickok, Senator Alexander and others have placed on 
teaching history content, as opposed to pedagogy, is exactly right. 
Teacher certification requires that teachers take a variety of courses 
on pedagogy--in other words, teaching how to teach. But all too often, 
this emphasis shortchanges instruction in content itself.
    But regardless of the reasons, the challenge is clear: we need to 
enhance and extend the teaching of history to teachers, so that they 
can pass it on to their students.
    One way in which the NEH addresses this challenge is through its 
widely-respected summer seminars and institutes for school teachers. 
Each summer, the NEH sponsors numerous summer seminars and institutes 
on a variety of humanities topics. Each seminar or institute sponsored 
is selected by the NEH's rigorous merit review system, and each 
concentrate on teaching the teachers history and humanities content. In 
the testimonials we've received, many teachers have claimed that the 
experience was extremely helpful and rewarding, and that learning more 
about a subject naturally enabled them to teach it more effectively.
    Mr. Chairman, the Administration and the NEH share your concern 
with ensuring that our nation's history is well understood by teachers, 
students, and all citizens. The ideas, ideals and institutions that 
comprised our founding and form our nation should be well and widely 
taught. With nearly forty years of experience as the federal 
government's agency for advancing education, scholarship, public 
programs, and preservation in history and the humanities, NEH is well 
positioned to contribute to this important effort.
    Again, I want to express my appreciation for the willingness of 
this committee to address the issue of American amnesia, the work and 
experience Senator Alexander has invested in this legislation, and the 
opportunity to testify today. I would be glad to answer any questions.

                 Prepared Statement of Eugene W. Hickok

    Mr. Chairman: Thank you for the opportunity to join this 
distinguished panel today to discuss the teaching and learning of 
American history and civics. The subject of this hearing is not only an 
important education policy issue, but one that has been at the heart of 
my own efforts as a scholar and teacher over the past 30 years.
    In particular, I was pleased to note that the definition of ``key 
documents'' in S. 504, the proposed American History and Civics 
Education Act, includes not only the Constitution and the Bill of 
Rights, but also the Federalist Papers. Much of my own research and 
writing has focused on the proper interpretation and relationship of 
these documents. In addition, it was my privilege to apply my research 
as a member of a Justice Department task force during the Reagan 
Administration that sought to restore the essential role of Federalism 
to American political thought and governance.
    One of the key benefits of Federalism, by the way, is that by 
reserving key decisions to officials and citizens at the State and 
local levels, Federalism promotes better and more involved citizenship.
    Mr. Chairman, President Bush and Secretary Paige share your 
emphasis on the growing importance of history and civics education at a 
time when our Nation is at war in defense of our most deeply held 
beliefs and ideals. The Department currently funds two programs that 
help reinforce our shared values, and both are priorities in the 
President's 2004 budget request.

                       TEACHING AMERICAN HISTORY

    The first is the two-year-old Teaching American History program, 
which in fiscal year 2003 will provide nearly $100 million to promote 
the teaching of traditional American history as a separate academic 
subject in our elementary and secondary schools. This program makes 
competitive awards to local school districts that establish 
partnerships with postsecondary institutions, nonprofit history or 
humanities organizations, libraries, or museums. These partnerships 
support professional development for teachers of American history.
    Mr. Chairman, I know you have used the phrase ``civic illiterates'' 
to describe the woeful ignorance of civics demonstrated by American 
students on the National Assessment of Educational Progress (NAEP). I'm 
afraid there is perhaps even greater cause to apply that description to 
student knowledge of history, because only 10 percent of high school 
seniors scored at the proficient level on the 2001 NAEP history test.
    Much of this poor performance arises from the fact that too much of 
the history taught in our schools is compressed and diluted within 
broader social studies curricula. I say this not to denigrate social 
studies or social studies teachers, but to recognize that it is 
impossible for even the best trained teacher to do justice to the full 
sweep of America's history in a curriculum that also covers such topics 
as geography, the environment, conflict resolution, and world cultures.
    For example, one published social studies curriculum for elementary 
school students includes a ``mini lesson on American history'' as just 
one of 50 lesson plans. I think all of us would agree that American 
history deserves more than a ``mini lesson'' in any elementary school 
curricula worthy of the name. This is why the Teaching American History 
program emphasizes comprehensive, research-based professional 
development focused on teaching traditional American history as a 
separate subject. We want all 50 of those lesson plans to be on 
American history--at least two or three times during the 12 years that 
students spend in our elementary, middle, and secondary schools.
    The problem of diluted curricula is compounded when, as is too 
often the case, history teachers are teaching out-of-field or, even if 
fully certified in social studies, were not required to demonstrate 
knowledge of U.S. history as part of their certification. The Teaching 
American History program, which currently supports 174 projects in 47 
States, is intended to help address this lack of content training.
    One exemplary project is in West Morris, New Jersey, where 
Superintendent Henry Kiernan has created a new program that is helping 
improve the knowledge and teaching skills of over 70 history teachers. 
Participating teachers meet with eminent historians to discuss the 
craft of teaching history. They also use an interactive web site to 
conduct history research, distribute their research for review by 
fellow educators, and use the final product in their own classrooms.
    The West Morris program includes summer seminars that meet for four 
days in historically significant locations. Last summer, the focus of 
the seminar was on the American Revolution and was located at 
Princeton. The seminar featured Dr. Gordon Wood of Brown University and 
master teachers from the National Council for History Education. This 
summer the focus is on immigration and the seminar will be located in 
New York City, under the direction of Dr. Kenneth Jackson of Columbia 
University and the New York State Historical Society.
    One final note about West Morris: Superintendent Kiernan has 
renamed the Social Studies Department the History and Social Sciences 
Department, to reflect the stronger emphasis on history he is trying to 
foster in his district.

                            CIVIC EDUCATION

    The second major activity supported by the Department in this area 
is the Civic Education program, which provides a $16.9 million grant to 
the nonprofit Center for Civic Education in Calabasas, California. The 
Center operates the We the People program, which consists of two 
projects: The Citizen and the Constitution and Project Citizen. Let me 
try to avoid any confusion here by clarifying that the Center for Civic 
Education's We the People program is entirely separate from the new 
initiative by the same name at the National Endowment for the 
Humanities. The NEH initiative, working in partnership with the USA 
Freedom Corps, is part of a concerted effort by President Bush to 
encourage the teaching of history and civics and emphasize the role of 
citizenship in our democracy.
    The Citizen and the Constitution project provides teacher training 
and curricular materials that serve elementary, middle, and high school 
students. The materials are intended to promote civics understanding 
and responsibility among students, including support for the 
constitutional rights and civil liberties of dissenting individuals and 
groups. The project also involves simulated Congressional hearings that 
give students the opportunity to learn about and demonstrate their 
understanding of the Constitution and the Bill of Rights. At the 
secondary school level, these hearings culminate in a national 
competition here in Washington, DC. If you haven't met some of these 
students yet, Mr. Chairman, you probably will in the near future, 
because the winning class from each State and their teachers make it a 
point to visit Members of Congress. In addition, you might be invited 
to serve, along with other public officials, as a judge in the 
competition.
    Project Citizen encourages middle school students to focus on the 
role of State and local governments in developing and implementing 
solutions to social problems. Participating students select a problem, 
evaluate alternative policies to address the problem, and develop an 
action plan, which they present to school and community leaders in a 
simulated legislative hearing. Project Citizen also offers an 
intensive, weeklong institute to participating teachers.
    The two We the People projects collectively serve about half the 
States, some 1.3 million students, and almost 22,000 teachers annually.
    The Civic Education program also provides $11.9 million to the 
Cooperative Education Exchange program, which supports education 
exchange activities in civics and economics between the United States 
and eligible countries in Central and Eastern Europe, the Commonwealth 
of Independent States, former republics of the Soviet Union, the 
Republic of Ireland, Northern Ireland, and developing democracies.
    Grant recipients under the Cooperative Education Exchange program 
provide educators from eligible countries with exemplary curricula and 
teacher training programs in civics and economics. They also create and 
implement programs for U.S. students on the culture, governance, 
history, and experiences of their exchange partners. I think this is 
especially important, because I believe there are few Americans who 
have spent time overseas or time studying other countries who have not 
come away with a deeper understanding and appreciation for our own 
democratic system.
    I would add that my own experience bears this out. A little over a 
decade ago, I was fortunate enough to serve as a consultant on 
constitutional, political, and economic reform to the governments of 
Lithuania, Latvia, and Estonia.
    The Civic Education program is a clear Administration priority, and 
has been recognized by the USA Freedom Corps as a critical part of the 
Administration's efforts to foster a national culture of citizenship 
and responsibility.

              BROADER SUPPORT THROUGH NO CHILD LEFT BEHIND

    In addition to these two programs focused specifically on American 
history and civic education, the No Child Left Behind Act--President 
Bush's signature education reform legislation which last year 
reauthorized the Elementary and Secondary Education Act of 1965 
(ESEA)--provides significant support for improved teaching and learning 
of both American history and civics and government.
    For example, the legislation defines both history and civics and 
government as core academic subjects. This is important because the new 
law requires all teachers of core academic subjects to be highly 
qualified by the end of the 2005-2006 school year, and the definition 
of ``highly qualified'' includes demonstrated subject area competence 
in each of the academic subjects in which the teacher teaches.
    The reauthorized ESEA also permits States to use State Assessment 
formula grant funds to pay for standards and assessments in history and 
civics and government, once they have developed the reading and math 
assessments required by the new law. Other State formula grant programs 
provide considerable resources to help States and school districts 
ensure that all teachers are highly qualified. These programs include 
$11.7 billion in Title I Grants to Local Educational Agencies, $2.9 
billion for Improving Teacher Quality State Grants, and $385 million in 
State Grants for Innovative Programs.

                               CONCLUSION

    The Teaching American History program and the Civic Education 
program reflect the strong emphasis the Department of Education places 
on restoring these two disciplines to their rightful place in the 
education of every American child. Together with the broader support 
provided through the No Child Left Behind Act that may be used to 
improve teaching and learning in these two essential subjects, as well 
as other initiatives such as those at the NEH and the ``Our Documents'' 
project at the National Archives, I believe we are on the right course 
to achieve this goal.
    I would be happy to respond to any questions you may have.

               Prepared Statement of James H. Billington

    Senator Alexander, members of the Committee, thank you for inviting 
me to testify here today on a subject that is vital to the future of 
this country, on which you yourself long have worked on, and on which 
you recently have spoken so eloquently.
    During Alex Haley's 12 years researching his groundbreaking novel, 
Roots, he traveled the globe to uncover his family's story, even taking 
a slow Atlantic crossing to get some feel for what his ancestors went 
through on the Middle Passage. He also spent many hours in the reading 
rooms of the Library of Congress, poring over American Missionary 
Society files from our Manuscript Collection.
    For the first 190 years of the Library's existence, people could 
access our vast collections only by traveling to Washington, DC, and by 
working in our beautiful reading rooms as Mr. Haley did-or by tapping 
into our rich holdings secondhand, through books that made use of our 
collections.
    Let me suggest the educational value of the primary materials we 
have already made available free of charge on-line.
    The Library of Congress is actively supporting the teaching of 
history and civics in the classroom and can be a key player in your 
program to establish academies for students and to create a national 
alliance for teachers. Indeed, the Library has already taken important 
steps in this direction.
    The technology revolution of the past decade has made it possible 
for the Library to reach far beyond its buildings in Washington. We now 
deliver 8 million interesting and educational multimedia documents, 
maps, and images of American history and culture free of charge to 
stimulate curiosity and humanize the study of history. By exploiting 
the power of the Internet and the incomparable resources of our 
collections, the Library of Congress has emerged as the leading 
provider of free noncommercial educational content on the World Wide 
Web. Millions of educators, librarians, students, and lifelong learners 
visit our Web sites daily for materials that once were available only 
through our reading rooms on Capitol Hill.
    The Library's Web sites are attracting more than 2.5 billion 
``hits'' a year. They have won many awards, including the prestigious 
Global Information Infrastructure Award as the best in education. The 
Harvard Education Letter praised the Library's on-line historical 
materials for encouraging students to question, observe details, and 
think critically.
    By offering easy access to the key documents, events, ideas, and 
people of American history, the Library is uniquely positioned to an 
port the goals of educators everywhere rough its various electronic 
initiatives. Tanks to generous support from the Congress and the 
American people, the Library has grown into the largest repository of 
knowledge and information in the history of the world. The Library 
shares its resources with educators who can use them in the classroom 
to bring to life what their students have only read about in books.
    American Memory was established as a pilot in 1990 as one of the 
first large-scale efforts to use the Internet to disseminate high-
quality educational and cultural content.
    The National Digital Library program has created an on-line 
archives of more than 100 collections of important, rare, and unique 
items in all formats documenting America's cultural heritage. The 
materials were selected from the Library of Congress as well as from 36 
other American institutions, making the National Digital Library a 
truly national effort.
    Students get to work with primary sources: manuscripts; maps, which 
you can zoom in on and view with greater clarity than with the naked 
eye; prints and photographs; and music. These are the actual stuff of 
history, not about history. These resources encourage critical thinking 
in students and inspire learners to further exploration. The multimedia 
American Memory Collections include papers of the U.S. residents, Civil 
War photographs, early films of Thomas Edison, historic speeches, the 
first baseball cards, and oral histories representing our diverse 
culture.
    The Learning Page Web site, introduced in 1996 as a companion to 
the American Memory Collections, is a key component of our educational 
outreach program. Specifically designed for K-12 educators and their 
students, the Learning Page helps teachers harness the power of these 
primary sources with ideas and instructions for accessing the 
collections on a vast range of topics. Here, the content of the 
Library's digital collections is presented within an educational 
context, with lesson plans, curriculum guides, ``how to'' projects, and 
learning activities-making the educational experience a dynamic, 
stimulating and interactive activity like reading-not a passive 
spectator experience like television.
    On this page teachers, at the click of a mouse, can search the 
collections, try out lesson plans, engage in classroom activities, 
connect with other teachers, ask a librarian for help, view a lecture 
or a poetry reading, or visit more than 40 exhibitions.
    Our American Memory Fellows Institute could serve in many ways as a 
pilot for your program to establish a national alliance of teachers. 
This institute has successfully trained a network of teachers across 
the country who are teaching other educators in their localities what 
they have learned at the Library about using primary sources in the 
classroom. Over a 5-year period more than 300 ``master educators'' from 
nearly every State participated in a year-long professional development 
program highlighted by a 6-day summer institute held at the Library.
    Teams of educators worked directly with the Library staff and 
primary source materials to develop lesson plans and teaching materials 
based on the Library's on-line materials. These teacher-developed 
lesson plans were ``road-tested'' with students and colleagues. They 
are now available electronically to all teachers through the Learning 
Page Web site. Today, this alliance of teachers, connected virtually 
through our Learning Page, is teaching other teachers how to use 
primary sources to stimulate critical thinking in their students. But 
we need to reach teachers in all of the nation's 16,000 school 
districts.
    We are already reaching children and their families directly 
through our new Web site called America's Library. It is fun for 
children and their families as well as for educators, and is currently 
attracting more than 22 million ``hits'' per month. The site combines 
child-friendly graphics with the incomparable American collections of 
the Library in more than 4,600 stories about our nation's past. 
Interactive elements on the site teach searching with a ``scavenger 
hunt,'' offer a virtual tour around America, and give the opportunity 
to ``send a postcard' on-line.
    The Library is also lining the world's resources with America's 
schools through its Global Gateway Initiative. This Web site represents 
a collaboration between the Library of Congress and the national 
libraries of Russia, Brazil, Spain, and the Netherlands. Our growing 
collaboration with the greatest libraries and universities in the 
world, combined with the power of the Internet, puts the Library in a 
pivotal position in the new era of global education. And through the 
Portals to the World section of the site, the Library's area-studies 
specialists provide links to vetted and reliable materials from more 
than 130 countries. When completed, this project will bring free to 
America's classrooms resource materials from all the nations of the 
world.
    Our new monthly magazine, The Wise Guide, offers articles that 
encourage newcomers to our Web site to explore the wealth of the 
Library's on-line educational programs.
    By being the largest provider of free noncommercial high-quality 
content on the Internet, the Library is reaching students, their 
teachers-and all learners-with the documents, sounds, films, maps, 
music, and other artifacts that tell the story of America. This can be 
an inspirational as well as educational enhancement for the new 
initiatives this committee is considering.

                Prepared Statement of Blanche Deaderick

    Good morning Senators: I am so glad to be here today supporting 
Senator Alexander's proposed legislation to establish American History 
and Civics academies. Enhancing instruction in these areas is critical 
right now. We have to provide remedies for the problems Senator 
Alexander has identified: civic illiteracy, problematic textbooks, and 
the lack of requirements in some States for American History and Civics 
classes. Our student population is increasingly diverse, and we must 
enhance understanding of what it means to be an American for all those 
whose families have lived here for generations, but also for those new 
arrivals who have made a conscious choice to make their homes here in 
the United States.
    I have been invited here to explain how the Tennessee Governor's 
School for International Studies can be a model for these academies. In 
its structure our school is very similar to what is proposed in this 
legislation. We have a director and a diverse core faculty chosen for 
expertise in the subject and for their teaching skills. Because 
international studies is such a broad field, we decided to make student 
teams focusing on different areas. We expect them to interact and share 
information. This year we have four teams, one studying Latin America 
and Portuguese language, another focusing on Sub Saharan Africa and 
Hausa language, a third dealing with East Asia and Chinese language, 
and the fourth studying Eastern Europe and Russia with Russian 
language.
    Additionally, each morning all students address issues of major 
significance in today's world. This summer we will have a strong focus 
on the Middle East, other current flash points, environmental issues, 
development issues, human rights, and NATO and other alliance systems. 
This is not an exhaustive list. After lunch students attend issues 
analysis classes where they deal with foreign policy decisionmaking, 
democracy and the conditions necessary for its survival, political 
systems, leadership, and other similar topics.
    At this point we dive a little free time from 3:30 until 6:30, 
unless there is a visit to museum or exhibition. We also have an 
international arts emphasis. For 1 week in the afternoons, visual and 
performing artists provide hands on instruction, culminating in a 
production. Evening activities include lectures, simulations, 
international dancing, Model United Nations, foreign films, and 
international dinners. When the time really is free, participants swim, 
do their laundry, read, catch up on assignments, or just talk. You can 
see how intense this program is. We want to fit as much as possible 
into four short weeks. Our schools were designed to serve gifted and 
talented young people. I don't know what direction the admissions 
process for these academies will take, but it is key that students who 
really care about participating be selected.
    A school for American History could be developed along these same 
lines. There are so many ways to individualize instruction. Students 
might concentrate on specific periods of history or on topics like 
foreign policy through our history, the development of immigration law, 
or civil rights growth. Senator Alexander spoke of the principles of 
American citizenship: liberty, rule of law, laissez faire, 
individualism, e pluribus unum, and the separation of church and State. 
Each could be an area of study for a small group at the academies, 
culmination in grow presentations. These are merely suggestions. 
Academy faculties will develop stimulating curricula. The important 
point is that instruction be unique, individualized, and unpredictable. 
At the Tennessee Governors School our primary goal has been to provide 
experiences which would not ordinarily be found in schools. We 
encourage our faculty to live in the dorms with students and interact 
with them as much as possible. There is never a day when students 
aren't around asking questions, engaging in debates among themselves 
and with faculty. Sleep deprivation is the norm. But then they return 
to their schools exhilarated, ready to share all their new-found 
knowledge.
    This same scenario applies to the teacher academies. I'm sure you 
all know how little time teachers have today. School teaching has 
become an all inclusive operation-teaching a subject, guiding, teaching 
manners and ethics, paper work, guarding against litigation, coaching, 
hall monitoring, mastering the newest computer programs for attendance 
and parent contacts, lesson line, curriculum maps-the list is endless 
and what suffers is preparation in the subject. Teachers hardly have 
time left to read and keep up to date. This is why these academies are 
essential. When these teachers go back to their schools, they will have 
been involved in scholarly pursuits and will have developed lessons 
which reflect depth, and these lessons will be ready to teach. This can 
even help with textbook problems. I can't imagine anything better than 
to spend weeks in a stimulating environment with other people focused 
on history and government, while someone else is taking care of the 
day-to-day responsibilities. Teachers will return home more 
knowledgeable, rested, and ready to inspire students and other faculty.
    Again and again, I encounter students who have attended Governor's 
School or who know someone who has, and I hear how their lives have 
been transformed by experiences in our classrooms and during late night 
talk sessions. Our students are now in the U. S. Foreign Service, in 
State Government, in teaching, in all kinds of leadership positions, 
probably even in your offices; and many, many say that Governor's 
School was the shaping event in their lives. With this legislation you 
can make these same life changing experiences possible for even more 
students and teachers.

                  Prepared Statement of Diane Ravitch

    My name is Diane Ravitch. I am a Research Professor of Education at 
New York University and a non-resident Senior Fellow at the Brookings 
Institution. I am a historian who specializes in the history of 
American education. It was my honor to serve as Assistant Secretary for 
the Office of Research and Improvement in the U.S. Department of 
Education from 1991 to 1993.
    I strongly an port this proposed legislation.
    In these perilous times, with our men and women engaged in combat 
on the other side of the globe, knowledge of history is clear. We rely 
on a volunteer force of men and women to protect our freedoms and our 
way of life. We rely on them to know what they are fighting for. They 
are on the battlefield and risk their lives because they love our 
country and what it represents in the annals of human freedom.
    Although it is customary for people of a certain age to complain 
about the inadequacies of the younger generation, such complaints ring 
hollow today. Many Americans have been surprised to see the character 
of our young people on the battlefield. Many of us believed the image 
so often projected in the movies of a younger generation that is self-
centered, lazy, shallow, and lacking in purpose. Certainly our 
adversaries believed this portrayal and believed that we as a people 
were soft and fearful, caring only for material comforts.
    Now we know that the moviemakers' depiction of mass narcissism said 
more about Hollywood than it did about our young men and women. What we 
have learned in these past few weeks is that this younger generation, 
as represented on the battlefields of Iraq, may well be our finest 
generation. We have daily, almost hourly, seen demonstrations of 
remarkable courage, self-discipline, compassion, and strength. Free 
peoples everywhere should sleep better at night knowing that we are 
protected by a strong fighting force committed to the ideals of freedom 
and democracy.
    Our nation has time and again been required to stand up for its 
ideals. Each time we do, we promise those who serve that their 
sacrifices will not be forgotten. We must keep our promises. The best 
way to keep our promises is to make sure that we teach the history of 
freedom and democratic institutions and that each generation learns 
again about the ideas, the heroes, the events, and the controversies 
that have made it possible for us to live in a free society. We must 
not forget those who have served on our behalf, nor forget why they 
served.
    Each generation needs to learn about such important principles as 
equality, freedom, equal justice under law, individualism, separation 
of church and State, popular sovereignty, and limited government. Each 
generation needs to understand the rights and freedoms that we hold 
dear. Each generation needs to know how our nation was created and the 
struggles that it has endured in order to breathe life into our 
Constitutional guarantees and institutions.
    History education is one of the most important responsibilities of 
our schools. Unfortunately, for many years, the teaching of history had 
a low priority. In the 1970's and 1980's, history in many schools was 
replaced by a mishmash of ill-defined social studies courses that 
taught things like group decisionmaking, consumer education, and social 
science concepts. In 1983, for instance, the New York State Education 
Department intended to replace the chronological study of history with 
a thematic approach in which events were merged with big concepts and 
taught without regard to cause and effect. A popular outcry prevented 
that from taking place.
    In many States, history was submerged into social studies programs, 
and States adopted social studies standards that ignored chronological 
history. Civics too suffered when it was separated from the study of 
American history. The study of history has been making a comeback in 
recent years. Ten years ago, only four States--California, Virginia, 
Massachusetts, and Texas-had history standards to guide teachers. 
Today, after 10 years of popular support for academic standards, about 
half the States now have history standards.
    We know from the tests given by the National Assessment of 
Educational Progress that our students, especially in their senior 
year, have low scores in American history. In fact, the performance of 
seniors on the NAEP in U.S. history is worse than in any other subject, 
whether science, reading, or mathematics.
    The greatest need in history education today is for well-prepared 
teachers who have studied history and who know how to make it vivid for 
youngsters.
    Too many States have very low requirements for those who plan to 
teach history. In part, this is because of a longstanding tradition 
that anyone can teach history; just stay a few pages ahead of the 
students in the textbook, and you too can be a history teacher. That 
method is not good enough for teachers of math or science, and it is 
not good enough for history teachers either.
    Our young people should study history with teachers who love 
history, who can go far beyond the textbook to get youngsters involved 
in learning about the exciting events and controversies that bring 
history to life; we need teachers who know enough about history to 
awaken the curiosity of their students and to encourage them to read 
more than the textbooks tell them and even to question what the 
textbooks tell them.
    Sadl the majority of those who teach history in our schools are 
teaching out of their Field. According to data from the U.S. Department 
of Education, a majority of history teachers in grades 7-12 lack either 
a college major or minor or graduate degree in history. In many cases, 
they majored in education, not in an academic subject. The only field 
that has more out-of-field teaching than history is the physical 
sciences, that is, physics and chemistry.
    Many States recognize that they must make extraordinary efforts to 
reach out and recruit qualified teachers of physical sciences, but 
there is no comparable awareness of the conspicuous shortage of 
qualified teachers of history. In part, the problem is one created by 
short-sighted State policies, which put more emphasis on pedagogical 
degrees than on knowledge of one's subject. The young person with a 
history degree who wants to teach may be required to take many courses 
in pedagogy, even another master's degree in pedagogy, whether relevant 
to teaching ability or not.
    Another reason for the shortage of qualified history teachers is 
that our universities have not addressed this need. With few 
exceptions, their history departments have become highly specialized; 
in addition to narrow specialization, university professors tend to 
pride themselves on taking a highly critical, adversarial attitude 
toward American history and culture. Nor do university professors 
believe that it is their role to teach civics along with history. Few 
universities have programs geared to produce teachers of history and 
civics for the K-12 classrooms; they leave that to the social studies 
educators, who see history as only a small part of their very large and 
diffuse subject.
    This is a case where Congress can help with very clear and specific 
goals: Supplying academies for teachers of American history and civics, 
as well as programs for motivated students of American history and 
civics.
    The need is clear. We simply do not have enough teachers who are 
well prepared to teach these basic subjects. The legislative program is 
equally clear: to provide academies where teachers can gain the 
knowledge and skills to teach American history and civics effectively.
    Many teachers today would be grateful for the opportunity to 
strengthen their knowledge of American history and civics in a 2-week 
summer institute. Many who seek to deepen their understanding of these 
subjects would leap at the chance to participate in a Presidential 
Academy. The models of teaching and learning developed by these 
academies would supply an important service to our nation's schools.
    There are many talented young people who would eagerly respond to 
the chance to attend a Congressional Academy in American history and 
civics. For those who love history, this would be a wonderful 
opportunity to inquire deeply into a field that is usually far too 
compressed. Many of these young people may well become the history 
teachers of the future.
    One of the responsibilities of a free society is to teach its young 
peoples the principles of freedom and democracy. These principles do 
not exist in a vacuum. They have a history. They evolved over time. 
They were won with the sacrifices and struggles of generations of 
Americans. Students are not born understanding what they need to know a 
bout our government and way of life. They runs to be taught. This 
legislation will make an important contribution toward improving and 
strengthening our teachers and students of history and civics, and 
through them, will enrich the classrooms of America.

                   Prepared Statement of Russell Berg

    Mr. Chairman, it is an honor to testify before this Committee on 
this most important issue of civic education. By promoting civic 
education in our schools, you and the cosponsors of this legislation, 
including our Senator Christopher Dodd, have proven that education is 
not an issue to be sidelined in the face of pressing current issues. 
Your actions have shown us that education is a pressing current issue.
    Unfortunately, to many Americans, our government seems intimidating 
and difficult to understand. Civic education is the key to 
comprehending, appreciating and eventually participating in our 
democratic process. The ``We the People, the Citizen and the 
Constitution'' program, which is administered by the Center for Civic 
Education and funded by the United States Department of Education by an 
act of Congress, takes the logical approach to understanding our 
American government, by tracing its manifestations to their source, the 
Constitution.
    Our Constitution provides government with powers and limitations, 
to ensure congruence with the Founders' greatest hopes of a benevolent 
government ruling under popular consent. To many Americans, the 
Constitution is a revered document, written on browned parchment with 
faded ink. But to my class, the Constitution is a living gold mine of 
philosophical, political and social history.
    Our State champion Trumbull, Connecticut ``We the People'' class is 
led by the knowledgeable and charismatic Mr. Peter Sullivan. The most 
incredible achievement that our class has made, and that Mr. Sullivan 
has in no small way facilitated, is the critical mass of constitutional 
knowledge we have learned. My favorite moments in education occur when 
concepts and new information can be integrated into an overall 
framework of the issue. A beautiful symphony of debate and exchange 
miraculously manifests every morning in our class. Mr. Sullivan might 
bring up an issue currently on the Supreme Court docket, or ask the 
class for any news they heard the night before. An opinion is expressed 
by a student, a rebuttal by another. A particularly progressive member 
of the class might apply the issue to its broader social ramifications. 
A more critical member of the class would then appeal to our logic and 
the realistic implications of the Court's decisions.
    Here, in a brew of free, creative thought, coupled with a solid 
foundation of constitutional knowledge on which to anchor our 
arguments, lies true learning. Not learning without any application to 
our lives, but knowledge that sheds light and understanding upon issues 
affecting a government that is involved in so many issues that concern 
our daily lives.
    ``We the People'' was a class I signed up for at the end of my 
junior year, with great expectations in mind. I had heard from many 
older students that the class was more than a class. It was hard work, 
to be sure, but the rewards extended beyond grades and test scores.
    In two weeks, our team will be competing in the National Finals for 
the ``We the People: The Citizen and the Constitution'' program. 
Throughout the year, a common goal has driven us together, and together 
forward. I have seen miraculous things this past year. I have seen 
quiet, reserved students suddenly emerge, citing complex Court cases 
with confidence and vigor in our daily debates. Students who many 
dreaded would succumb to the great demands of the program have only 
flourished to become our leaders and exemplars. Simply put, well-
designed programs in civics, such as ``We the People'', taught by 
teachers like Mr. Sullivan, make a difference in the classroom.
    Surely, such changes in our young people can only be for the 
better. A civic education, as buttressed by the ``We the People'' 
program, does not merely press rote facts into receptive minds. It 
challenges us to use this information as support for our own arguments 
and opinions. Undoubtedly, everyone in our class has learned more than 
they bargained for about the U.S. Government and her Constitution. But 
the benefits of this civic education extend beyond learning. This 
program has allowed us to become involved in the government that we 
spend so much time studying.
    The Constitution is associated with words which reflect the 
importance of the American citizen, such as `popular sovereignty', 
`consensus', and `majority'. It is clear who was intended to captain 
the ship of America; her people. Our nation is designed to be 
accessible, to its citizens and to incoming immigrants. To those who 
have ambition and a dream. For me, this lesson has only been confirmed 
by my experiences this year. ``We the People'' is not merely a mental 
exercise, or a contest of effort and knowledge. By learning about the 
government, one automatically becomes involved in it. I am here today, 
in front of the nation's leaders, speaking with a message I hope to 
convey. I have learned in class that we are blessed with a 
participatory government. Now it has been proven to me.
    The importance of developing these fundamental principles and 
values among my generation and future generations was noted by Judge 
Learned Hand in an article on liberty, published by the Yale Alumni 
Magazine on June 6, 1941:
    ``I often wonder whether we do not rest our hopes too much upon 
constitutions, upon laws, and upon courts. These are false hopes, 
believe me, these are false hopes. Liberty lies in the hearts of men 
and women, when it dies there, no constitution, no law, no court can 
save it; no constitution, no court, no law can even do much to help it. 
While it lies there it needs no constitution, no law, no court to save 
it . . . .''
    Mr. Chairman, I thank the committee for giving me the opportunity 
to testify.

                 Prepared Statement of Philip D. Duncan

    Chairman Gregg and Senator Kennedy, I am pleased to have this 
opportunity to submit written testimony on behalf of the National 
Conference on Citizenship on the important issue of teaching civics 
education in the classrooms of our Nation.
    As the Committee knows, there has been a lack of focused civics 
education at all levels of schooling in the United States for several 
decades. As President Bush recently noted, tests and studies have 
demonstrated that 28 percent of 8th graders do not know why the Civil 
War was fought, one-third of 4th graders did not know what it means to 
``pledge allegiance to the flag,'' and 20 percent of high school 
seniors believed that Germany was an ally of the United States in World 
War II. Meanwhile, there has been a trend of disengagement from 
political affairs among college-age students and recent graduates.
    There is a need for innovative educational programs that will 
foster informed, thoughtful and active citizen leaders among our 
younger generations. We believe that bipartisan legislation such as S. 
504, the American History and Civics Education Act of 2003, 
demonstrates that Congress is prepared to tackle the challenge of 
reinvigorating classroom discussion on the events, ideas and historical 
figures that unite us all as Americans. We commend Senator Alexander 
for taking a leadership role on this issue, reflecting his career as 
public servant, educator and innovator.
    Over the decades, the National Conference on Citizenship has 
undertaken a variety of programs and projects aimed at promoting civic 
involvement and civil dialogue. The National Conference on Citizenship 
is a non-profit, non-partisan 501(c)(3) organization founded in 1946 by 
citizens who gathered in Philadelphia and sought to preserve the spirit 
of civic unity that prevailed in the U.S. during World War 11. In its 
early years, the Conference received financial support from the Dept. 
of Justice and the National Education Association. Congress enacted 
legislation in August, 1953 granting the National Conference on 
Citizenship a federal charter, directing it to ``assist in the 
development of more dynamic procedures for making citizenship more 
effective . . .'' Public Law 257, 83rd Congress, 1st Session. Past 
Honorary Chairmen have included former Presidents Dwight D. Eisenhower, 
Lyndon Johnson and Harry Truman, and former Supreme Court Chief 
Justices Earl Warren and Warren Burger, and former Justice Tom Clark.
    Our Nation's ability to raise ``effective'' citizens is linked 
inextricably to what goes on in our classrooms from the earliest ages 
of our children. Over the 56 years that the National Conference on 
Citizenship has been in existence, there has been a great fluctuation 
in terms of the content of curricula at all levels. Our organization's 
mission includes efforts to commemorate Citizenship Day and 
Constitution Week each September and thus raise awareness of the United 
States Constitution. As our Nation has faced unprecedented challenges 
in the post-September 11 environment, there has been increased 
discourse as to the range of Constitutional freedoms--privacy, rights 
of prisoners, the death penalty, free speech, just to name a few. How 
can we as a society have intelligent and reasoned discourse if our 
young people aren't fully aware of the origins and nature of such 
rights?
    Now, more than ever, it is essential that Congress support the 
notion of improving civics education at all levels of schooling. Our 
organization is undertaking new initiatives designed to reach K-12 and 
college-age students and to inspire them to become active, enlightened 
citizens. And, we are very pleased that this Committee is taking the 
time to learn more about the current state of affairs in civics 
education and to consider legislation such as Senator Alexander's 
comprehensive bill.

                     Statement of Lawrence M. Small

                              INTRODUCTION

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to testify before you today to express the Smithsonian 
Institution's commitment to American History education. Americans need 
to be aware of the key events and issues of our history in order to be 
engaged and effective citizens in a democratic society. And now, more 
than ever, a knowledge and understanding of our nation's foundation is 
vital for every citizen.
    Every day at the Smithsonian, Americans benefit from seeing our 
nation's historic, artistic, and scientific treasures. These original, 
iconic objects have a power to educate, enlighten, and inspire that is 
truly unique. From them, visitors learn stories of American courage, 
sacrifice, and triumph. They are reminded of our willingness to fight 
for the values we hold dear, our ability to overcome adversity, and our 
responsibilities as citizens to participate in the democratic process. 
Within our great democracy, they are able to think about, freely 
discuss, and even argue their nation's history.
    As the largest museum complex in the world, the Smithsonian spans 
sixteen museums and galleries, the National Zoo, world-class research 
facilities, and extensive education and outreach programs. We are 
privileged to be the steward of millions of objects that preserve the 
memories and experiences of the American people. We are home to The 
Star Spangled Banner, Gilbert Stuart's famous 1796 ``Lansdowne'' 
portrait of George Washington, the desk on which Thomas Jefferson 
drafted the Declaration of Independence, the microphone FDR used for 
his fireside chats, and countless other American icons. Our exhibitions 
tell stories of people and events that shaped our nation, from The 
American Presidency: A Glorious Burden, to GI: World War II, to Apollo 
to the Moon, all the way up to September I1: Bearing Witness to 
History.
    As guardians of our nation's greatest treasures, we at the 
Smithsonian are continually asking what we need to do to assure that 
today's generation and the next generation of Americans can learn about 
our nation's history, challenges, achievements, and values. One way is 
through museum exhibitions and programming. Another way is through a 
greater emphasis on American history and civics education in our 
schools. Museums and schools share similar-and complementary- 
educational goals.

                   Bringing American History to Life

    The great public mission at the Smithsonian is to create 
experiences that educate, excite, entertain, and inspire Americans. The 
next Neil Armstrong may be moved to reach for the stars by our new 
Apollo 11 website for students. A young person who visits the 
Greensboro lunch counter in our National Museum of American History and 
hears the story of four African American students who sat down there 
and politely asked for service in 1960, might be drawn to a life of 
activism. Or seeing the New York City Fire Department cap that Rudolph 
Guiliani wore during his visits to Ground Zero might inspire a child to 
a career in public service. By visiting Smithsonian exhibitions, our 
young people can find these stories and those of other American heroes 
who have made great contributions to this country.
    Our approach is comprehensive-in our museums, in our traveling 
exhibitions, our publications, our teacher training, and our websites. 
A good example is the Smithsonian's groundbreaking American Presidency: 
A Glorious Burden exhibition, which gives visitors a greater 
understanding of public service and leadership, as well as a sense of 
pride in the history of the institution of the American presidency. It 
includes a permanent exhibition in Washington and a traveling 
exhibition currently touring across the country. We have also conducted 
teacher workshops, hosted an American Presidency Family Day, published 
a family guide and an interactive website, and produced print and web 
K-12 teaching guides.

                        COMMITMENT TO EDUCATION

    The Smithsonian is far more than just a place to visit. The 
Institution was established in 1846 for the ``increase and diffusion of 
knowledge.'' For 157 years, we've been working to fulfill this dual 
mission. Last year alone, we reached tens of millions of Americans 
through our education programs. But we're committed to doing even more. 
Our Center for Education and Museum Studies conducted an institution-
wide survey of education, identifying the thousands of programs that 
the Smithsonian offers for teachers, students, and families, and laying 
the groundwork for strategic planning. We have made worldclass 
education a top priority at the Smithsonian. Our staff is working 
together as never before to set new educational programming standards 
and to better serve teachers and students. And we are making a real 
difference.
    Nearly 15 million students have benefited in the past year from 
Smithsonian educational programming, including publications, docent-led 
tours, museum and classroom enrichment activities, distance learning 
classes, visiting scholars, websites, and publications.
    In addition, we reached 1.5 million K-12 educators through 
publications, resources, and training designed specifically for them. 
Educators are clearly looking to the Smithsonian for teaching 
resources. Of the 65 million visits to the Smithsonian's websites in 
the past year, one in four is searching for educational materials. 
We're working hard to fill their needs; we have more than 300 
educational websites at the Smithsonian, and dozens more are under 
development right now.

               IMPROVING THE TEACHING OF AMERICAN HISTORY

    Smithsonian resources are found in every middle and elementary 
school in the nation. Our teaching guide to American history, 
Smithsonian in Your Classroom, is sent biannually to more than 82,000 
schools. We have recently launched a major central education website, 
which brings together nearly 1,000 Smithsonian educational resources 
that can be used in the classroom. It helps users find such notable 
teaching resources as our award-winning ``George Catlin Classroom'' 
website; our Advanced Placement site, which shows educators how to 
teach American history through documents and artifacts; and our 
``George Washington: A National Treasure'' site, which shows children 
how to explore the most important visual document of our nation's 
founding-Gilbert Stuart's famous 1796 ``Lansdowne'' portrait of George 
Washington.
    The Smithsonian is also actively partnering with schools to make a 
real and quantifiable difference in the teaching of American History. 
Thanks to legislation introduced by Senator Robert Byrd, the 
Smithsonian is participating in two Teaching American History grants 
provided by Congress and the Department of Education. The Smithsonian 
is providing advanced techniques for teaching American history in two 
school districts: Montgomery County in Maryland and Charlotte-
Mecklenburg in North Carolina. The teachers are learning how to use 
primary and secondary sources, develop model lesson plans, and improve 
student performance. These three-year grants are breaking new ground in 
showing how museums can make positive contributions to the teaching of 
American history. After just one year, Montgomery County formally 
adopted the Smithsonian's materials into its fourth-and fifth-grade 
history curriculum, and its teachers have shown significant gains in 
their history-teaching skills, as well as in their personal and 
professional interest in American history.
    Through partnerships such as these, the Smithsonian is uniquely 
positioned to see the real need for resources and training in the 
teaching of American history and civics. Our partner school districts 
report large percentages of teachers who have never been given the 
necessary training in American history. For example, in Montgomery 
County, one of the strongest school districts in the state, teachers 
have taken an average of only three history classes in college. Less 
than thirty percent have taken an American history class in the 
previous five years. And more than forty percent have never had any 
training in how to teach history.
    These data are cause for concern. If teachers don't have the 
training they need, our students will not receive an adequate 
understanding of the history of their own nation. Schools clearly need 
direction and assistance in developing the necessary expertise within 
their teaching ranks. And we know they are looking for this direction 
and assistance because of the hundreds of requests the Smithsonian 
receives each year for materials, assistance, and potential 
partnerships.

                               CONCLUSION

    The desk on which Thomas Jefferson drafted the Declaration of 
Independence is on display in the Smithsonian's National Museum of 
American History. If you look carefully, you can see ink stains from 
the first pen strokes that shaped our democracy. In these same halls, 
you can find the remains of a bullet-riddled tree that once stood at 
the Battle of Spotsylvania during the Civil War. Now more than ever, 
this tree is a reminder of the sacrifices required by liberty and 
freedom. These are more than objects; they are tangible symbols of what 
it is to be an American.
    Understanding our history is fundamental to being a good citizen. 
The Smithsonian Institution and the American History and Civics 
Education Act of 2003 share a common goal: to ensure that our young 
people have a solid historical foundation so they can understand 
American history and democratic principles and be prepared to exercise 
their civic rights and responsibilities. As a guardian of a large 
portion for our nation's most significant historic treasure, the 
Smithsonian is eager to contribute to the teaching of American history 
and civics. Museums have so much to offer schools, and we know that we 
can do so much more by working together.

                     Statement of Robin Butterfield

          PUTTING NATIVE AMERICANS BACK INTO AMERICAN HISTORY

    Introduction. Chairman Gregg and Members of the Committee, thank 
you for this opportunity to submit testimony on behalf of the National 
Indian Education Association with regard to the American History and 
Civics Education Act of 2003, S. 504.
    The National Indian Education Association (NIEA) is the oldest and 
largest national organization representing the education concerns of 
over 3,000 American Indian, Alaska Native and Native Hawaiian 
educators, tribal leaders, school administrators, teachers, parents, 
and student members. Founded in 1969, the NIEA works to support 
traditional Native cultures and values and to provide American Indians 
and Alaskan Natives with a national voice in their efforts to improve 
access to educational opportunities.
    The role of Native Americans in the development of the American 
democracy often has been overlooked or misrepresented. For years, 
American History and Civics textbooks did not do justice to the role of 
Indians in American history, nor their part in the development of the 
American government. Instead, to the extent Indians were mentioned at 
all, they were either romanticized as the ``Noble Savage'' or described 
as impediments to the realization of the Manifest Destiny of the United 
States to extend its reach from the Atlantic to the Pacific. 
Fortunately, in recent years, a number of states, including California, 
Montana and Minnesota, have required curriculum changes to include 
teaching on American Indian history. Hopefully, more will do so in the 
near future.
    For Indian people, the link between education and culture is 
fundamental. Unfortunately, this can work for good or for ill. For 
years, the Federal government used education as a tool to force 
assimilation on Indian peoples, most notably during the period when 
Federal Indian policy required Indian children to attend boarding 
schools where they were prohibited from speaking their native 
languages. The motto of the Federal government during that time was: 
``Kill the Indian, Save the Man.'' This policy was morally repugnant 
and did great harm to Indian culture and identity. In this context, it 
is all the more important that when the Federal government promotes the 
teaching of American History and Civics that it specifically include 
the role and contribution of Native Americans. From our standpoint, it 
is not possible for Americans to fully understand American democracy 
unless they also understand the rich traditions of precontact Indian 
societies, the roles Indians played directly in the development of 
American democracy, and the devastation of forced assimilation and the 
loss of tribal lands, which all contributed in one way or another to 
the development of that democracy.
    Native Americans have played a substantial role in the development 
of the key institutions and democratic heritage of the United States. 
American democracy was not developed in a vacuum. The American 
colonists had to look no farther than their next-door neighbor, the 
Iroquois Confederacy, to find a working ``federal'' system of 
government. The Iroquois Confederacy consisted of a federation of five, 
and then later six, Indian nations governed by a United Council of 
elected tribal leaders under the Great Law of Peace. The sophisticated 
tenets of governance that sustained the Iroquois Confederacy-equal 
rights (including full rights for woman, something not realized by the 
United States until the early 20th Century), freedom of speech, 
religious tolerance, balance of power, a mix of individualism combined 
with concern for the common welfare-provided a sharp contrast to the 
tyrannical system of George In and the divine rights of European 
monarchies. Benjamin Franklin, who incorporated many of the same 
governing principles into his draft of the historic Albany Plan, stated 
``It would be a strange thing . . . if Six Nations [the Iroquois 
Confederacy] . . . should be capable of forming such a union and be 
able to execute it in such a manner that it has subsisted for ages and 
appears indissoluble, and yet that a like union should be impractical 
for ten or a dozen English colonies, to whom it is more necessary and 
must be more advantageous . . .'' It only makes sense that the 
colonists and the Native peoples would exchange not only trade goods, 
but ideas. Indeed, in October 1998, the Senate and the House passed 
Congressional Resolution 331 which formally acknowledged ``the 
contributions of the Iroquois Confederacy of Nations to the development 
of our Constitution.''
    Another example of Indian contributions to American democracy is 
the caucus. The word ``caucus'' is taken directly from the Algonquin 
language. The colonists adopted both the word and the idea from the 
Algonquin Indians.
    American Indians have made great contributions to the defense of 
the United States. Despite the often tragic history between the United 
States and its Indian peoples, American Indians have made major 
contributions to the defense of this land and to the preservation of 
American democracy. American Indians per capita have received the Medal 
of Honor and have volunteered in larger numbers for the armed forces 
than any other group in this country. Native Americans were granted 
U.S. citizenship in 1924 as a direct result of the overwhelming number 
of Native American volunteers who signed up to defend the United States 
during World War I. Today, Native Americans are proud of both their 
U.S. citizenship and their tribal citizenship. In 2001, President Bush 
awarded Congressional Gold Medals to the Navajo Codetalkers for their 
extraordinary service in the Pacific Campaign during World War II 
relaying encoded messages in the Navajo language. The Japanese never 
broke this code. Military historians have indicated that these secure 
communications contributed enormously to U.S. successes in this 
theater.
    American Democracy Includes a Respect for Tribal Sovereignty. The 
inclusion of Native American history in any discussion of American 
History and Civics is also essential for understanding the unique 
relationship between the United States government and federally 
recognized tribes that exists today. The Constitution of the United 
States, treaties, federal statutes, Executive Orders, other agreements 
and Supreme Court rulings define the Federal government's trust 
obligations to protect the interests of Indian peoples. They also set 
forth Federal recognition of Indian tribes as sovereign nations with 
inherent powers of self-governance.
    Proposed Amendments to S. 504. The National Indian Education 
Association supports the goals of S. 504. It is critically important 
for Americans to have a deeply grounded understanding of American 
history. This includes, however, the often forgotten history of Native 
Americans. The NIEA would like to see S. 504 amended to specifically 
provide for recognition of Native Americans, their contributions to 
American democracy, and their ongoing contributions to American 
history. Specifically, NIEA recommends the following amendments:
    Section 2(1): Adding to the end of the definition of ``American 
history and civics'' the following: ``, including Native American 
contributions.''
    Section 2(4): Adding to the end of the definition of ``key 
documents'' the following: ``the Great Law of Peace.''
    Section 2(7): Adding to the definition of ``key persons'', after 
the words ``elected officials'' the following: ``Native American 
leaders,''
    Section 5(d)(3): Adding at the end of this paragraph the following: 
``including Indian tribes and tribal education departments.''
    Conclusion. We hope that these comments are helpful. The NIEA looks 
forward to working with this Committee to achieve the laudable goal of 
increasing the understanding of American history and civics.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]


</pre></body></html>
